<html>
<title> - DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2006</title>
<body><pre>[Senate Hearing 109-]
[From the U.S. Government Printing Office]



 
DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED 
              AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2006

                              ----------                              


                        WEDNESDAY, MARCH 2, 2005

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:30 a.m. in room SD-126, Dirksen 
Senate Office Building, Hon. Arlen Specter (chairman) 
presiding.
    Present: Senators Specter, Cochran, Harkin, and Kohl.

                        DEPARTMENT OF EDUCATION

                        Office of the Secretary

STATEMENT OF HON. MARGARET SPELLINGS, SECRETARY
ACCOMPANIED BY:
        C. TODD JONES, ASSOCIATE DEPUTY SECRETARY FOR BUDGET AND 
            STRATEGIC ACCOUNTABILITY
        THOMAS SKELLY, DIRECTOR, BUDGET SERVICE


               OPENING STATEMENT OF SENATOR ARLEN SPECTER


    Senator Specter. Good morning, ladies and gentlemen, the 
Appropriations Subcommittee on Labor, Health, Human Services, 
and Education will now proceed. We are joined by the 
distinguished Secretary of Education, Margaret Spellings, who 
has had an outstanding academic and professional career, served 
for 6 years with then-Governor George Bush of Texas, came to 
the White House 4 years ago and has recently been appointed and 
confirmed as Secretary of Education.
    As I had talked to the Secretary earlier, our Senate 
schedule is very, very crowded. We have on the floor at the 
moment the Bankruptcy bill, for which I have duties as chairman 
of the Judiciary Committee, and the majority leader has 
scheduled a meeting at 10 o'clock on pending asbestos 
legislation, which is a matter of real importance to the 
administration and to the Congress, so I'm going to have to 
excuse myself a few minutes before 10 to attend that meeting, 
but my distinguished ranking member, Senator Harkin, has agreed 
to take my place. He does that with great distinction. He and I 
have exchanged the gavel seamlessly for longer than either of 
us is prepared to admit. But we have a true partnership, and 
when he's here I know it will be in very good hands.
    I've already talked to Senator Harkin about waiving our 
opening statements so we can go right to your testimony, Madame 
Secretary, and use the time to the maximum advantage to hear 
from you.


              SUMMARY STATEMENT OF HON. MARGARET SPELLINGS


    Secretary Spellings. Thank you very much, Mr. Chairman. 
Thank you; good morning, Mr. Chairman, Senator Harkin, I'm 
thrilled to be here. This is my first appearance before your 
committee and I know you'll be as kind and gentle on me as you 
are with other administration officials.
    I certainly appreciate the hard work that we have to do 
together, a lot of tough choices this year, and I pledge to 
work with you productively to get to a good result.
    First, I'd like to introduce my budget team: Tom Skelly, 
the Budget Service Director, and Todd Jones, Associate Deputy 
Secretary for Budget and Strategic Accountability. And let me 
take this opportunity to say a special thanks to Chairman 
Specter. I, and my entire Department, wish you a full and 
speedy recovery.
    Senator Specter. Thank you.


               REDUCING THE DEFICIT AND IMPROVING RESULTS


    Secretary Spellings. I am here to testify on behalf of 
President Bush's 2006 discretionary budget request for the 
Department of Education. The President's budget accomplishes 
several goals; the first is fiscal discipline. In his February 
2 State of the Union Address, the President underscored the 
need to restrain spending in order to sustain our economic 
growth and prosperity. It is important that total discretionary 
and non-security spending be held to levels proposed in the 
2006 budget. Its savings and reforms will help us achieve the 
President's goal of cutting the budget deficit in half by 2009, 
and we urge Congress to support them.
    The fiscal year 2006 budget includes more than 150 
reductions, reforms, and terminations in non-defense 
discretionary programs, and of those, a third are under the 
Department of Education. We are committed to working with 
Congress to achieve these savings. Given the fiscal realities, 
we must target our resources towards flexibility and results, 
and let me tell you a little about those results.


                           HIGH SCHOOL REFORM


    First, the budget would expand the promise of the No Child 
Left Behind Act to our Nation's high schools. No Child Left 
Behind rests on the common sense principles of accountability 
for results, data-based decisionmaking, high expectations for 
all, and empowering change. These principles have proven good 
for our elementary and middle schools, and they are needed 
today in our high schools.
    Let me share a few facts that I know you probably have 
heard before: our 15-year-olds perform below average 
internationally in mathematics, literacy, and problem solving. 
Just 68 out of every 100 entering ninth-graders will receive 
their high school diploma on time. Just 27 will enter college 
and still be enrolled by their sophomore year, when nearly 80 
percent of the fastest-growing jobs require at least that level 
of preparation. Two-thirds of those who do graduate from high 
school are not adequately prepared for college, and more than 
half of all college students take remedial education courses 
when they go to post-secondary education.
    Last weekend, the bipartisan National Governors Association 
reported that high schools are failing to prepare too many of 
our students for work and higher education, and Bill Gates told 
them, ``Training the workforce of tomorrow with today's high 
schools is like trying to teach kids about today's computers on 
a 50-year-old mainframe.'' Even the New York Times, just 
yesterday, and the Washington Post editorial pages have weighed 
in. The Times said, ``American students are falling farther and 
farther behind their peers in Asia and Europe.'' It called for 
a far more rigorous curriculum across the board, and the Post 
called on States to ``stop blocking testing and standards and 
find ways to raise them.'' Call it what you will--a challenge, 
a problem, a crisis--it's imperative that we give our high 
schools the tools to succeed in the economy in which 80 percent 
of these jobs require more rigorous levels of education.


                  HIGH SCHOOL INTERVENTION INITIATIVE


    The President's $1.24 billion High School Intervention 
Initiative would help give students the academic skills needed 
to succeed in the 21st century. These reforms would be designed 
and directed, not by the Federal Government, but by States and 
school districts themselves. The budget would provide $250 
million to measure student achievement annually, and hold 
schools accountable for student performance. As we have learned 
from No Child Left Behind, what gets measured, gets done.


                       READING FIRST STATE GRANTS


    We've made a serious effort in improving basic literacy in 
the early grades. We spent more than $2.7 billion in Reading 
First grants to States and school districts, training more than 
90,000 teachers, and teaching 1.5 million students. Today, 
reading and math scores are up in all States across the Nation, 
and urban school districts are leading the way.


            RAISING READING AND MATH AND TEACHER INCENTIVES


    Some high school students struggle with reading and math, 
too. They would benefit from our Striving Readers program, $200 
million, a $175 million increase over 2005, and a new secondary 
education mathematics initiative of $120 million. A $500 
million Teacher Incentive Fund would reward our best educators, 
and attract more of them to serve in our most challenging 
schools.


                PROVIDING FOR MORE CHALLENGING CURRICULA


    As you've heard, there is a near-unanimous call for more 
rigorous high school curricula. The President's budget would 
invest $45 million, an increase of $42.5 million, to encourage 
students to take more challenging course work. This includes a 
boost for the public-private State Scholars program, which 
strives for a college-ready curriculum in every high school, 
and new, enhanced Pell Grants for students completing such 
rigorous programs.
    The budget also provides a 73 percent increase to expand 
the availability of advanced placement in international 
baccalaureate programs in high-poverty schools.


                         CONTINUING PRIORITIES


    Second, the President's budget continues the solid progress 
begun under No Child Left Behind. Congress overwhelmingly 
passed this bipartisan law just 3 years ago, and today, across 
the country, test scores are rising, schools are improving, and 
the achievement gap is beginning to close. The budget would 
increase Title I Grants to Local Educational Agencies, the 
engine of No Child Left Behind, by $603 million. This 
represents a 52 percent increase since the law was signed. The 
budget also provides a $508 million increase for the Special 
Education Grants to States program, 75 percent higher than 5 
years ago.


                         COLLEGE AFFORDABILITY


    Finally, the President's budget makes college affordability 
a high priority. It would provide $19 billion over 10 years in 
mandatory funds for Pell Grants, resulting from student loan 
program reforms. This will retire the Pell Grant funding 
shortfall and help more than 5 million recipients attend 
college next year alone. The maximum individual Pell Grant 
would be increased by $100 for each of the next 5 years, to 
$4,550, and grants would be available year-round, so students 
can learn on their own time-table.


                 PRESIDENTIAL MATH AND SCIENCE SCHOLARS


    To encourage more students, especially poor and minority 
students, to enter the critical fields of math and science, our 
budget also includes a new Presidential Math/Science Scholars 
Program, which would award up to $5,000 each to low-income 
college students pursuing degrees in those demanding and in-
demand fields.


                    COMMUNITY COLLEGE ACCESS GRANTS


    Finally, the budget establishes a new $125 million 
Community College Access Grants fund to support dual enrollment 
credit transfers for high school students taking college-level 
course work. With this budget's passage, student financial 
assistance will have risen from $48 billion to $78 billion 
during this administration.
    In conclusion, let me say that I appreciate and respect the 
priorities you make and the promises you keep as the people's 
representatives. What I have just outlined are the President's 
education priorities; the common thread in all of them is 
aligning needs with results.


                           PREPARED STATEMENT


    We will not agree on everything, it will not always be easy 
to find common ground in a Nation on wartime footing, and a 
tight fiscal climate, but I am here to listen to your 
priorities. The President has made tough choices, we know you 
will, too. And we want to work with you to make the very best 
choices for America's students.
    Thank you very much.
    [The statement follows:]

             Prepared Statement of Hon. Margaret Spellings

    Mr. Chairman and Members of the Subcommittee: Thank you for this 
opportunity to testify on behalf of President Bush's 2006 discretionary 
request for the Department of Education. I believe we have a strong, 
focused budget proposal this year, one that reflects the need for both 
fiscal discipline and continuing support for State and local efforts to 
carry out No Child Left Behind. Moreover, our budget would 
significantly strengthen the impact of No Child Left Behind at the high 
school level, helping to ensure that every student not only graduates 
from high school, but graduates with the skills to succeed in either 
the workforce or in postsecondary education.
    President Bush is requesting $56.0 billion in discretionary 
appropriations for the Department of Education in fiscal year 2006, a 
decrease of $529.6 million, or less than 1 percent, from the 2005 
level. This request is consistent with the President's overall 2006 
budget, and reflects his determination to cut the Federal budget 
deficit in half over the next 5 years. Even with the proposed 
reduction, discretionary appropriations for education would be up 
nearly $14 billion, or 33 percent, since fiscal year 2001.

               REDUCING THE DEFICIT AND IMPROVING RESULTS

    In his February 2 State of the Union Address, the President 
underscored the need to restrain spending in order to sustain our 
economic prosperity. As part of this restraint, it is important that 
total discretionary and non-discretionary spending be held to levels 
proposed in his fiscal year 2006 budget request. The savings and 
reforms proposed in this request are critical to achieving the 
President's goal of cutting the budget deficit in half by 2009, and we 
urge the Congress to support this goal.
    Overall, the President's 2006 discretionary request proposes more 
than 150 reductions, reforms, and terminations in non-defense programs. 
The Department of Education's budget proposal includes several major 
reductions and 48 terminations, 33 of which are small, narrow-purpose 
programs funded at less than $40 million in 2005. On behalf of the 
Department, I want the Members of this Subcommittee to know that we are 
determined to work with the Congress to achieve these savings.
    Let me add that our proposed reductions and terminations reflect 
the longstanding practice of this administration to streamline 
government, end unnecessary duplication, and redirect scarce taxpayer 
dollars only to those programs that work. Many of our proposed 
eliminations were requested by previous administrations as well, on the 
grounds that they were a low priority and lacked results. In other 
words, the reductions proposed in our 2006 request reflect not only the 
obvious need for fiscal discipline, but also our determination to spend 
taxpayer dollars as effectively as possible. As President Bush has 
said, ``A taxpayer dollar ought to be spent wisely, or not spent at 
all.''

                           HIGH SCHOOL REFORM

    As most of you know, our request for elementary and secondary 
education focuses on strengthening the impact of No Child Left Behind 
in our high schools through the $1.5 billion High School Initiative. 
Our key proposal in this area is $1.24 billion for High School 
Intervention, which would support a wide range of locally determined 
reforms aimed at ensuring that every student not only graduates from 
high school, but graduates with the skills to succeed in either college 
or the workforce. We also are asking for $250 million for High School 
Assessments to increase accountability for high school achievement and 
give principals and teachers new tools and data to guide instruction 
and meet the specific needs of each student.
    Together, these two components of the President's High School 
Initiative would give States and school district administrators more 
effective tools for improving high schools than they have under the 
existing array of uncoordinated, narrow-purpose programs that this 
initiative would replace.
    The need to direct more attention to our high schools is beyond 
question. Currently just 68 out of every 100 ninth-graders will 
graduate from high school on time. Moreover, a recent study by the 
Manhattan Institute showed that two-thirds of students leave high 
school without the skills to succeed in college. As a result, only 27 
of those original 100 ninth-graders make it to their sophomore year of 
college, and just 18 graduate from college. These figures are even more 
troubling when you consider that 80 percent of the fastest-growing jobs 
require at least some postsecondary education.
    In addition to High School Intervention and Assessments, we are 
seeking a $175 million expansion of the new Striving Readers program, 
which supports the development and implementation of research-based 
methods for improving the skills of teenage students who are reading 
below grade level. Similarly, a new, $120 million Secondary Education 
Mathematics Initiative would help raise mathematics achievement, 
especially for at-risk students, in our high schools. We also want to 
help strengthen high school curricula by providing a $22 million 
increase for the Advanced Placement program, as well as a total 
increase of $45 million for the State Scholars programs to encourage 
more students to complete a rigorous high school curriculum.
    And as you consider our High School Initiative, I hope you will 
keep in mind the startling costs of the alternative: American companies 
and universities currently spend as much as $16 billion annually on 
remedial education to teach employees and students the basic skills 
they should have mastered in high school.

                         CONTINUING PRIORITIES

    The 2006 budget continues to place a strong priority on our three 
largest programs, which together form the foundation of the 
Department's efforts to help ensure that students at all levels have 
the opportunity to obtain a high-quality education. We are asking for a 
$603 million increase for the Title I Grants to Local Educational 
Agencies program, which is the engine driving the President's No Child 
Left Behind reforms. If enacted, this request would result in a $4.6 
billion or 52 percent increase for Title I since the passage of the 
NCLB Act.
    The budget also provides a $508 million increase for the 
reauthorized Special Education Grants to States program, for a total 
increase of $4.8 billion, or 75 percent, over the past 5 years.
    The third major continuing priority for 2006 is the Pell Grant 
program. Our budget includes a comprehensive package of proposals to 
restore Pell Grants to sound financial footing and significantly 
increase the purchasing power of the Pell Grant. These proposals would 
provide a combination of discretionary and mandatory funding that would 
retire the $4.3 billion Pell Grant shortfall, while raising the Pell 
Grant maximum award from $4,050 to $4,550 over the next 5 years. In 
2006 alone, the request would provide a $1.3 billion increase for Pell 
Grants, for a total of $13.7 billion, to raise the maximum award to 
$4,150 and provide grants to an estimated 5.5 million low-income 
postsecondary students.

                          NO CHILD LEFT BEHIND

    Title I remains our key priority for successfully implementing No 
Child Left Behind, but our 2006 request includes a major new proposal 
to help meet the law's requirement that every classroom be led by a 
highly qualified teacher. The new Teacher Incentive Fund would provide 
$500 million to help stimulate closer alignment of teacher compensation 
systems with better teaching, higher student achievement, and stronger 
teaching in high-poverty schools.
    Data on teacher qualifications show that high-poverty schools 
continue to have greater difficulty than low-poverty schools in 
attracting and retaining highly qualified teachers. For example, a 
recent study of California schools by The Education Trust-West showed 
that high-poverty schools tend to have teachers with fewer years of 
experience who, by definition under current, seniority-based 
compensation systems, are paid lower salaries than more veteran 
teachers.
    The Teacher Incentive Fund would give States $450 million in 
formula grants to reward and retain effective teachers and offer 
incentives for highly qualified teachers to teach in high-poverty 
schools. A separate, $50 million competitive grant program would 
encourage the development and implementation of performance-based 
compensation systems to serve as models for districts seeking to more 
closely link teacher compensation to student achievement.
    In addition to Title I and the Teacher Incentive Fund, our 2006 
request maintains strong support for No Child Left Behind programs, 
including almost $3 billion for Improving Teacher Quality State Grants, 
$1.1 billion for Reading First and Early Reading First, and $412 
million for State Assessment Grants.

               EXPANDING OPTIONS FOR STUDENT AND PARENTS

    Finally, our request includes funding to continue the expansion of 
educational options for students and families. No Child Left Behind is 
helping to ensure that students in low-performing schools have the 
opportunity to transfer to a better school, or to obtain tutoring or 
other supplemental educational services from the provider of their 
choice. And Federal dollars are now financing opportunity scholarships 
that permit low-income students here in the District of Columbia to 
attend better-performing private schools.
    The 2006 budget would build on these new options by providing $50 
million for a new Choice Incentive Fund that would support State and 
local efforts to give parents the opportunity to transfer their 
children to a higher-performing public, private, or charter school. The 
request also maintains significant support for the charter school 
movement, with $219 million for Charter Schools grants and $37 million 
for the Credit Enhancement for Charter School Facilities program.

                               CONCLUSION

    I believe these highlights of our 2006 request show that we have a 
strong budget for education, one that makes hard but necessary 
decisions to put significant resources where they can do the most to 
help improve the quality of our education system at all levels. I want 
to conclude with just a few comments on recent charges that our 
Administration is underfunding education, or that our 2006 proposal is 
an ``anti-education'' budget.
    First, the numbers just don't add up for our critics. As I noted 
earlier, under our request, President Bush would increase discretionary 
spending for the Department by $14 billion, or 33 percent, since taking 
office in 2001. Key programs have done even better: Title I would be up 
$4.6 billion, or 52 percent; Special Education Grants to States would 
rise $4.8 billion, 75 percent; and Pell Grants would be up $4.5 
billion, or 51 percent. And by the way, all of these increases have 
come at a time of historically low inflation.
    Second, with total national spending on elementary and secondary 
education more than doubling over the past decade, from roughly $260 
billion to well over $500 billion, it's very hard to make the case that 
money is where we are falling short in education, especially when all 
that new money has produced so little in the way of improved student 
achievement.
    Third, like nearly all Federal education spending, No Child Left 
Behind is intended to leverage ``not replace'' the much larger share of 
education funding coming from State and local sources. Even the 
tremendous increases of the past 4 years have succeeded in lifting the 
Federal share of elementary and secondary spending by just 1 percentage 
point, from roughly 7 percent to about 8 percent. Our goal should be to 
help States and school districts spend smarter on education, not just 
more, and No Child Left Behind is accomplishing this goal.
    Fourth, fully 3 years after the passage of No Child Left Behind, 
and during its third school year of implementation, I have yet to see a 
methodologically sound study providing any documentation of the charge 
that the law is underfunded. Does the law entail additional costs? The 
answer is yes, and our budgets have reflected those costs, but I have 
yet to see any evidence that we have significantly increased financial 
burdens on States or school districts, much less passed on any 
``unfunded mandate.''
    Finally, context matters, and the size of the Federal budget 
deficit matters. To keep our economy strong, and to create new jobs for 
future graduates, we need to reduce the deficit and encourage more 
private sector investment in our economy. The Department of Education 
is doing its part to help achieve this critical goal.
    Thank you, and I will be happy to take any questions you may have.

                   INTRODUCTION OF COMMITTEE CHAIRMAN

    Senator Specter. Thank you very much, Madame Secretary. 
We've been joined by the distinguished chairman of the full 
Committee, Senator Cochran. Would you care to make an opening 
statement?

               OPENING STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, I'm happy to join you this 
morning to welcome the Secretary to our hearings. I'm 
encouraged by the progress that the administration has made in 
targeting funds to areas of special need where school districts 
don't have the resources to do the job they would like to do in 
helping educate our elementary and secondary students. I think 
the traditional programs that have helped in this regard, such 
as Title I, need to be supported and we hope we can build on 
the things we've learned in the past about some teacher 
training programs that have improved morale, like the National 
Writing Project. I hope that we can get the administration's 
support for continuing programs of that kind. But, overall I 
think you have a big task, no more important job in Government 
than helping to see that we do the right thing for education 
programs throughout the country. It's the bulwark of our 
freedom and our economic prospects for the future. Everyone has 
a right to enjoy a good, quality education, and I think that's 
the goal of this administration. Strong leadership has been 
provided in that regard, and I congratulate you for the work 
you've done in the past, and also the President, for his 
leadership.
    Secretary Spellings. Thank you, Senator.
    Senator Cochran. Thank you for being here and cooperating 
with our committee.
    Secretary Spellings. Thank you.

            PROPOSED REDUCTIONS TO FEDERAL EDUCATION BUDGET

    Senator Specter. Thank you very much, Mr. Chairman. Thank 
you for an abbreviated statement, Madame Secretary, which gives 
me time to initiate a round of questioning for which we 
customarily have 5 minutes; although with only a few of our 
members present, that will be elongated into a number of 
rounds.
    As I mentioned to you in our conversation earlier, I'm very 
much concerned about the fact that the budget has a reduction 
of .9--almost 1 percent--and that is in the face of the 
inevitable problem of inflation. And we are telling the 
American people about this budget in the context of tremendous 
expenses which are going in other directions--very necessary 
expenses beyond any doubt--in what's happening around the world 
as we defend freedom with the President's initiative, and he 
deserves a lot of credit for what is happening around the 
world, with his leadership. With elections in surprising 
places, and more elections forthcoming. But, when we return to 
our constituents, we have some very tough questions to answer 
about education.

                   FEDERAL SHARE OF EDUCATION FUNDING

    Education is a capital asset, and a capital investment. 
There's no more important expenditure that the government 
makes, and we all know the Federal share of that is relatively 
limited, somewhere in the 7 to 8 percent range. And, 
appropriately--as you have already noted--the initiatives are 
to come from local school boards, where they are close to the 
problem in the States, that is our system of federalism, and it 
is a good system.

                     PROPOSED PROGRAM ELIMINATIONS

    I would begin on my request to you, Madame Secretary, as we 
work through the process--and you've only been in office since 
January 20--but, this subcommittee is going to need to have the 
specifics on why you have eliminated 48 programs. Those 
programs have come into existence as a result of study by the 
Congress, which has the fundamental appropriations authority 
under the Constitution. The President has to sign the bills, 
but the Congress has the authority under appropriations, and 
these programs have been suggested by a variety of people--one 
of them is mentoring seventh grade students which has come out 
of Philadelphia, and has very, very strong support. And every 
one of these programs has a sponsor. And when we sit down on 
our legislative agenda, people are very concerned. So, a 
beginning point is to give us--with specificity--why those 
programs have been eliminated.
    [The information follows:]

                   Programs Proposed for Elimination

    The 2006 request continues the practice of the Bush 
Administration--also consistent with previous administrations over the 
past 25 years--of proposing to eliminate or consolidate funding for 
programs that have achieved their original purpose, that duplicate 
other programs, that may be carried out with flexible State formula 
grant funds, or that involve activities that are better or more 
appropriately supported through State, local, or private resources. In 
addition, the government-wide Program Assessment Rating Tool, or PART, 
helps focus funding on Department of Education programs that generate 
positive results for students and that meet strong accountability 
standards. For 2006, PART findings were used to redirect funds from 
ineffective programs to more effective activities, as well as to 
identify reforms to help address program weaknesses.
    The following table shows the programs proposed for elimination in 
the President's 2006 budget request. Termination of these 48 programs 
frees up almost $4.3 billion--based on 2005 levels--for reallocation to 
more effective, higher-priority activities. Following the table is a 
brief summary of each program and the rationale for its elimination.

                        [In millions of dollars]
------------------------------------------------------------------------
                     Program terminations                        Amount
------------------------------------------------------------------------
Alcohol Abuse Reduction......................................       32.7
Arts in Education............................................       35.6
B.J. Stupak Olympic Scholarships.............................        1.0
Byrd Honors Scholarships.....................................       40.7
Civic Education..............................................       29.4
Close Up Fellowships.........................................        1.5
Community Technology Centers.................................        5.0
Comprehensive School Reform..................................      205.3
Demonstration Projects for Students with Disabilities........        6.9
Educational Technology State Grants..........................      496.0
Elementary and Secondary School Counseling...................       34.7
Even Start...................................................      225.1
Excellence in Economic Education.............................        1.5
Exchanges with Historic Whaling and Trading Partners.........        8.6
Federal Perkins Loans Cancellations..........................       66.1
Foreign Language Assistance..................................       17.9
Foundations for Learning.....................................        1.0
Gaining Early Awareness and Readiness for Undergraduate            306.5
 Programs....................................................
Interest Subsidy Grants......................................        1.5
Javits Gifted and Talented Education.........................       11.0
Leveraging Educational Assistance Partnerships...............       65.6
Literacy Programs for Prisoners..............................        5.0
Mental Health Integration in Schools.........................        5.0
Migrant and Seasonal Farmworkers.............................        2.3
National Writing Project.....................................       20.3
Occupational and Employment Information......................        9.3
Parental Information and Resource Centers....................       41.9
Projects With Industry.......................................       21.6
Ready to Teach...............................................       14.3
Recreational Programs........................................        2.5
Regional Educational Laboratories............................       66.1
Safe and Drug-Free Schools and Communities State Grants......      437.4
School Dropout Prevention....................................        4.9
School Leadership............................................       14.9
Smaller Learning Communities.................................       94.5
Star Schools.................................................       20.8
State Grants for Incarcerated Youth Offenders................       21.8
Supported Employment State Grants............................       37.4
Teacher Quality Enhancement..................................       68.3
Tech-Prep Demonstration......................................        4.9
Tech-Prep Education State Grants.............................      105.8
Thurgood Marshall Legal Educational Opportunity Program......        3.0
TRIO Talent Search...........................................      144.9
TRIO Upward Bound............................................      312.6
Underground Railroad Program.................................        2.2
Vocational Education National Programs.......................       11.8
Vocational Education State Grants............................    1,194.3
Women's Educational Equity...................................        3.0
                                                              ----------
      Total..................................................    4,264.4
------------------------------------------------------------------------

                  PROGRAM TERMINATIONS (DESCRIPTIONS)
                                                                Millions
Alcohol Abuse Reduction........................................... $32.7

    Supports programs to reduce alcohol abuse in secondary schools. 
These programs may be funded through other Safe and Drug-Free Schools 
and Communities National Programs and State Grants for Innovative 
Programs.

Arts in Education.................................................  35.6

    Makes non-competitive awards to VSA arts and the John F. Kennedy 
Center for the Performing Arts as well as competitive awards for 
national demonstrations and Federal leadership activities to encourage 
the integration of the arts into the school curriculum. Eliminating 
funding for the program is consistent with Administration policy of 
terminating small categorical programs with limited impact in order to 
fund higher priorities. Arts education programs may be funded under 
other authorities.

B.J. Stupak Olympic Scholarships..................................   1.0

    Provides financial assistance to athletes who are training at the 
United States Olympic Education Center or one of the United States 
Olympic Training centers and who are pursuing a postsecondary 
education. Athletes can receive grant, work-study, and loan assistance 
through the Department's postsecondary student aid programs. Rated 
Results Not Demonstrated by the PART due to lack of performance data 
and program design deficiencies, including its duplication of other 
Federal student aid programs.

Byrd Honors Scholarships..........................................  40.7

    Promotes academic excellence and achievement by awarding merit-
based scholarships to high school students, through formula grants to 
State educational agencies, who have demonstrated outstanding academic 
achievement and who show promise of continued academic excellence. This 
program duplicates existing Federal student financial assistance 
programs, as well as State, local and private efforts that provide 
merit-based resources for postsecondary education. Rated Results Not 
Demonstrated by the PART due to lack of performance data and program 
design deficiencies.

Civic Education...................................................  29.4

    Provides a single non-competitive award to the Center for Civic 
Education to conduct We the People, a program to improve the quality of 
civics and government education. Also makes non-competitive and 
competitive awards for the Cooperative Education Exchange, a program to 
improve civic and economic education through exchange programs. Request 
is consistent with the Administration's policy of terminating small 
categorical programs that have limited impact, and for which there is 
little or no evidence of effectiveness, to fund higher priority 
programs.

Close Up Fellowships..............................................   1.5

    Non-competitive award to Close Up Foundation supports fellowships 
to low-income students and teachers participating in Close Up visits to 
Washington, DC and other activities. Peer organizations provide 
scholarships to some of their participants without Federal assistance, 
and the organization's successful private fundraising eliminates the 
need for the program.

                                                                Millions
Community Technology Centers......................................  $5.0

    Supports centers that offer disadvantaged residents of economically 
distressed areas access to computers and training. Program has limited 
impact and funding for similar activities is available through other 
Federal agencies.

Comprehensive School Reform....................................... 205.3

    This program largely duplicates activities that are readily carried 
out under the Title I Grants to LEAs program. In the 2000-01 school 
year, about 30,000 Title I schools (62 percent) were implementing 
research-based reform models and, beginning with 2002, the NCLB Act 
made statutory changes to further encourage schools to carry out the 
types of whole-school reforms supported by the Comprehensive School 
Reform program. For Comprehensive School Reform (continued): example, 
comprehensive reform is encouraged as part of school improvement 
efforts undertaken by Title I schools that do not make adequate yearly 
progress toward State standards for at least 2 consecutive years. Also, 
the Act lowered the poverty threshold for Title I schoolwide projects 
to 40 percent, thus expanding the number of Title I schools that are 
eligible to use Title I funds to carry out comprehensive school reform.

Demonstration Projects to Ensure Quality Higher Education for 
    Students with Disabilities....................................   6.9

    Funds technical assistance and professional development activities 
for faculty and administrators in institutions of higher education in 
order to improve the quality of education for students with 
disabilities. This program has achieved its primary goal of funding 
model demonstration projects. New projects can and do receive funding 
under FIPSE.

Educational Technology State Grants............................... 496.0

    This program provides funding to States and school districts to 
support the integration of educational technology into classroom 
instruction, technology deployment, and a host of other activities 
designed to utilize technology to improve instruction and student 
learning. Schools today offer a greater level of technology 
infrastructure than just a few years ago, and there is no longer a 
significant need for a State formula grant program targeted 
specifically on (and limited to) the effective integration of 
technology into schools and classrooms. Districts seeking funds to 
integrate technology into teaching and learning can use other Federal 
program funds such as Improving Teacher Quality State Grants and Title 
I Grants to Local Educational Agencies.

Elementary and Secondary School Counseling........................  34.7

    Elementary school and secondary school counseling may be funded 
through other larger and more flexible Federal programs, such as ESEA 
Title V--A State Grants for Innovative Programs.

Even Start........................................................ 225.1

    This program aims to improve educational opportunities for children 
and their parents in low-income areas by integrating early childhood 
education, adult education, and parenting education into ``family 
literacy'' programs. However, three separate national evaluations of 
the program reached the same conclusion: children and adults 
participating in Even Start generally made gains in literacy skills, 
but these gains were not significantly greater than those of non-
participants. Also, the Administration rated the program as Ineffective 
in the 2004 PART process. Other high priority programs such as Reading 
First and Early Reading First are better structured to implement proven 
research and to achieve the President's literacy goals.

Excellence in Economic Education..................................   1.5

    Supports a grant to a single national non-profit educational 
organization to promote economic and financial literacy for K-12 
students. Elimination is consistent with Administration policy of 
terminating small categorical programs with limited impact in order to 
fund higher priorities.

                                                                Millions
Exchanges with Historic Whaling and Trading Partners..............  $8.6

    Supports culturally based educational activities, internships, 
apprenticeship programs and exchanges for Alaska Natives, Native 
Hawaiians, and children and families of Massachusetts. Elimination is 
consistent with Administration policy of terminating small categorical 
programs with limited impact in order to fund higher priorities.

Federal Perkins Loans Cancellations...............................  66.1

    Reimburses institutional revolving funds for borrowers whose loan 
repayments are canceled in exchange for undertaking public service 
employment, such as teaching in Head Start programs, full-time law 
enforcement, or nursing. These reimbursements are no longer needed as 
the Administration is proposing to eliminate the Perkins Loan program, 
which duplicates other student loan programs and serves a limited 
number of institutions.

Foreign Language Assistance.......................................  17.9

    Activities to promote improvement and expansion of foreign language 
instruction may be supported by larger, more flexible ESEA programs, 
such as Improving Teacher Quality State Grants and State Grants for 
Innovative Programs.

Foundations for Learning..........................................   1.0

    Competitive grants provide services to children and their families 
to enhance young children's development so that they become ready for 
school. The request is consistent with the Administration's effort to 
increase resources for high-priority programs by eliminating small, 
narrow categorical programs that duplicate other programs, have limited 
impact, or for which there is little or no evidence of effect. The 
budget request includes funding for other, larger programs that support 
early childhood education and development.

Gaining Early Awareness and Readiness for Undergraduate Programs.. 306.5

    Provides grants to States and partnerships to support early college 
preparation and awareness activities at the State and local levels to 
ensure low-income elementary and secondary school students are prepared 
for and pursue postsecondary education. GEAR UP received an Adequate 
PART rating because it employs a number of strategies that other 
studies have found to be effective, but no data are available to 
measure progress toward long-term program goals. The proposed new High 
School Intervention initiative would provide a more comprehensive 
approach to improving high school education and increasing student 
achievement, especially the achievement of those most at-risk of 
educational failure and dropping out.

Interest Subsidy Grants...........................................   1.5

    Program finances interest subsidy costs of a portfolio of higher 
education facilities loans guaranteed under Federal agreements with 
participating institutions of higher education. Balances from prior 
year appropriations are sufficient to cover all remaining obligations.

Javits Gifted and Talented Education..............................  11.0

    Primarily supports research and demonstration grants, but these 
grants are not structured to assess program effectiveness and identify 
successful intervention strategies that could have broad national 
impact. Only research programs that can be held accountable to rigorous 
standards warrant further investment.

Leveraging Educational Assistance Partnerships....................  65.6

    Program has accomplished its objective of stimulating all States to 
establish need-based postsecondary student grant programs, and Federal 
incentives for such aid are no longer required. State grant levels have 
expanded greatly over the years, and most States significantly exceed 
the statutory matching requirements. State matching funds in academic 
year 1999-2000, for example, totaled nearly $1 billion or more than 
$950 million over the level generated by a dollar-for-dollar match.

Literacy Programs for Prisoners...................................   5.0

    Provides competitive grants to State and local correctional 
agencies and correctional education agencies to support programs that 
reduce recidivism through the improvement of ``life skills.'' Request 
is consistent with the Administration's effort to eliminate small 
programs that have only indirect or limited effect.

                                                                Millions
Mental Health Integration in Schools..............................  $5.0

    Makes competitive grants to increase student access to mental 
health care by linking school systems with the mental health system. 
The request is consistent with the Administration's effort to increase 
resources for high-priority programs by eliminating small, narrow 
categorical programs that duplicate other programs, have limited 
impact, or for which there is little or no evidence of effect.

Migrant and Seasonal Farmworkers..................................   2.3

    Supports rehabilitation services to migratory workers with 
disabilities, but such activities may be funded through the VR State 
Grants program.

National Writing Project..........................................  20.3

    Supports a nationwide nonprofit educational organization that 
promotes K-16 teacher training programs in the effective teaching of 
writing. States may support such activities through flexible programs 
like Improving Teacher Quality State Grants. Rated Results Not 
Demonstrated by the PART review due to lack of reliable performance or 
evaluation data on the effectiveness of supported interventions.

Occupational and Employment Information...........................   9.3

    This career guidance and counseling program has a narrow purpose 
and no demonstrated results. The PART review of this program rated it 
Results Not Demonstrated, largely due to a lack of data on program 
outcomes.

Parental Information and Resource Centers.........................  41.9

    Parent education and family involvement activities are required and 
funded under other ESEA programs, such as Title I Grants to Local 
Educational Agencies, and are a specifically authorized use of funds 
under ESEA Title V-A State Grants for Innovative Programs. The PART 
review of this program rated it Results Not Demonstrated, partly 
because of its unclear statutory purposes.

Projects With Industry............................................  21.6

    PWI projects help individuals with disabilities obtain employment 
in the competitive labor market. VR State Grants serves the same target 
populations and may provide the same services. Rated Adequate by the 
PART process but also determined to be duplicative of the much larger 
VR State Grants program. In addition, data reliability problems 
undermine accurate assessment of program performance.

Ready to Teach....................................................  14.3

    This program supports competitive grants to nonprofit 
telecommunications entities to carry out programs to improve teaching 
in core curriculum areas, and to develop, produce, and distribute 
innovative educational and instructional video programming. State 
Grants for Innovative Programs and Improving Teacher Quality State 
grants provide ample resources for the types of activities supported by 
this program.

Recreational Programs.............................................   2.5

    Supports projects that provide recreation and related activities 
for individuals with disabilities to aid in their employment, mobility, 
independence, socialization, and community integration. The program has 
limited impact, and such activities are more appropriately financed by 
State and local agencies and the private sector.

Regional Educational Laboratories.................................  66.1

    Recent reauthorization did not make needed improvement in structure 
and function of the Regional Educational Laboratories, which have not 
consistently provided high quality research and development products or 
evidence-based training and technical assistance.

Safe and Drug-Free Schools and Communities State Grants........... 437.4

    Provides formula grants to States to help create and maintain drug-
free, safe, and orderly environments for learning in and around 
schools. The program has not demonstrated effectiveness and grant funds 
are spread too thinly to support quality interventions. The 
Administration proposes to redirect some of the program's funds to 
provide an increase for Safe and Drug-Free Schools National Programs, 
which is better structured to support quality interventions, and to 
permit grantees and independent evaluators to measure Safe and Drug-
Free Schools and Communities State Grants progress, hold projects 
accountable, and determine which interventions are most effective. The 
Administration's Performance Assessment Rating Tool (PART) rated this 
program as Ineffective in 2004.

                                                                Millions
School Dropout Prevention.........................................  $4.9

    Significantly higher funding for dropout prevention and re-entry 
programs available through Title I Grants to LEAs, Title I Migrant 
State Grants, and State Grants for Innovative Programs makes this 
program unnecessary. Also, at the 2006 request level, States are 
required to reserve approximately $110 million from their Title I 
allocation for purposes of helping students stay in school and make the 
transition to public schools from local corrections facilities and 
community day programs.

School Leadership.................................................  14.9

    Program supports recruiting, training, and retaining principals and 
assistant principals--activities that are specifically authorized under 
other, much larger programs such as Improving Teacher Quality State 
Grants and State Grants for Innovative Programs.

Smaller Learning Communities......................................  94.5

    A separate program is not needed for the purpose of creating 
smaller learning communities. The number of fundable applications for 
grants under the 2004 competitions dropped significantly and the 
Department lapsed more than $26.4 million from the fiscal year 2003 
program appropriation. One likely reason for the low level of interest 
in the program is the lack of compelling evidence on the effectiveness 
of the smaller learning communities strategy in strengthening high 
school education and raising achievement. The creation or expansion of 
smaller learning communities in large high schools may be supported by 
Title I Grants to Local Educational Agencies or State Grants for 
Innovative Programs--the latter of which specifically authorizes the 
creation of smaller learning communities. Also, the President's 
proposed new High School Initiative will give educators greater 
flexibility to design and implement approaches for improving the 
achievement of high-school students.

Star Schools......................................................  20.8

    Supports distance education projects to improve instruction in a 
variety of curricular areas. Programs such as State Grants for 
Innovative Programs and Improving Teacher Quality State grants provide 
ample resources for these activities.

State Grants for Incarcerated Youth Offenders.....................  21.8

    Formula grants to State correctional agencies assist and encourage 
incarcerated youth to acquire functional literacy skills and life and 
job skills. Request is consistent with the Administration's effort to 
eliminate small programs that have only indirect or limited effect on 
improving student outcomes.

Supported Employment State Grants.................................  37.4

    Program has accomplished its goal of developing collaborative 
programs with appropriate public and private nonprofit organizations to 
provide supported employment services for individuals with the most 
significant disabilities. Supported employment services are also 
provided by the VR State Grants program.

Teacher Quality Enhancement.......................................  68.3

    Program provides funds to improve recruitment, preparation, 
licensure, and support for teachers by providing incentives, 
encouraging reforms, and leveraging local and State resources to ensure 
that current and future teachers have the necessary teaching skills and 
academic content knowledge to teach effectively. All of the activities 
allowable under the Teacher Quality Enhancement program can be carried 
out under other existing Federal programs. Rated Results Not 
Demonstrated by the PART process due to lack of performance data and 
program design deficiencies.

Tech-Prep Demonstration...........................................   4.9

    This program to establish secondary technical education programs on 
community college campuses has narrow and limited impact. The 
Administration's proposed $1.2 billion High School Initiative will give 
educators greater flexibility to design and implement programs that 
best meet the needs of their students, including Tech-Prep programs. 
States could use funds to support vocational education, mentoring and 
counseling programs, partnerships between high schools and colleges, or 
other approaches.

                                                                Millions
Tech-Prep Education State Grants..................................$105.8

    A separate State grant program to support State efforts to develop 
structural links between secondary and postsecondary institutions that 
integrate academic and vocational education is unnecessary. The 
Administration's proposed $1.2 billion High School Initiative will give 
educators greater flexibility to design and implement programs that 
best meet the needs to their students. States could use funds to 
support vocational education, mentoring and counseling programs, 
partnerships between high schools and colleges, or other approaches.

Thurgood Marshall Legal Educational Opportunity Program...........   3.0

    Program provides minority, low-income or disadvantaged college 
students with the information, preparation, and financial assistance 
needed to gain access to and complete law school study. Disadvantaged 
individuals can receive assistance through the Department's student 
financial assistance programs.

TRIO Talent Search................................................ 144.9

    Provides grants to colleges to encourage disadvantaged youth to 
graduate from high school and enroll in a postsecondary education 
program. The proposed new High School Intervention initiative would 
provide a more comprehensive approach to improving high school 
education and increasing student achievement, especially the 
achievement of those most at-risk of educational failure and dropping 
out. Talent Search received a Results Not Demonstrated PART rating due 
to a lack of data on key performance measures and no evaluation 
findings.

TRIO Upward Bound................................................. 312.6

    Provides grants to colleges to support intensive academic 
instruction for disadvantaged high school students and veterans to 
generate the skills and motivation needed to pursue and complete a 
postsecondary education. The proposed new High School Intervention 
initiative would provide a more comprehensive approach to improving 
high school education and increasing student achievement, especially 
the achievement of those most at-risk of educational failure and 
dropping out. Upward Bound received an Ineffective PART rating due to a 
lack of data on key performance measures and evaluation results that 
found the program has limited overall impact because services are not 
sufficiently well targeted to higher-risk students.

Underground Railroad Program......................................   2.2

    Provides grants to non-profit educational organizations to 
establish facilities that house, display, and interpret artifacts 
relating to the history of the Underground Railroad, as well as to make 
the interpretive efforts available to institutions of higher education. 
The program has largely achieved its original purpose.

Vocational Education National Programs............................  11.8

    The program's activities, which include research, assessment, 
evaluation, dissemination, and technical assistance, would be addressed 
as part of the Administration's proposed High School Initiative for 
ensuring that secondary students improve their academic achievement and 
graduation rates.

Vocational Education State Grants................................1,194.3

    Funds would be redirected to support a new comprehensive strategy 
for improving the effectiveness of Federal investments at the high 
school level and for a community college access initiative. The High 
School Initiative will give educators greater flexibility (coupled with 
enhanced accountability) to design and implement programs that best 
meet the needs of their students. States could use funds to support 
vocational education, mentoring and counseling programs, partnerships 
between high schools and colleges, or other approaches.

Women's Educational Equity........................................   3.0

    Activities promoting educational equity for girls and women may be 
supported through larger, more flexible programs like ESEA Title V-A 
State Grants for Innovative Programs.

               PROPOSED REDUCTIONS TO EDUCATION PROGRAMS

    Then there's almost $1 billion in program reductions, so we 
need to know the specifics there, again. There are new 
initiatives which we will consider very, very carefully, $2.325 
billion, but those are some of the places where we're going to 
need to start.
    [The information follows:]
          Programs Proposed for Reduction in Fiscal Year 2006

                              EDUCATION DEPARTMENT DISCRETIONARY BUDGET, DECREASES
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                         2006 request over 2005
                                                                 2005          2006           appropriation
                          Program                           appropriation    request   -------------------------
                                                                                           Amount      Percent
----------------------------------------------------------------------------------------------------------------
ESEA:.....................................................
    Indian Education National Activities..................        $5,129        $4,000      -$1,129        -22.0
    Education for Native Hawaiians........................        34,224        32,624       -1,600         -4.7
    Impact Aid Construction...............................        48,544        45,544       -3,000         -6.2
    Alaska Native Education Equity........................        34,224        31,224       -3,000         -8.8
    Advanced Credentialing................................        16,864         8,000       -8,864        -52.6
    Physical Education Program............................        73,408        55,000      -18,408        -25.1
    State Grants for Innovative Programs..................       198,400       100,000      -98,400        -49.6
                                                           -----------------------------------------------------
      Total, ESEA.........................................       410,793       276,392     -134,401        -32.7
                                                           =====================================================
IDEA:
    IDEA Technical Assistance & Dissemination.............        52,396        49,397       -2,999         -5.7
    IDEA Technology and Media Services....................        38,816        31,992       -6,824        -17.6
    IDEA State Personnel Development......................        50,653   ...........      -50,653       -100.0
                                                           -----------------------------------------------------
      Total, IDEA.........................................       141,865        81,389      -60,476        -42.6
                                                           =====================================================
Postsecondary:
    National Technical Institute for the Deaf.............        55,344        54,472         -872         -1.6
    Strengthening Alaska Native & Native Hawaiian Serving         11,904         6,500       -5,404        -45.4
     Institutions.........................................
    TRIO Other............................................        13,335         3,625       -9,710        -72.8
                                                           -----------------------------------------------------
      Total, Postsecondary................................        80,583        64,597      -15,986        -19.8
                                                           =====================================================
All Other ED Programs:
    Helen Keller National Center..........................        10,581         8,597       -1,984        -18.8
    Research & Innovation in Special Education............        83,104        72,566      -10,538        -12.7
    VR Assistive Technology...............................        29,760        15,000      -14,760        -49.6
    VR Demonstration and Training.........................        25,607         6,577      -19,030        -74.3
    Adult Basic & Literacy Education State Grants.........       569,672       200,000     -369,672        -64.9
                                                           -----------------------------------------------------
      Subtotal, Other ED Programs.........................       718,724       302,740     -415,984        -57.9
                                                           =====================================================
S&E: Program Administration...............................       419,280       418,992         -288         -0.1
                                                           -----------------------------------------------------
      Subtotal, S&E.......................................       419,280       418,992         -288         -0.1
                                                           -----------------------------------------------------
      Total, All Other ED.................................     1,138,004       721,732     -416,272        -36.6
                                                           -----------------------------------------------------
      Total, Decreases....................................     1,771,245     1,144,110     -627,135        -35.4
----------------------------------------------------------------------------------------------------------------

                    program reductions (description)
No Child Left Behind (NCLB):                                    Millions
    Indian Education National Activities..........................  $4.0

    The request provides $4.0 million for National Activities, which 
funds research, evaluation, and data collection designed to fill gaps 
in our understanding of the educational status and needs of Indians and 
on identifying educational practices that are effective with Indian 
students. The program also provides technical assistance to school 
districts and other entities receiving Indian Education formula and 
discretionary grants.

                                                                Millions
    Education for Native Hawaiians................................ $32.6

    The Education for Native Hawaiians program provides supplemental 
education services and activities for Native Hawaiians, many of whom 
perform below national norms on achievement tests of basic skills in 
reading, science, and math. Grants support a variety of authorized 
activities. Other Department elementary and secondary education 
programs, particularly the State formula grant programs, also support 
improved achievement for Native Hawaiians. The proposed $1.6 million 
reduction in funding reflects the elimination of two one-time grants 
included in the 2005 appropriation.

    Impact Aid Construction.......................................  45.5

    School districts also generally pay for most of their school 
construction costs using their own resources and rely on property taxes 
to finance these costs. Districts affected by Federal operations have 
limited access to those sources of funding. The $45.5 million proposed 
for Construction would provide both formula and competitive grants to 
school districts. Formula grants assist districts with large 
proportions of military dependent students and students residing on 
Indian lands. Competitive grants focus on helping LEAs make emergency 
renovations and modernization upgrades. The request is reduced by $3 
million in funding reflecting a one-time project in fiscal year 2005.

    Alaska Native Education Equity................................  31.2

    The Alaska Native Education Equity program provides educational 
services to meet the special needs of Native Alaskan children. By 
statute, a portion of funds must be awarded annually to specific 
entities. The remaining funds support competitive grants for teacher 
training, student enrichment, and other activities that address the 
special needs of Alaska Native students in order to enhance their 
academic performance. Other Department elementary and secondary 
education programs, particularly the State formula grant programs, also 
support improved achievement for Alaska Native students. The proposed 
$3 million reduction reflects the elimination of two one-time grants 
included in the 2005 appropriation.

    Advanced Credentialing........................................   8.0

    This program supports the development of advanced credentials based 
on the content expertise of master teachers. Funds also support related 
activities to encourage and support teachers seeking advanced 
credentials. The 2006 request would support the American Board for the 
Certification of Teacher Excellence's development of an Initial 
Certification and a Master Certification to give States and districts 
more options for improving teacher quality and, most importantly, 
raising student achievement. The reduced request reflects the 
Department's decision not to extend its 5-year grant to the National 
Board for Professional Teaching Standards beyond the additional year of 
funding directed in the fiscal year 2005 appropriation.

    Physical Education Program....................................  55.0

    This program provides competitive grants to local educational 
agencies and community-based organizations to pay the Federal share of 
the costs of initiating, expanding, and improving physical education 
programs (including after-school programs) for students in kindergarten 
through 12th grade, in order to make progress toward meeting State 
standards for physical education. Funds may be used to provide 
equipment and other support enabling students to participate in 
physical education activities and for training and education for 
teachers and staff. The 2006 request includes funds to pay for 
continuation costs for physical education grants, as the first year of 
a 2-year phase out of the program in order to redirect resources to 
higher-priority activities.

    State Grants for Innovative Programs.......................... 100.0

    This program provides flexible funding to State and local 
educational agencies for a wide range of authorized activities serving 
all students. Examples include reducing class size, professional 
development, funding Title I supplemental educational services, and 
creating smaller learning communities. The reduced request reflects a 
decision to redirect funding to higher-priority activities that are 
better targeted to national needs and have stronger accountability 
mechanisms.

Individuals with Disabilities Education Act (IDEA):

                                                                Millions
    IDEA Technical Assistance and Dissemination................... $49.4

    This program provides technical assistance and disseminates 
materials based on knowledge gained through research and practice. The 
proposed reduction reflects a restructuring of funding for technical 
assistance. This request is in addition to the separate $5 million 
request for a Transition Initiative and $10 million to be set-aside 
under the Grants to States program under a newly authorized technical 
assistance authority to help States meet data collection requirements. 
These other sources of funding for technical assistance will free up 
funds under this program for activities to help States, local 
educational agencies, teachers, parents, and others to implement the 
Individuals with Disabilities Education Improvement Act of 2004.

    IDEA Technology and Media Services............................  32.0

    This program supports research, development, and other activities 
that promote the use of technologies in providing special education and 
early intervention services. Funds are also used for media-related 
activities, such as providing video description and captioning of films 
and television appropriate for use in classrooms for individuals with 
visual and hearing impairments and improving accessibility to textbooks 
for individuals with visual impairments. The proposed reduction 
reflects the elimination of funding for one-time projects funded in 
2005.

    IDEA State Personnel Development..............................     0

    No funds are requested for the State Personnel Grants program, 
newly authorized by the Individuals with Disabilities Education 
Improvement Act of 2004, because the entire fiscal year 2005 
appropriation remains available for obligation through September 30, 
2006. These funds will be used to support 41 continuation awards and 8 
new awards.

Postsecondary:
    National Technical Institute for the Deaf.....................  54.5

    The request represents a decrease of $872,000 below the 2005 
appropriation reflecting completion of construction projects funded in 
2005.

    Strengthening Alaska Native & Native Hawaiian Serving 
      Institutions................................................   6.5

    The request includes $6.5 million for Part A, Section 317, 
Strengthening Alaska Native & Native Hawaiian-serving Institutions to 
cover the continuation of 12 projects. No funds are requested for new 
awards. The Administration does not believe a new round of awards is 
appropriate until we have the opportunity to determine the extent of 
need and the most effective means of helping to strengthen these 
institutions. In fiscal year 2005, we are proposing to increase the 
average new award size to an estimated $500,000 and invite eligible 
applicants to propose projects with a specific focus on renovation and 
improvements to their classrooms, libraries, laboratories, and other 
instructional facilities.

Federal TRIO Programs, Other......................................   3.6
    Staff Training................................................   2.5
    Dissemination Partnership Projects............................     0
    Evaluation....................................................     0
    Administration/Peer Review....................................   1.1

    The reduced request for TRIO activities, overall, for 2006 reflects 
the decision to shift high-school-related TRIO resources to the 
proposed High School Intervention initiative, which would provide a 
more flexible, comprehensive, and accountable approach to addressing 
the college preparation needs of high school students. The new 
initiative would help ensure that the types of services currently 
provided by programs like Upward Bound and Talent Search are part of a 
broader effort to provide students, especially those most at-risk, with 
the full range of services they need in order to succeed.
    The remaining Federal TRIO Programs would receive $369.4 million to 
maintain services for more than 420,000 low-income, first-generation 
(or disabled) individuals. Among these remaining programs, Staff 
Training, Dissemination Partnership Grants, Evaluation, and 
Administrative Expenses would be reduced by a total of $9.7 million due 
to the elimination of the Upward Bound and Talent Search programs, 
which typically comprise more than half of TRIO grants. New Staff 
Training funds, down $2.8 million from 2005, would fund 6 new awards, 
at an average funding level of $417,000, to provide nearly 2,000 TRIO 
professionals with the skills necessary to run effective projects. 
Funding for Dissemination Partnership Grants would be eliminated 
because sufficient best practices at the postsecondary level are 
already available. Evaluation funding would be temporarily reduced by 
$525,000 due to the completion of the current round of program studies. 
Funding for administrative expenses, covering peer review of new award 
applications and other expenses, including performance measurement and 
analysis, would decrease by $2 million.

All Other ED Programs:                                          Millions
    Helen Keller National Center..................................  $8.6

    This program serves individuals who are deaf-blind, their families, 
and service providers through a national headquarters Center with a 
residential training and rehabilitation facility and a network of 10 
regional offices that provide referral, counseling, and technical 
assistance. The reduced request does not include the additional $2.0 
million earmarked for the Center in 2005, which is not expected to be 
fully expended in 2005. At the request level, the Center would provide 
direct services for approximately 95 adult clients, 12 high school 
students, and 10 senior citizens at its residential training and 
rehabilitation program and serve 2,000 individuals, 500 families, and 
1,100 agencies through its regional offices.

    Research & Innovation in Special Education....................  72.6

    This program supports research to address gaps in scientific 
knowledge in order to improve special education and early intervention 
services and results for infants, toddlers, and children with 
disabilities. The request would support investments in special 
education research to advance our understanding of early intervention 
and assessment for young children with disabilities, language and 
vocabulary development, assessment for accountability, secondary and 
postsecondary outcomes, and serious behavior disorders. The decrease is 
equivalent to the amount of funds earmarked by Congress in 2005 for 
one-time projects. This program, which received a Results Not 
Demonstrated rating following a PART analysis completed during the 2005 
budget process, was recently moved to IES as part of IDEA 
reauthorization. The new Center for Special Education Research within 
IES will develop priorities for future research, as well as a plan for 
carrying out research programs with measurable indicators of progress 
and results.

    Vocational Rehabilitation--Assistive Technology...............  15.0

    The request includes $15 million for the Alternative Financing 
Program (AFP), which provides grants to States to establish or expand 
loan programs that help individuals with disabilities purchase 
assistive technology devices and services. To date, the AFP has 
provided or facilitated loans totaling $15.5 million to 1,515 
individuals with disabilities. These loans are enabling individuals to 
acquire technology they might not otherwise be able to obtain that 
improves their quality of life and, in many cases, enables them to work 
or participate in other productive activities. No funding is requested 
for other programs authorized under the Assistive Technology Act, as 
recently revised, including the AT State grant program, the Protection 
and Advocacy (P&A) for Assistive Technology program, and National 
Activities. While States have received more than 10 years of support 
for activities under the antecedent program, the Department has been 
unable to identify and document any significant benefits. The 
Administration has proposed to discontinue funding for the AT State 
grant program and instead, as part of the New Freedom Initiative, 
support the AFP, which holds greater promise of providing tangible 
benefits to individuals with disabilities. Activities carried out under 
the AT P&A program can be carried out under the Protection and Advocacy 
of Individual Rights program.

    Vocational Rehabilitation--Demonstration and Training.........   6.6

    Demonstration and Training programs support projects that expand 
and improve the provision of rehabilitation and other services 
authorized under the Rehabilitation Act, including related research and 
evaluation activities. The request would provide a total of $6.6 
million for new activities, including $2.0 million that would be used 
to jointly fund the Transition Initiative under the Special Education 
account. The request would eliminate $8 million for one-time projects 
in fiscal year 2005.

    Adult Basic and Literacy Education State Grants............... 200.0

    The Administration requests $200 million for Adult Basic and 
Literacy Education State Grants, with the expectation that new 
authorizing legislation will be enacted in 2006. This request is 
consistent with the Administration's goal of decreasing funding for 
programs with limited impact or for which there is little or no 
evidence of effectiveness. A PART analysis of the program carried out 
as part of the fiscal year 2004 budget process produced a Results Not 
Demonstrated rating. The program was found to have a modest impact on 
adult literacy, skill attainment and job placement, but data quality 
problems and the lack of a national evaluation made it difficult to 
assess the program's effectiveness. The request for State Grants 
includes level funding for the English Language and Civics Education 
grants, which enable States experiencing high levels of immigration to 
respond to the specialized educational needs of the immigrant/limited 
English proficient population.

                                                                Millions
Salaries and Expenses: Program Administration.....................$419.0

    The 2006 request includes $419 million, a slight decrease of 
$300,000 from the 2005 level, for the Program Administration account, 
which funds administrative support for most programs and offices in the 
Department. The request includes $254.2 million for the 2,242 FTE, and 
$164.8 million for non-pay costs. The non-pay request includes $4.1 
million to continue implementation of the Performance Based Data 
Management Initiative, which will collect timely data on student 
achievement and educational outcomes. Other non-pay costs include rent, 
travel, data collection, evaluations, computer hardware and software 
support for the staff, and other administrative activities.

                  FOREIGN LANGUAGE ASSISTANCE PROGRAM

    Let me begin as to a question--in the minute and a half 
that I have remaining--with a letter which Senator Cochran and 
I sent to you earlier this month, which you have responded to, 
regarding the new grant competition under the Foreign Language 
Assistance Program. We're concerned that the competition does 
not reflect congressional intent in appropriating these funds; 
we intended that they would help schools offer foreign language 
instruction to their students. Will you comment on that, 
please?
    Secretary Spellings. Senator, I've just recently become 
familiar with that issue, and I am trying to get to the bottom 
of all the various local issues that undergird that, but I 
think one of the things that we at the Department are trying to 
do is to provide maximum latitude to States and local districts 
on funding, and yet hold them accountable for results, and I 
will be glad to look into that issue more--I know that you just 
received the letter, I think, late last night--so, I want to 
work with you on these issues, and I'll look forward to talking 
with the local folks in your communities who have raised their 
concerns.
    Senator Specter. As I had announced earlier, I have other 
commitments, which I'm going to have to leave for, and as I 
said earlier, Senator Harkin will take over on the hearing if 
there is no other Republican present. Let me now turn to 
Senator Harkin for questioning. Senator Harkin, you have the 
floor.

                OPENING STATEMENT OF SENATOR TOM HARKIN

    Senator Harkin [presiding]. Madame Secretary, again, thank 
you very much for appearing before the subcommittee, I thank 
the chairman for being here, too, and in absentia, thank 
Senator Specter for his great leadership of this subcommittee. 
I was just thinking, it has been 15 years, really, that we've 
worked together as chairman and ranking member, back and forth 
on this subcommittee, and it has been a great partnership. I 
think this really is one subcommittee that has worked together 
in a true bipartisan fashion--through Republican and Democratic 
administrations--through all those years. I've really 
appreciated that working relationship that we've had, 
especially on this subcommittee.

             PROPOSED REDUCTION IN TOTAL EDUCATION FUNDING

    I just wanted to make a couple of statements about the 
budget that has come up here. I think we have to take a look at 
where we're headed, and why we're shifting some of the monies 
around. I--first of all--think that we need to put some more 
into the budget for education. The President's budget cuts 
funding for education for the first time in 10 years--now I'd 
be glad to listen to any counters to that--and we look at No 
Child Left Behind, and we discussed this before, you can say, 
``Well, it's funded.'' But I'm talking about what expectations 
were when we passed No Child Left Behind--which I supported at 
that time--and I think the expectation level was that we would 
be at a certain level of funding, and we're not there.
    Title I, if it were fully funded, would cover about 3 
million more children. As for special education, and kudos to 
this administration for moving ahead on funding--but the fact 
is, we still are only around 19 percent of what we had promised 
30 years ago. And, so I will continue to prod whether it's this 
administration or any other one, as I did the one before yours, 
to continue to try to get towards that 40 percent full funding 
level. So, we're still underfunded, I think, in special 
education. In Iowa--we had the Governor in yesterday talking to 
our bipartisan group, Senator Grassley and I and our 
congressional delegation--he said Iowa would stand to lose 
about $14.1 million for career and technical education, $2.4 
million for education technology, $3.4 million for safe and 
drug-free schools, $1 million for family literacy programs, and 
$1.1 million for comprehensive school reform. That's the money 
that Iowa gets now that we wouldn't get under this budget. 
Again, it comes at an especially bad time, some 11,000 schools 
across the country have been designated ``in need of 
improvement,'' meaning they failed to make adequate yearly 
progress for 2 years in a row, and now they face sanction. 
That's about twice as many schools as last year. The number 
will go up sharply next year when AYP requirements even get 
tougher, this thing keeps getting tougher, year after year.
    So with this new budget, it seems like we're again asking 
for more reforms without really getting the resources; we're 
asking local school districts to make dramatic academic gains 
at the same time that we're cutting their funding. So, I don't 
know how we can expect 11,000 schools that are in need of 
improvement to hire better teachers, to close the achievement 
gap at a time when funding is being cut.
    I looked at the $1.5 billion High School Initiative, and 
then I thought, well, you couple that with the $2.2 billion in 
cuts to other education programs--like voc ed and GEAR UP and 
TRIO and smaller learning communities and things like that--so 
it seems like we're eliminating $2.2 billion for high schools, 
and replacing it with $1.5 billion for the new High School 
Initiative, which still represents a cut to our high schools.
    The Perkins/Voc Ed Program is also one that bothers me 
greatly, because you say that this would go to other high 
school initiatives, but in Iowa, 30 percent of our Perkins 
money goes to community colleges--so it's not high school--it 
goes to community colleges. And this has been a great thing in 
Iowa for economic development and for getting skills to our 
high school students going to community colleges.
    So, anyway, these are just some of the questions that I 
have about the budget, and about the thrust of it. Have I seen 
worse? Yes. Have I seen better? Yes. So, this falls someplace 
in the middle, at least as I see it. But I'd like to just ask a 
few questions.

                   NO CHILD LEFT BEHIND REQUIREMENTS

    First of all, about No Child Left Behind, Madame Secretary, 
you've got to be aware--as we all are--that we're hearing from 
our constituents about No Child Left Behind. A lot of concerns 
about it, educators, parents, they believe the law is too 
rigid, it's narrowing the curriculum. I don't know if this is 
just anecdotal or not, but I keep hearing stories about 
schools--in order to meet the rigid requirements of hiring 
better trained teachers, and qualified teachers for curriculums 
to meet No Child Left Behind--the first person that gets fired 
is the art teacher, or the music teacher, or the P.E. teacher. 
They're the ones who are let go. So, curriculums are being 
narrowed.
    The goal of 100 percent proficiency for all sub-groups in 
all subject areas seems to me to be unrealistic for our 
schools. We see States like Virginia, talking about pulling out 
from the law, even if it means giving up hundreds of millions 
of dollars from the Federal Government. So I was kind of 
surprised to see that now we want to extend this into high 
schools. It seems to me we ought to make the system work for 
grade schools first, before we go to high schools.
    Now--I'm going to bring this to a close here--you talked 
about remedial education. We're spending all this money later 
on downstream for remedial. If you're doing this in high 
school, that's kind of remedial. If we get it early on in grade 
schools, we don't have to remediate it in high school. So, it 
would seem to me that this high school initiative--I'm not 
adamantly opposed to it--it just seems to me that this is not 
the right time to do it. It seems to me, we've got to put those 
resources more into No Child Left Behind in elementary schools.

                         HIGH SCHOOL INITIATIVE

    Last, I must say I wear another hat--I'm on the education 
authorizing committee--and you are trying to make this change 
by putting on two sentences on our Appropriations bill. I think 
that's the wrong approach. This is an authorizing measure. I 
would think that both Senator Enzi and Senator Kennedy--Chair 
and ranking member of the HELP Committee, and others of us on 
the authorizing committee--would want to have something to say 
about how we extend the No Child Left Behind Act into high 
school as an authorizing measure, rather than putting it on an 
appropriations bill.
    So, two questions, Madame Secretary. This High School 
Initiative--should we put that money back into the grade 
schools, put it into the elementary schools now, rather than 
trying to extend the law. Second, shouldn't this be done in an 
authorizing measure?
    Secretary Spellings. Thank you, Senator, you've put out 
some great points that I'm thrilled to be able to respond to.
    First, as I said in my opening statement, there is some 
urgency in high school, no doubt about it. We need to be able 
to walk and chew gum--as we would say in Texas--and that is 
attend to, and stay the course, on No Child Left Behind. That's 
why we've sustained these large growths in reading funds; 
that's why we have a $600 million increase in Title I. But we 
also need to make sure that we are getting kids out of high 
school, fully prepared to either be successful in the work 
place or in college. I think we can, and we must, do both.
    Let me speak to the philosophy of this budget, overall, and 
that is--and this was at play, certainly, in the design and 
development of No Child Left Behind--and it is that we need to 
be very clear with States about what our expectations are, and 
then give them a lot of latitude in results, with respect to 
resources. That's why these 45 programs have been proposed for 
elimination, because the President believes that they do not 
represent, necessarily, either a critical mass, or have not, in 
all cases, been an effective use of resources.
    So the vision here is to create a new high school program 
in Title I, be clear with States about what we expect, and if 
they're getting great results with vocational education, or 
TRIO, or GEAR UP, or technology or whatever, there certainly is 
no impediment to doing that. And I'm confident--having 
represented local school boards--that when those programs get 
results for kids, they will. But I think the same people who 
are talking to you about the need for flexibility in No Child 
Left Behind, talk to me about how we prescribed a lot of 
particular, specific programs--with particular grant 
application processes, deadlines and so forth--and we are too 
much in their way with respect to managing their dollars. The 
National Governors Association just this weekend, as I said, 
met. This was one of the things they have called for. That's 
why we believe that the assessment and the measurement and the 
accountability is so critical, but let's give them more 
flexibility with respect to managing resources.

            USE OF AUTHORIZING AND APPROPRIATIONS PROCESSES

    As to the issue of the authorizing versus appropriations 
matter, certainly that is something that I have spoken with 
Senator Enzi and Senator Kennedy about--as you are well aware--
we have the Perkins reauthorization before us, the Higher 
Education Act before us; therefore many opportunities to tackle 
some of those policy matters, rightfully, on the authorizing 
side as well. So, thank you for that.
    Senator Harkin. So, we could do this in the authorizing 
committee, rather than doing it in appropriations?
    Secretary Spellings. Well, I think the whole issue of high 
school is something that people are recognizing--within this 
body and around the country--needs attending to. Certainly 
resources, obviously, are a part of that equation, but I think 
there are some things on the policy side with respect to high 
school, such as what the expectations are, what the timelines 
are, and various other things that are going to be at issue 
here as well. This High School Assessment Initiative--though 
we've called for $250 million immediately to begin to develop 
those--we recognize it is more complicated. States are going to 
use end-of-course exams, some States will use exit exams, some 
States will use Advanced Placement exams, or other standardized 
assessments as a proxy for their assessment qualifications. 
It's going to take time. We don't envision this being fully 
implemented until 2009, 2010 when the first entering class of 
No Child Left Behind kids would have made it through the 
pipeline, if you will. So, there are a lot of things that are 
at play from a policy point of view, in addition to the 
resources that are needed here, from this committee.
    Senator Harkin. I still think we're going to have to 
examine this under authorization, rather than just 
appropriations.
    Let me just ask one question more, and then I'll go over to 
Senator Kohl. When the President says you're going to spend the 
taxpayers' dollars, it ``ought to be spent wisely, or not spent 
at all.'' Of course, that raises the question: Whose wisdom? 
Ours or yours?

                         STUDENT LOAN PROGRAMS

    But, there is one thing I want to bring to your attention, 
and that has to do with the student loan program, about 
spending money. Quite frankly, I think a lot of your proposals 
make a lot of sense on the student loan program. You're 
proposing to use the savings to increase Pell Grants--that's 
good--so I applaud that, I think you're headed in the right 
direction. But, I just want to bring something else to your 
attention. Even if we adopt your recommended changes to the 
student loan programs, your own budget documents, and I refer 
here to page 371, specifically, of the budget appendix, show 
that the cost to taxpayers--of each $100 lent under the Federal 
Family Education Loans, the FFEL program--it costs $8.91 in 
taxpayer subsidies. That's your own budget. On the other hand, 
your documents show that each $100 lent under the Direct Loan 
Program makes a profit of $2.06 to the taxpayers. In other 
words, returning $2.06 to the Treasury. Well, that means a 
student with total subsidized loans of $17,000--which is about 
the average debt of a student finishing a 4-year college right 
now, we're just taking averages--under the FFEL Program, that 
costs the Government, taxpayers, $1,514, to be exact. The same 
loans to a student in the Direct Loan Program makes a profit of 
$360. So, Madame Secretary, given these facts--and the 
continuing need to find the monies for increasing Pell Grants, 
and other student aid for disadvantaged students--shouldn't we 
be doing everything we can to encourage colleges to join the 
Direct Loan Program?
    Secretary Spellings. Well, certainly, Senator, that's 
obviously an option before them. I think our proposal has 
attempted to look at the broad range of financial aid 
services--how we manage it--from Perkins loans at 5 percent 
interest rates, to a 3 point something or other average rate in 
Direct Lending and the FFEL Program, and to look at this in a 
more efficient, effective way--we've had a transformation, if 
you will, of the financial services industry, elimination of 
the middle man in some cases, different relationships between 
universities and students and the Federal department and banks, 
and others--and we believe that there are efficiencies and 
savings to be drawn by looking at those programs broadly. To 
the tune of about $30 billion over 10 years, I believe, 
eliminating that short fall once and for all, and applying 
those efficiencies, those savings toward student aid. I think 
we will, maybe, have discussions about how to turn the various 
dials across the spectrum of financial aid, and how the loan 
program balances with resources towards grants--our neediest 
students--that's why the President has put a high priority on 
Pell. But, there's lots of room to talk about it, as you know, 
we have a laundry list of various proposals which range from, I 
think, $6 billion at the high end, we've called for variable 
interest rates, and a whole laundry list of proposals for your 
consideration.
    Senator Harkin. Madame Secretary, I appreciate that, I 
just, again, I look at the table. I was quite amazed when you 
look at the cost--from the Direct Loans, $2.06 back to the 
Treasury, $8.91 in subsidies out after all of those things you 
just talked about, which is fine, and good, you still have this 
problem. You still have money not being wisely spent by the 
Government. We hear all these stories about these lending 
institutions flying their student, college directors down for 
vacations and cruises and all kinds of different things, and 
they wine them and dine them, but it seems to me with this kind 
of data that we now have, that your Department ought to be 
forthright in just saying to colleges, ``Look, we want to save 
the taxpayers' money. We want to spend the money wisely, get in 
the Direct Loan Program.''
    Secretary Spellings. We certainly, obviously, have 
supported the Direct Loan Program, and will continue to do 
that, and as institutions around the country see the merit of 
that we stand ready to assist them. But again, it's a place 
where we've sort of had a local control attitude about 
financing higher education, as we all have together.
    Senator Harkin. I don't mind local control, this is Federal 
tax dollars. The States, if they want to waste their money that 
way let them, but we have our obligation on the Federal level.
    Secretary Spellings. Right, I appreciate that.
    Senator Harkin. But, I'm glad to hear what you just said, 
that's very important. Thanks, Madame Secretary. Senator Kohl.
    Senator Kohl. Thank you very much, Senator Harkin, 
Secretary Spellings.

           PROPOSED ELIMINATION OF VOCATIONAL EDUCATION FUNDS

    The President's budget eliminates, as you know, funding for 
Perkins on the grounds that it is ineffective, and that the 
money would be better used in the K-12 system. I've talked to 
Brent Smith in Wisconsin who is Chair of the Wisconsin 
Technical College Board, and he raises an important issue that 
you ought to consider.
    The Chair says that he notes today that the average age of 
a Wisconsin technical college student is 29. These students 
have moved beyond the K-12 system, so any diversion of Perkins 
funding to K-12 would be of no help to them, obviously. And 
these older students face other obstacles besides a lack of 
academic preparation. Some are returning to school after years 
in the work force, some are pursuing highly technical degrees, 
while others are economically disadvantaged; either single 
parents, dealing with a disability, or learning English for the 
first time. That's why Wisconsin technical colleges use their 
Perkins money so well to help their students meet these unique 
challenges. They've been successful, as the vast majority 
graduate, and obtain high-skill, high-wage jobs.
    Brent Smith and the Wisconsin Technical College System 
would like to know, without Perkins, how does the Department 
expect that technical colleges will serve the current 
generation of adult Americans--most of whom are well beyond 
their K-12 years--and who need help right now?
    Secretary Spellings. Thank you, Senator, for that question. 
Let me first say that I am a former vocational education 
student myself, so I do have appreciation for what they do.
    Our budget--with respect to the split between the community 
college funding that they received from Perkins, and the high 
school level of funding--we have attempted to accommodate that 
to make them whole within either the Labor Department budget, 
or in this budget. So, by our math, the funding for vocational 
education for high schools, and for community colleges, is 
about the same. We've called for a community college expansion 
initiative of $250 million in the Labor Department budget, $125 
million for a Community College Access Grant to support more 
articulation between high schools and community colleges, and 
so forth. So, while it's a different kind of allocation of 
resources, we do believe those funding levels are approximately 
the same. As I said--I don't know if you were in the room a 
minute ago--we believe, the President's notion of how we fund 
high schools and community colleges is that we ought to be 
clear with folks about what we expect and then allow them to 
direct resources as they see fit, to a particular goal, with 
accountability attached. I'm very confident that--in places 
like Wisconsin where those vocational education programs are 
getting demonstrable results for students--that they will be 
supported by local school boards, and State officials. So long 
as we know what the data shows. But, I think what we've heard 
over and over again, even as recently as this last weekend, 
with the National Governors Association, is that for too many 
kids, high schools are not working. Particularly for those at 
the low end of the system, if you will.
    Senator Kohl. Are you saying that the Perkins money has not 
been cut?
    Secretary Spellings. I'm saying that we've put the Perkins 
money in a high school title----
    Senator Kohl. I know, but as I point out in my question, it 
doesn't help the person enrolled in the community college, the 
vocational college, to get advanced training, it doesn't help 
that person at all, who needs that training, who's out there 
today, to allocate more money to high schools. That person, as 
you know, is obviously way beyond high school.
    Secretary Spellings. Right.
    Senator Kohl. The Perkins money does serve a very 
important, useful purpose. It's used well to train these people 
who are beyond high school, to get back into the work force. 
So, I'm not sure if I understand your answer.

                     FUNDING FOR COMMUNITY COLLEGES

    Secretary Spellings. Let me clarify. And that's why the 
President has called for additional resources for community 
colleges--to serve the type of individual you just mentioned 
through a $250 million plus-up and a partnership grant between 
local employers, community colleges, and the private sector, as 
well as an additional $125 million for community colleges in 
this Community College Access grants program. So, while they 
might not be served through the Perkins program, we do believe 
we've provided resources to community colleges, to allow them 
to continue to serve the type of student that you've just 
spoken about.

                       VOCATIONAL EDUCATION FUNDS

    Senator Kohl. The Perkins program was $1.3 billion. Now, 
you've talked about $100 or $200 million. Now, to my way of 
figuring, that's not a tradeoff.
    Secretary Spellings. Under the current Perkins program, as 
you know, some of the resources are in the K-12 system, and 
some of the resources are in the postsecondary system, and we 
have attempted to take the level of resources, approximately, 
from Perkins, that support high school, and put it in a high 
school initiative. Likewise, those resources that are serving 
postsecondary students have been applied to other community 
college programs to support those type of individuals.
    Senator Kohl. I appreciate what you're saying, I think if 
Brent Smith--who is Chair of the Wisconsin Technical College 
System--were here, he would be looking at you as quizzically as 
I am, trying to figure out what it is you're saying that will 
really help him as the Chair of the Wisconsin Technical College 
Board, what's going to help him in trying to do his job. I 
think there is clearly a net minus of money that we're talking 
about here, of significant proportions. I recognize money is 
scarce, and we can't do everything we want. But, I think what 
you're telling me is they won't get the kind of money that they 
have gotten heretofore. He is saying, as Chair, that they will 
really, really miss that money, because it is being used very 
well to help people that are post-high school, educate 
themselves to get into the work force. That's clearly what he 
would be saying.

                              PELL GRANTS

    Secretary Spellings. I appreciate that point of view. I do 
want to mention a couple of other things that are on point for 
the students you are talking about, and that is the enhancement 
of Pell--more than half of the students that are in community 
colleges are Pell recipients--and we've also called for 
allowing that financial aid to be used year round, and for 
short-term training for individuals like those you've spoken 
of, to get the necessary skills to re-enter the work force.

                 PELL GRANT ELIGIBILITY AND TAX TABLES

    Senator Kohl. All right, well, let me talk about Pell for a 
minute. Last month most of our delegation from Wisconsin wrote 
the President about an issue involving Pell Grants.
    Specifically, the Department of Education is making 
immediate changes to the tax tables that determine eligibility 
for Pell Grants, as you know. As many as 5,500 Wisconsin 
students--who today get Pell Grants--could completely lose 
them, and thousands more will see their Pell Grants reduced. 
While I agree we need to use accurate tax information to 
determine eligibility, we need to remember that this will 
affect students who are in school today, and are counting on 
Pell Grants to remain in school. It would be unfair to change 
the rules, I think, in the middle of the game, and I think at 
the very least, we should all agree not to take money away from 
students who are, today, relying on the Pell Grants that they 
are getting. So, will you be able to work with us to see to it 
that Wisconsin--as well as Pell Grant recipients from other 
States, will not entirely lose their Pell Grant money, in the 
middle of their college education?
    Secretary Spellings. Let me react to that issue, on the tax 
tables. This Congress required the Department of Education to 
update these State tax tables that have not been done since, I 
believe, the late 1980s, or so, so it's been quite a while, and 
that's why the impact was more severe than it normally would 
have been, had we updated them more recently than that.
    My understanding is that the average award for those 
students is about $400 a year, and many of the folks that would 
be affected are first-time recipients, so they haven't received 
the aid yet. So, we do obviously struggle with this issue; we 
need to have the most accurate information available to fund 
these programs. But the way we've chosen to approach it in this 
budget is to increase the Pell award, to align this rigorous 
course of study to the Pell scholars, to allow for short-term 
training, to allow for year-round aid and so forth. But, I 
think we've righted the ship on the updated tax table once and 
for all, and we need to do it more consistently, and keep it 
current as we go forward, so that it will minimize the 
unfortunate effect that it had this time.
    Senator Kohl. I do appreciate that, but we apparently have 
a difference of opinion--and we could probably straighten it 
out if we looked more carefully at the facts--according to my 
information, as many as 5,500 in Wisconsin who are getting Pell 
Grants today could lose them--totally, or in part--as a result 
of this change. Now, you've said that's not so.
    Secretary Spellings. I'm not saying it's not so, I'm saying 
that my understanding is that the average award is quite small, 
and some number--I'm not sure that those people will have lost 
aid--I'll just have to look at Wisconsin's particular 
situation.
    Senator Kohl. Yes.
    Secretary Spellings. I'd be delighted to do that.
    Senator Kohl. Would you do that?
    Secretary Spellings. Sure.
    Senator Kohl. I would greatly appreciate it.
    Secretary Spellings. Sure.
    Senator Kohl. I thank you so much. Thank you, Senator 
Harkin.
    [The information follows:]
    Impact on Wisconsin Pell Grant Recipients of Revised Tax Tables
    Under the revised tax tables, 1,486 students--or 2 percent--of the 
72,252 Wisconsin students projected to receive Pell Grants under the 
previous tables would not receive grants in academic year 2005-2006. 
Projected Pell Grant awards in Wisconsin would be reduced by $4.1 
million under the revised tax tables. Based on national trends, the 
average amount lost per student is $131; awards to the neediest 
students, who qualify for the maximum Pell Grant, would be unaffected 
by the revised tables.

              PROGRAM REDUCTIONS AND DEPARTMENTAL STAFFING

    Senator Harkin. Thanks, Senator Kohl. I just have three or 
four more questions, Madame Secretary.
    The budget proposes to eliminate 48 education programs, and 
create 12 new ones, for a cut of 36 programs. Well, that's a 
lot of programs that your Department will no longer have to 
administer. And yet, the reduction in work is not reflected in 
the number of employees at the Department of Education.
    For example, under the President's budget, the Office of 
Vocational and Adult Education would practically disappear. 
Seven of the 10 existing programs would be eliminated, for a 
funding cut of almost 90 percent. From $2 billion to $216 
million. And yet, the number of full-time employees for this 
office would drop by just 3 percent. From 121 to 117. I guess, 
my question is, why do you need practically the same number of 
employees to do a tiny fraction of the work? Why isn't that 
also reflected in the budget?
    Secretary Spellings. Well, Senator, that's something 
certainly that we would take a look at. I do think that we 
would envision having folks with that kind of capability 
provide technical assistance on the high school side, so while 
it's not a one-to-one correlation, we certainly would look at 
the staffing levels that are appropriate to support the new 
world order.
    I do want to mention one thing, and that is, of the 48 
programs that we've called for elimination of, about 15 of them 
are $5 million or less. And I think we would agree that it's 
hard to have a program with a national scope for a small amount 
of money. The remainder of them are about $40 million or less, 
so they are typically fairly small programs of a few million 
dollars, and 15 of the programs are $5 million or less.

                SUMMARY STATEMENT OF HON. THOMAS SKELLY

    Mr. Skelly. Senator, I would just add, on the vocational 
education programs, many of those get funding that becomes 
available only in July. The 2005 Appropriations bill that you 
already passed this year, would provide funding beginning in 
July, and indeed in October 2005. We still need the staff in 
that office to obligate that money and make sure that it's well 
spent, under the existing law.
    The reason we had such a small reduction in employees in 
the 2006 budget, was that most of the work will still go on 
under the 2005 appropriation. We'll only see the savings from 
elimination of funding for those programs in 2007 and 2008.
    Senator Harkin. You're saying you have to last for 1 full 
year that we have the program, when it's a 90 percent cut and 
we're going to keep on 117 people to administer that, it 
doesn't sound right.
    Mr. Skelly. Again, it's going to take time to phase out all 
of the work. Part of the work of these employees is not just 
obligating the money each year, it's looking at what happens 
with the grants that were awarded in prior years, it's closing 
out those grants; there will be some work involved if Congress 
were to accept the proposal to eliminate the programs and just 
working all of that out. So, eventually there will be a drop in 
the staff, as these programs are eliminated. It just won't 
happen starting October 1, 2005 when this fiscal year begins. 
There will be a lot of work, still, for a good part of fiscal 
year 2006.
    Senator Harkin. Well, that's a pretty good answer. But it 
seems to me that there's going to be a period of time where 
you're going to have a lot of employees, looking back and 
assessing a program that's no longer in existence. If it's no 
longer in existence, why assess it? Why have employees looking 
back, assessing how a program worked, if you no longer have the 
darn thing?
    Secretary Spellings. Senator, that's certainly something 
that we would work with you on about what the right levels of 
staffing that are needed to support----
    Senator Harkin. Again, that's why we look at the budgets 
and we say, ``Well, you can do all this, we've got to see some 
drop in employees, also. Unless this is not a serious 
proposal.'' If it's a serious proposal, it ought to be done 
also with a cut in the employees also.

                     ELIMINATION OF SMALL PROGRAMS

    Now, can I just respond--just a second--to what you said 
about, a lot of these small programs are $5 million, or less. 
I've often said the genius of our American educational system 
is that we have local control, where you have well springs of 
ideas and innovation and that type of thing, you don't have a 
top-down structure where everybody marches to the same tune, 
that's sort of been the genius of our American educational 
system--so that experimentation has gone on. But, there has 
been some experimentation from the Federal side, too. And some 
of these small programs are just that; they are to test things 
out. A Senator, a Congressman, or a group gets together and 
says, ``This may be a good approach, let's try it out and see 
what happens.'' Then you see if it works, TRIO program being 
one, of course that's more than $5 million, obviously, it's a 
big program, but TRIO program is cut by almost a half. Yet, 
Trio program goes back--if I'm not mistaken--maybe 1969, 1968, 
something like that. I first became familiar with that as a 
Congressman in a rural area of Iowa back in the 1970's. I'd 
never heard of the TRIO program before. And, so through all 
these years, I think that it has proven its worth, but it 
started out as a small kind of a program to test some theories. 
That you could take kids from families where neither parent had 
ever gone to college, expose them to college situations, do 
some summer school training with them, and they would be more 
apt to pursue a higher education, and that has been proven, 
we've got data to prove that, going back to 1970. So, when 
you're cutting some of these small programs--a lot of them I 
don't even know myself, I mean, they're in there, but--it gets 
back to this wisdom thing, whose wisdom? Sometimes we put those 
in there to test things out, it's like the Writing Project that 
Senator Cochran has been pushing for years. I think that it is 
a legitimate function for us to try to test these things out 
and see how they work, and see if they do, and so when some of 
these are cut, you cut them and you do away with them before 
we've even seen whether they'll work or not--maybe some will, 
maybe some won't--it is a testing ground.
    Secretary Spellings. A fair point, and I think our question 
is, then, what's the demarcation between--when have you stopped 
testing a program, and when have you had a particular kind of 
model that's set forth for local communities--and I think, as I 
said again, the President's notion here is, let's be clear 
about what we expect, let's support measuring that achievement, 
and using that data to support improvements in the system, but 
then let's give local school districts the opportunity to 
double their TRIO Program, or whatever.

                             TRIO PROGRAMS

    Senator Harkin. Madame Secretary, local communities are not 
going to double TRIO Programs, because--I don't know, how many 
students are in TRIO now, 300,000 or 400,000, something like 
that, nationwide--so you go around the Nation, and there's just 
a few here, and a few there and a few here, and these are the 
poorest kids, usually from the poorest families, and you get 
two or three in a local district and, they have no power, they 
have no say-so. So, the local jurisdiction, the local school 
district--being pressed hard as they are right now for money, 
trying to raise funds for schools, being burdened with higher 
property taxes all the time--this is not going to be a thing 
that they're going to want to do, because it's so few. When we 
look at it from a national view--we say there's 300,000 or 
400,000 students out there that need this kind of assistance, 
that we've had the data to show that these kids are more 
successful in going on to higher education. So, I really don't 
think it's right to say that local jurisdictions will pick this 
up, it would just be so small they won't. That's why we started 
the program, that's why we've kept it up for 35 years.
    Secretary Spellings. But we have, obviously, a lot of kids 
who are in those sorts of positions and giving resources to 
school districts to design programs as they see fit--TRIO, GEAR 
UP, vocational education, technology-based programs, and so 
forth--those that are getting results for them and their kids 
is a better way to run the railroad, in the President's view.

                PUBLICIZING THE NO CHILD LEFT BEHIND ACT

    Senator Harkin. Well, I guess I disagree with him on that.
    Let me ask you on just, a couple, three other things. This 
has to do with this Armstrong Williams case. Department of 
Education funds were used to pay political commentator 
Armstrong Williams to tout the No Child Left Behind Act. Mr. 
Williams did so without disclosing that he was being paid with 
taxpayer's dollars. I was glad to see the President made it 
clear that such an arrangement was unacceptable. So, what have 
you done since becoming Secretary to make sure this does not 
happen again, Madame Secretary? Have you made any attempt to 
recoup the funds paid to Mr. Williams from Ketchum, the PR 
company that hired him as a subcontractor?
    Secretary Spellings. The first part is, we have 
commissioned an Inspector General's investigation, which is 
underway. I expect that report very shortly, he's working hard 
to get to the bottom of all the facts--what we got, what we 
paid for, what we didn't get, what the expectations were, and 
so forth--and so I'm awaiting that information before I 
determine a course of action, obviously. Likewise, the 
Government Accountability Office is conducting two 
investigations, one of which was on an initial analysis that 
apparently the Department did on media outlets and so forth, 
and that's been responded to. Then there's another one that's 
ongoing, and our General Counsel in the Department is 
cooperating fully with that, but, we're still in the fact-
finding mode. The President has been clear about this, and I 
have. I don't think it's acceptable for folks who represent 
themselves as journalists to be paid for punditry and it won't 
happen again.
    Senator Harkin. The President made it very clear, and I 
applaud him for that, I just wondered where you are, and you 
told me you were waiting for the IG's investigation to come in.

             OUTREACH AND COMMUNICATION ON FEDERAL PROGRAMS

    Madame Secretary, I understand that your Department has a 
number of contracts with public relations and other similar 
firms. How much do you plan to spend on these types of 
contracts in fiscal year 2006? I don't find this anywhere in 
the budget.
    I understand you might not have that information with you, 
and if you could submit an answer for the record, I'd 
appreciate that.
    Secretary Spellings. I'd be glad to do that. I will say 
that many of the programs--in fact, some of the ones we've 
talked about today, or this morning--do call for communications 
efforts and outreach to parents, the higher ed community, and 
so on. So, I do think it's important that we not throw the baby 
out with the bath water, particularly with a new law like this 
where there are options for parents, there are needs for 
teachers to be educated, and other educators about what the law 
provides, and so forth. So, the short answer to your question 
is, I don't know how much money we'll spend on communications. 
I certainly will find out what we're looking at.
    Senator Harkin. Someplace buried in there, there's some 
budget allocation in your Department for that, and we just 
don't have it and we'd like to take a look at that.
    Secretary Spellings. We'll look into it.
    [The information follows:]
 Contracts With Public Relations Firms, Advertising Agencies, and the 
                       Media in Fiscal Year 2006
    It is premature to identify at this time what will be the 
Department of Education's acquisition needs several months in the 
future, when fiscal year 2006 appropriations will be available for 
obligation. In considering future contracts, be assured that the 
Department will very carefully take into account the recommendations of 
the Inspector General and other reviews of the Department's past 
contracts to ensure compliance with all applicable laws.

               GRANTS FOR ENHANCED ASSESSMENT INSTRUMENTS

    Senator Harkin. When we spoke some time ago, I told you--
and at a previous hearing, I think on the Authorizing side, 
Madame Secretary--I said I was going to be like a laser beam on 
kids with disabilities, and so I'm back to that now with this 
next question.
    It's about the Grants for Enhanced Assessment Instruments 
program, which is intended to help States improve the quality 
of their tests. About $12 million will be available for this 
program in this fiscal year, 2005. In the Senate report, we 
urged the Department, when awarding grants, to give special 
attention to the needs of students with disabilities, and 
students with limited English proficiency. As you know, Madame 
Secretary, many schools have a difficult time--and we spoke 
about this--assessing the performance of these two groups. 
Often these students may have learned what they are supposed to 
have learned, but they can't demonstrate it because they aren't 
given the appropriate assessment.
    So, our report language asked the Department to put a high 
priority on grant applications that aim to improve the quality 
of the State tests for these two groups of students. 
Unfortunately, the Department seems to be ignoring this 
language. In your budget justification, it says that $12 
million will focus on the use of technology in designing State 
tests. There's nothing about students with disabilities, or 
students with limited English proficiency. So, I would 
appreciate it if you could take our Senate request into account 
when you award these grants. Perhaps there's a way to combine 
the Department's priorities with the Senate's priorities. 
Again, this is money wisely spent, there's wisdom, perhaps, on 
both sides here.
    For example, technology might be a good way to provide a 
special accommodation for students with disability. So, if 
you're going to do the technology, make it applicable to 
students with disabilities, so I hope you take another look at 
our report language, and at least update me on how you're going 
to do that for next year.
    Secretary Spellings. I absolutely will, and let me mention 
a couple of things. You and I did speak about this, and I 
convened--on the policy side--a group of experts to help us 
develop technical assistance, and listen to the educators and 
the advocacy community about where we are with special ed in 
the implementation of this law. I said--and I know you agree--
that without No Child Left Behind I don't think we would be 
having this conversation, and I'm glad we are.
    Senator Harkin. I applaud that, and that's one of the 
reasons I supported that, because I said, ``Finally, we're 
going to get the kids with disabilities, and we're not going to 
leave them behind, either.'' So, that's why I'm focusing on 
this.
    Secretary Spellings. Schools are starting to attend to 
them. But, we've got a long way to go with respect to technical 
assistance on assessment and on curriculum, and I've asked the 
organization that you recommended to me to participate on this 
panel of experts, and this is certainly an area of interest 
that they have identified. I do pledge to take this into 
consideration as we award these grants, I think that's the kind 
of application we're going to see from States. And I do think 
there's a harmony between the technology application and the 
needs of these kids.
    Senator Harkin. But, when you put out those requests, 
again, how they're worded gives the States some idea of what 
they should put in their grant requests, and if there's nothing 
in there about better assessment for kids with disabilities, 
``and please when you put in your grant request, we will look 
favorably upon that kind of thing,'' you know that, of course.
    Secretary Spellings. Right. But as I travel around the 
country, talking to educators, this is a hot issue. This is 
something they're struggling with, and this is the kind of 
application I expect to get, frankly.
    Senator Harkin. I'm glad you said that, I just hope that 
that word goes out there to the community out there, too.
    [The information follows:]
                    Grants for Enhanced Assessments
    The Department will give competitive priority to applications for 
fiscal year 2005 and fiscal year 2006 funds under the Enhanced 
Assessment Instruments Grants program that propose projects addressing 
the use of accommodations or alternate assessments to improve the 
quality of assessments for limited English proficient students and 
students with disabilities. The notice inviting applications for fiscal 
year 2005 funds under the program, tentatively scheduled for 
publication in late spring of 2005, will announce the priority.

                      U.S. CONSTITUTION INITIATIVE

    Senator Harkin. One last question, I'm asking this question 
on behalf of Senator Byrd, who could not be here. The fiscal 
year 2005 Consolidated Appropriations Act last December, 
included language proposed by Senator Byrd that designates 
September 17 of each year as Constitution Day. The language 
also required that Federal employees be provided with training 
and educational materials concerning the U.S. Constitution--
both at the time of their orientation as new employees, and on 
September 17 of each year.
    In addition, the new law requires that all educational 
institutions receiving Federal funds hold an educational 
program on the Constitution on September 17. The law does not 
prescribe the exact content of the program, and it does not 
mandate any particular curriculum. There's no congressional 
intent to dictate to any educational institutions--public or 
private--exactly what must be said or done in the program 
provided by the institutions on this subject. The law simply 
requires that educational institutions hold a program on the 
Constitution, on Constitution Day, September 17.
    I've been told by Senator Byrd that the Office of Personnel 
Management is working with the Department of Education on a 
Constitution initiative, which OPM plans to announce in several 
months to fulfill the requirements of this new law. Madame 
Secretary, can you confirm for Senator Byrd that the Department 
of Education will forward to this subcommittee, by April 1, 
2005, its plan and/or guidelines for implementing the law's 
requirement that certain educational institutions hold a 
program on the Constitution on September 17.
    Secretary Spellings. I certainly will look into that, 
Senator, I'm not completely familiar with all the particulars 
that you mentioned, but I will certainly look into it and get 
back to you and Senator Byrd.
    Senator Harkin. I appreciate that. If you could get back to 
us, and see if you could do that by April 1, we're already into 
March. I didn't know if that date was in the law or not.
    Secretary Spellings. The 17th is a Saturday, I was just 
informed, so this year, September 17, Constitution Day is a 
Saturday, and that particular day kids will not be in school. 
So I think they're trying to work through issues like that, and 
run that to ground.
    Senator Harkin. That's one of the things that's supposed to 
be worked out in the guidelines. Obviously sometimes it will 
fall on a Saturday or Sunday, so you'll do it on a Friday or 
Monday, or something like that, I suppose.
    Secretary Spellings. Right, right.
    Senator Harkin. I think Senator Byrd just wants to know 
what your plans are for this.
    Secretary Spellings. Right, absolutely, and I will get back 
to him on that. We do have a working group working on this 
matter; obviously OPM is on the case also, so I'll report back.

                            CLOSING REMARKS

    Senator Harkin. Madame Secretary, that's all the questions 
I have, I don't have any other questions from any other 
Senators, if there's anything else that you'd like to leave 
with us here, I'd be glad to make sure we have it in the 
record, if there's anything else.
    Secretary Spellings. I've submitted a statement for the 
record, Senator. Thank you very much for your hospitality, and 
I appreciate it.
    Senator Harkin. Thank you, Madame Secretary, for being here 
and being forthright with your answers to the questions, and I 
look forward to this further submission to the record of those 
things that we asked about.
    Secretary Spellings. Will do, absolutely.

                 STATEMENT OF SENATOR MARY L. LANDRIEU

    Senator Harkin. We have received the prepared statement of 
Senator Mary L. Landrieu which will be placed in the record.
    [The statement follows:]

             Prepared Statement of Senator Mary L. Landrieu

    Thank you very much, Secretary Spellings for giving us your time 
today. We appreciate your visit to Capitol Hill to help explain some of 
the budget decisions that were made by the Administration. Also, let me 
offer you my congratulations and best wishes as you begin your new 
position as Secretary of the Department of Education.
    There is no greater investment we can make in our future than in 
the education of our children. President John F. Kennedy once said, 
``Our progress as a nation can be no swifter than our progress in 
education. The human mind is our fundamental resource.'' He was right; 
if we are to succeed, we must make education the forefront of our 
agenda. We must work to raise academic achievement in our public 
schools by putting the priority on performance instead of process, 
delivering results instead of developing rules, and on actively 
encouraging bold reform instead of passively tolerating failure.
    The passage of No Child Left Behind (NCLB) Act in 2001 reaffirmed 
Congress' commitment to be a more equal partner, instead of a major 
impediment, to real education reforms. However, the Administration's 
budget for fiscal year 2006 has not lived up to this promise and as a 
result they continue to leave children behind. This year, the Bush 
budget will create a budget shortfall of almost $9 billion for Title I 
funding under NCLB. As you know, Madam Secretary, Title I funding makes 
it possible for all children, regardless of economic background, to 
have access to a high quality education. In Louisiana, this shortfall 
will translate to over $212 million in funding not getting to local 
educational agencies in Louisiana and leaving behind 66,656 Title I 
students in the state.
    Investing in our children is critical to the well-being of our 
country. While investments in education without accountability are a 
waste of tax-payer dollars, accountability without strategic 
investments in education is a waste of time. If the promise of No Child 
Left Behind is to be truly fulfilled, we must not only continue the 
reforms begun under NCLB, we must fully invest in them. Requiring 
states to meet new, higher standards is a move in the right direction, 
but we must provide states with the resources they need to meet these 
new standards. Every year since the passage of NCLB, the budget 
shortfall for education spending offered by this Administration has 
increased. Making sweeping reforms, while robbing states of the 
resources they need to implement the reforms, is the way that states 
become left behind in education. The promise to ``Leave No Child 
Behind'' is an empty one unless we are willing to make the critical 
investments necessary to support our nation's children.
    What is almost more disturbing than the Administration's lack of 
interest in fulfilling the promise it made to American students 4 years 
ago, is the fact that the Administration continues to make new empty 
promises. This year, the President has proposed a new high school 
initiative as part of the education budget. He has proposed that $1.24 
billion be spent on the High School Intervention program. I have no 
objection to the idea behind this program, and wholeheartedly agree 
with the President that we must work to improve the education standards 
in our high schools. I do, however, take issue with fact that this new 
promise is being made when the old promises have yet to be fulfilled.
    Empty promises are not only being made in elementary and secondary 
schools, Madam Secretary. The President's budget includes $33 million 
for Enhanced Pell Grants. This increase in Pell Grant funding is 
exciting, as we should be increasing opportunities for all students to 
attend a college or university. However, as the adage goes, you cannot 
steal from Peter to pay Paul. While there is an increase in Pell Grant 
funding, there have been significant reductions made to college 
preparatory programs, such as TRIO. In Louisiana, there are currently 
fifty-nine TRIO programs, and over 17,700 students are currently 
participating in them. The merits of TRIO have been widely proven. 
Students who participate in the Upward Bound TRIO program are four 
times more likely to earn an undergraduate degree than students from 
similar backgrounds that do not participate in TRIO. In a state like 
Louisiana, where poverty continues to serve as a barrier to higher 
education, it is of the utmost importance that we provide all possible 
services to our students to encourage their pursuit of a college 
degree. Yet again, while the President highlights his commitment to 
higher education by increasing the Pell Grant funding, he fails to 
mention that that increase is coming at the expense of other higher 
education programs.
    There's a story that I remember hearing when I was a little girl 
about a church in the suburbs of New Orleans. The church was small and 
its membership was not particularly high. There was a leaky roof on the 
church, and for anyone who has been to south Louisiana, you know that 
during hurricane season, the last thing you want is a leaky roof. The 
church had started raising money to fix the roof, when the preacher got 
the idea that in order to attract new members, they should buy a new 
organ. The organ they had was old and, according to the preacher, 
didn't do justice to the Sunday hymns. The preacher rallied the 
congregation around the new organ, and everyone forgot about the leaky 
roof. A year later, the congregation had raised enough money, and one 
Sunday afternoon, they all moved the organ in. Now it does not take a 
meteorologist to tell you, it rains almost everyday during the summer 
in Louisiana, and sure enough, it rained in that little town, and the 
church roof leaked, and when the congregation arrived Sunday morning, 
the new organ was wet and broken.
    Madam Secretary, I would suggest that perhaps under your 
leadership, the Department of Education can finish out what it started 
before the rain comes and what improvements we've made get lost. Under 
NCLB we have identified the schools in need of improvements, now let's 
get about the business of improving them. We have identified the 
teachers who are under qualified, let's get about the business of 
getting them qualified. We have promised parents choices, let's get 
about the business of providing them.
    Thank you, Madam Secretary.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Harkin. There will be some additional questions 
which will be submitted for your response in the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing.]

              Questions Submitted by Senator Arlen Specter

                          NEW BUDGET RESOURCES

    Question. The Administration's fiscal year 2006 budget proposes to 
extend No Child Left Behind to the high school level, by requiring 
States to test high school students in two additional grades. Studies 
have documented shortcomings in the preparedness of all high school 
graduates for work or college. However, funds proposed in the budget to 
support the high school reform initiative are generated through the 
elimination of GEAR UP, certain TRIO activities, and the vocational and 
technical education program. The Administration's goal of reforming 
high schools is important and laudable. However, eliminating popular 
and effective programs will make it more difficult to generate support 
for the Administration's reform proposal. Isn't the goal of helping 
States and local school districts prepare high school students for the 
21st Century workforce and college worthy of new resources, even within 
a tight budget?
    Answer. As I mentioned in my opening statement, the first goal of 
the President's 2006 request is fiscal discipline in terms of total 
discretionary and non-security spending. Doing our share in achieving 
that goal means we do not have new resources, overall, in our 2006 
budget, and that means we had to make some tough decisions. And we 
tried to make those decisions not on the basis of popularity or 
politics, but based on the results produced by the investment of 
taxpayer dollars.
    When we looked at the challenge of reforming our high schools and 
doing a better job of preparing our students for college and the 
workforce, we saw little evidence of a meaningful contribution by 
several current programs. Since we believe our High School Initiative 
holds greater promise of bringing about real change in the performance 
of our high schools, it made sense to re-direct funding from other, 
less-effective activities to the new program. Also, there is 
considerable flexibility in our High School Intervention proposal, and 
districts and schools that believe that college preparation and 
vocational activities are the most appropriate way to meet the needs of 
their high school students would be free to use funding under the new 
program to pursue such strategies.

                        HIGH SCHOOL ASSESSMENTS

    Question. The budget proposes $250 million to pay for the costs of 
additional assessments proposed in the Administration's High School 
Reform initiative. According to GAO's report, Title I: Characteristics 
of Tests Will Influence Expenses; Information Sharing May Help States 
Realize Efficiencies (GAO-03-361, May 8, 2003) showed that costs for 
developing and administering tests could vary greatly. What is the 
basis for the request of $250 million to pay for these additional 
assessments?
    Answer. While test development and administration costs can vary 
widely, ESEA as reauthorized by NCLB already requires States to assess 
students in reading and mathematics at least once in the high school 
grades. The President's proposal would require testing high school 
students in those subjects in only two additional grades.
    Under ESEA Section 1111(b)(3)(D) Congress authorized a total of 
$2.34 billion over 6 years to assist States in developing the 
additional assessments required under NCLB. The additional requirement 
entailed implementation of assessments in reading and mathematics in 
each grade from 3rd grade to 8th grade (instead of once in each grade 
span of 3rd through 5th grade and 6th through 8th grade) plus 
implementation of science assessments once in each grade span of 3rd 
through 5th grade and 6th through 8th grade and once in high school. 
The NCLB requirements add up to 11 more assessments than were required 
prior to enactment of the Act.
    The High School Assessments proposal, which calls for assessing 
students in reading and mathematics at least three times during high 
school, would require States to implement two new high school 
assessments in two subjects, for a total of four new assessments. The 
proposed funding level of $250 million a year over several years will 
provide ample resources to implement the additional assessments. If, 
for instance, the Congress provides 4 years of funding for the high 
school assessments, that would equate to $250 million per assessment 
(that is, $1 billion divided by four assessments). This is slightly 
higher than the amount States received for the MCLB-required tests 
($2.34 billion divided by 11 assessments).

                          COST OF ASSESSMENTS

    Question. How much of the estimated cost of the new assessment 
requirements would this request meet?
    Answer. While test development and administration costs can vary 
widely, the President anticipates that $250 million a year from fiscal 
year 2006 through fiscal year 2009 will cover a significant portion if 
not all the costs of developing the new assessments.

        ACCOUNTABILITY UNDER HIGH SCHOOL INTERVENTION INITIATIVE

    Question. The America Diploma Project recommended that States 
should not rely exclusively on large-scale assessments, because they 
``cannot measure everything that high school graduates need to know and 
be able to do.'' How was this recommendation for States considered in 
the request for assessments specifically or more generally in the 
Administration's High School Reform initiative?
    Answer. While the American Diploma Project (ADP) did state that 
``graduation exams cannot measure everything that matters'', it 
recommended that States ``measure what matters and make it count.'' 
Consistent with the ADP recommendation, accountability under the High 
School Intervention proposal would be based on a range of student 
outcomes that include assessment scores as only one element of high 
school accountability. Other elements could include graduation rates, 
course completion, and enrollment in postsecondary education. The High 
School Intervention proposal would require States to establish clear, 
measurable goals and show significant improvements in student outcomes. 
The role of the expanded assessments would be to produce uniform, 
objective data for measuring student achievement and holding schools 
accountable for academic improvement of all high school students.

                           ADVANCED PLACEMENT

    Question. The fiscal year 2006 budget includes $51.5 million for 
the Advanced Placement program, an increase of $21.7 million over the 
fiscal year 2005 level. This program helps States and school districts 
expose students, especially low-income and minority students, to more 
challenging coursework. Studies have found that a key predictor of 
success in college is exposure to high school coursework of academic 
intensity and quality, which is why I supported an increase of $6.2 
million or 11.6 percent for this program in fiscal year 2005. What is 
the biggest challenge school districts must overcome to expose all of 
their students to challenging courses that prepare students for work or 
college, in particular those districts that educate large numbers of 
low-income students and how will these funds and others in the fiscal 
year 2006 request help address those challenges?
    Answer. School districts, especially those that educate large 
numbers of low-income students, face several challenges in creating a 
pipeline that prepares students for Advanced Placement (AP) and 
International Baccalaureate (IB) coursework and exams. First, districts 
need to realign their curriculum so that students are taking 
challenging coursework in elementary and middle school that prepares 
them for AP and IB-level courses in high school. Second, districts need 
to identify and recruit under-represented students, such as low-income 
and minority students, to enroll in the challenging courses. Third, 
districts need to provide professional development for teachers, to 
help them gain the content knowledge and pedagogical skills to instruct 
students in AP and IB courses. Finally, districts often need to find 
and implement creative solutions to increase capacity for AP and IB 
coursework in schools with low-income students, such as on-line 
coursework and partnerships with institutions of higher education. The 
funds in the fiscal year 2006 request would allow the Department to 
award grants to State educational agencies (SEA), local educational 
agencies (LEA), and national nonprofit educational entities to deal 
with each of these issues.

                IMPACT OF THE ADVANCED PLACEMENT PROGRAM

    Question. This year, the Department must submit a report on the 
impact of the Advanced Placement program. Do you have anything to share 
at this moment about the impact of the program?
    Answer. The Department will submit a report to Congress on the 
impact of its Advanced Placement program later this spring. The report 
will show that, nationwide, the number of students participating in AP 
and IB is increasing. From 2000 to 2004, the percentage of all high 
school students who took an AP exam rose from 15.9 percent to 20.9 
percent. Also, the percentage of all high school students who scored 3 
or above on an AP exam rose from 10.2 percent to 13.2 percent.
    As overall participation has risen, participation by minority and 
low-income students has increased as well, but the access gap continues 
to persist. For example, students attending smaller schools and higher-
poverty schools have less access to AP and IB. Also, black, Native 
American, and economically disadvantaged students participate in AP 
courses and exams at a lower rate than the national average.

             READING BY THIRD GRADE--READING FIRST PROGRAM

    Question. President Bush committed to providing $5 billion over a 
5-year period for the Reading First program, which helps students read 
at least on grade level by the end of third grade. If Congress approves 
the $1.042 billion included in the fiscal year 2006 budget request, 
this 5-year funding goal will be achieved. Is progress being made 
toward achieving the President's goal of all students reading on grade 
level by the end of third grade?
    Answer. Reading First is the largest and most focused early reading 
initiative this country has ever undertaken. Although it is in its 
early stages of implementation, its impact is being felt across the 
country. Reading First provides an opportunity for every State to 
implement reading programs based on scientifically based reading 
research. Effective early reading instruction can prevent the 
difficulties that too many of our students, especially disadvantaged 
students, now face. Through Reading First, States have an arsenal of 
proven instructional methods, professional development, and proven 
interventions to increase the proportion of students who read on grade 
level by the end of the third grade.
    While State-level performance data will not be available until the 
summer of 2005, there are already very encouraging signs from around 
the country. For example, less than a quarter of students in first 
grade at Lowell Elementary School in Mesa, Arizona met the school's 
benchmark on a national reading assessment in 2003. The students, 
tested again in 2004 while in second grade, fared considerably better, 
with almost half meeting the benchmark. School officials, teachers, and 
parents credit the Reading First program as being an instrumental force 
behind this improvement. Schools around the country report similar 
outcomes as students in some of our Nation's neediest schools receive 
the intensive instruction necessary to help close the achievement gap 
in reading.

                 CORE COMPONENTS OF READING INSTRUCTION

    Question. How have these funds been used to implement 
scientifically-based reading instruction?
    Answer. In order to receive a Reading First subgrant, a local 
educational agency (LEA) must demonstrate that its core reading 
curriculum reflects the five essential components of reading 
instruction, as identified by the April 2000 Report of the National 
Reading Panel. These components are phonemic awareness, phonics, 
vocabulary development, fluency, and comprehension. Reading First also 
provides professional development to more than 90,000 K-3 teachers, 
ensuring that all teachers, including special education teachers, have 
the skills they need to teach reading and monitor student progress 
effectively in Reading First classrooms. In addition, the progress of 
students in Reading First classrooms is closely monitored through valid 
and reliable assessment instruments so that immediate intervention can 
prevent students from falling behind.

                           ARTS IN EDUCATION

    Question. The budget proposes to eliminate the Arts in Education 
program, which was funded at $35.6 million in fiscal year 2005. In a 
recent study by the Council for Basic Education, a nonprofit 
organization that advocates for liberal arts subjects, 25 percent of 
principals reported decreases in the time their schools devote to the 
arts and 33 percent expect decreases in the next 2 years. These changes 
have impacted poor minority students the hardest as 36 percent of 
principals in schools with large percentages of minority students 
reported reduced instructional time for the arts, while 42 percent 
anticipate future decreases. According to the report Champions of 
Change, students who participate in the arts outperform those who don't 
on virtually every measure. In addition, researchers have found that 
``sustained learning'' in music and theater correlate to greater 
success in math and reading, and students from lower socioeconomic 
backgrounds see the greatest benefits. Isn't it important to maintain a 
Federal commitment to fund arts education, given different student 
learning styles and interests and the proven benefits of instruction in 
the arts?
    Answer. The arts play a significant role in education both for 
their intrinsic value and because of the ways that they can enhance 
general academic achievement and improve students' social and emotional 
development. No Child Left Behind includes arts as a core academic 
subject and holds arts teachers to the same high standards as it does 
those who teach English, math, science, and history.
    There are a variety of opportunities for districts and schools to 
include the arts in instruction. Districts seeking to implement arts 
education activities can use the funds they receive through the 
Improving Teacher Quality State Grants program to carry out 
professional development activities that improve the knowledge of 
teacher and principals in core academic subjects, including the arts. 
Additionally, districts may use their funds under the State Grants for 
Innovative programs to support programs in the arts. Lastly, the arts 
can also be an important part of learning and enrichment in programs 
supported by the 21st Century Community Centers program funds by 
involving cultural partners in the community, such as arts centers, 
symphonies, and theaters. The Administration's 2006 budget request 
would continue strong support for all of those programs.

                         EDUCATIONAL TECHNOLOGY

    Question. According to the Education Commission of the States 
Report to the Nation on the Implementation of No Child Left Behind, 
``Many states do not have in place the technology infrastructure needed 
to collect, disaggregate and report data at the school, district and 
state levels. NCLB doesn't require the development of statewide data 
systems but, without them, states will have difficulty meeting a number 
of the law's requirements.'' Further, the Department's National 
Education Technology Plan identified Improving Teacher Training as a 
recommendation and also stated that, ``Teachers have more resources 
available through technology than ever before, but some have not 
received sufficient training in the effective use of technology to 
enhance learning.'' Given these recent findings and recommendations, 
why does the budget propose eliminating the Education Technology State 
Grant program, the only remaining Federal source of funds dedicated to 
addressing these issues?

                         EDUCATIONAL TECHNOLOGY

    Answer. The fiscal year 2006 budget request supports the 
Administration's policy of eliminating categorical programs that have a 
narrow or limited effect in order to increase support for high-priority 
programs. Educational technology needs can be addressed by using other 
sources of Federal funds. For example, districts may use their funds 
under the Improving Teacher Quality State Grants program to implement 
professional development programs that train teachers and principals to 
integrate technology into curricula and instruction in order to improve 
teaching, learning, and technology literacy.
    While developing and operating statewide student data systems are 
allowable activities with Education Technology State Grant funds, there 
is little evidence that States use these funds for that purpose. This 
elimination of the program should not affect States' activities in this 
area. In order to address the States' need to develop effective 
longitudinal data systems, the Department has requested continued 
funding for the Statewide Data Systems program. Continuation of this 
program will allow States and local educational agencies to use 
assessment and other data to identify struggling students and track 
their progress while complying with the requirements of No Child Left 
Behind.
    Question. In Pennsylvania, $22 million of the $23 million spent 
specifically on educational technology is generated by the Education 
Technology State Grant Program and an independent evaluation conducted 
by Metiri Group and Penn State University found that many of 
Pennsylvania LEAs are experiencing significant improvements in teacher 
skill level and student performance because of the funds available 
through this program. How will Pennsylvania continue to make the kind 
of progress identified by the evaluation without these resources, 
especially given the reduction in or elimination of other sources of 
Federal funds that may be transferred for use under this program?
    Answer. The Administration recognizes that Pennsylvania, like many 
States across the country, is facing a difficult budget situation. 
However, the flexibility provisions in No Child Left Behind allow 
districts to make use of their Federal assistance by permitting them to 
more efficiently allocate resources to address their particular needs. 
Pennsylvania districts will thus continue to be able to use Federal 
assistance for technology purposes.

             LEVERAGING EDUCATIONAL ASSISTANCE PARTNERSHIPS

    Question. The Leveraging Educational Assistance Partnerships 
program has generated significant State need-based aid through matching 
funds that totals nearly $1 billion. Why does the fiscal year 2006 
budget propose to eliminate the $65.6 million in funding for the 
Leveraging Educational Assistance Partnerships program despite the fact 
that it is the only Federal program designed to expand the amount of 
need-based student aid provided by States?
    Answer. We believe the best way to foster college access and 
completion is to concentrate resources on Pell Grants, the largest and 
most need-based Federal grant program. There is no reason to continue 
to use scarce resources on LEAP, since Federal assistance is no longer 
needed to encourage States to provide need-based grant and work-study 
assistance.

       STATE PROGRAMS OF UNDER-GRADUATE NEED-BASED STUDENT GRANTS

    Question. While it is true that funds exceed the matching 
requirement, don't you believe there should be a Federal role in 
supporting continued and expanded State need-based aid programs that 
help all students access and complete college?
    Answer. When the program was first authorized as the State Student 
Incentive Grant program in 1972, 28 States had undergraduate need-based 
grant programs. Now all but two States have need-based student grant 
programs. The continued existence of the LEAP program has not 
encouraged the two remaining States to institute State grant programs.

                       STUDENT AID ADMINISTRATION

    Question. What are the specific administrative challenges 
associated with the current funding structure and how would a single 
discretionary appropriation address those challenges?
    Answer. Funding identical student aid administrative activities 
from multiple sources creates substantial additional complexity with no 
additional value for managers or oversight organizations such as 
Congress, GAO, or Department auditors. A single funding source would 
result in a process that is both significantly simpler and 
substantially more transparent.

             ADJUNCT TEACHERS AND HIGHLY QUALIFIED TEACHERS

    Question. The budget proposes $40 million for a new program, the 
Adjunct Teacher Corps. This program would provide grants to place non-
certified teaching professionals in the classroom and allow them to 
teach on a full or part-time basis. How does this new program, which 
proposes allowing unlicensed or uncertified teachers, fit with 
Congress' and the Administration's emphasis on highly qualified 
teachers in every classroom as envisioned under the No Child Left 
Behind Act?
    Answer. The $40 million request in the 2006 budget for a proposed 
Adjunct Teacher Corps initiative would provide competitive grants to 
partnerships of school districts and appropriate public or private 
institutions to create opportunities for professionals to teach 
secondary-school courses in the core academic subjects, particularly in 
mathematics and science.
    Grants would be used to: (1) identify, as adjunct teachers, well-
qualified individuals outside of the K-12 educational system, including 
outstanding individuals at the height of their careers in business, 
government, foundations, and colleges, and (2) facilitate arrangements 
for them to function in this capacity, for example, by teaching one or 
more courses at a school site on a part-time basis, teaching full-time 
in secondary schools while on leave from their jobs, or teaching 
courses that would be available online or through other distance 
learning arrangements. In some cases, this initiative would provide 
opportunities for individuals to substitute teach in hard-to-fill 
positions.
    The intent of the Adjunct Teacher Corps initiative is not to bring 
more highly qualified teachers into the classroom on a permanent basis, 
but rather to integrate their knowledge and experience into classroom 
learning. Although potential participants would typically not be 
certified or licensed to teach in secondary schools, they often have a 
wealth of knowledge, skills, and professional experiences and would be 
able to provide real-world applications for some of the abstract 
concepts taught in classrooms. Adjunct teachers who are not employees 
of a school district would not be covered by the NCLB ``highly 
qualified teacher'' requirement. On a temporary basis, these teachers 
would give school districts opportunities to strengthen instruction in 
secondary schools in the core academic subjects, especially mathematics 
and science.

                     EVEN START AND FAMILY LITERACY

    Question. The budget request proposes to eliminate the $225 million 
Even Start program. This program successfully supports family literacy 
programs, which are comprised of adult education, parent education, 
parent-child activities and early childhood education activities. This 
concept has shown positive results and was strengthened by the 
reauthorization of the program under No Child Left Behind. The 
Administration has pointed to national evaluations conducted of the 
program as it existed prior to the reauthorization as evidence that it 
is ineffective. Madam Secretary, why are you proposing to eliminate 
this program based on evaluations that do not reflect the outcomes 
being achieved currently?
    Answer. Although the No Child Left Behind Act of 2001 strengthened 
some components of Even Start, these changes did not alter the 
structure or design of the program. Although some local projects may be 
successful, the overall effectiveness of Even Start remains very 
questionable. The 2000 Literacy Involves Families Together (LIFT) Act, 
which authorized Even Start prior to the No Child Left Behind Act, 
included language encouraging local projects to hire more qualified 
staff, to use instructional programs that are based on scientifically 
based research, and to increase the focus on evaluation. However, the 
changes made through LIFT and later NCLB did not alter the basic 
elements of the program, and a new evaluation would most likely yield 
the same results as the first three.
    While the premise underlying the Even Start program is attractive, 
the extent to which family literacy programs can enhance parent 
literacy and parenting skills is still unknown. The Administration 
believes that we should redirect the resources now available for Even 
Start to programs such as Reading First and Early Reading First that 
are based on a sound, scientifically based approach and are better 
focused on achieving their goals of improving the literacy skills of 
young learners.

                            ADULT EDUCATION

    Question. Currently, nearly half of the adults in Pennsylvania have 
limited literacy skills. Among individuals who are receiving welfare, 
are incarcerated, or the long term unemployed, 70 percent have limited 
skills. Based on the overall reduction proposed in the fiscal year 2006 
budget, Pennsylvania programs would lose $14 million, or 75 percent, of 
Federal funds for adult education and literacy programs. The fiscal 
year 2006 performance plan for the Department of Education sets 
performance targets for the percentage of adults with a high school 
completion goal who earn a diploma or its equivalent at 46 percent in 
fiscal year 2005 and 47 percent in fiscal year 2006. How does the 
Department intend to help States make progress toward the Department's 
performance goals with 65 percent less funding overall?
    Answer. As with K-12 education, adult education is funded primarily 
through State and local resources, and Federal funds are meant to 
supplement, not supplant, local efforts to provide educational services 
to high school dropouts, immigrants, and low-literacy adults. According 
to data collected by the Department, the Federal Government contributed 
approximately 26 percent of total adult education program funding in 
2003. The budget request also recognizes the importance of addressing 
the English-language needs of our Nation's immigrant population and 
therefore includes level funding for the English Literacy and Civics 
Education (EL/Civics) component of the program, which will support 
States in addressing the educational needs of their limited English 
proficient (LEP) populations. Pennsylvania is expected to receive 
approximately $1.4 million for EL/Civics grants in 2006.
    The Department will continue to provide States and local providers 
with technical assistance, research and implementation support, and 
curricular guidance for adult education programs. Through these 
activities, the Department will enhance the effectiveness of local 
adult education programs and thus help them to successfully attain the 
performance goals set by the Department.

                 MATH AND SCIENCE PARTNERSHIPS PROGRAM

    Question. The fiscal year 2006 budget proposes to reduce funding to 
States for math and science partnerships in order to provide a set-
aside of $120 million for direct grants to school districts for math 
programs for secondary students. States are currently using their funds 
to run competitions that in some cases give a priority to applicants 
that seek to improve math achievement of middle and high school 
students. If States are designing their competitions with a priority to 
address mathematics achievement of secondary students, why should 
Congress reduce funds for States that best know how to address the 
educational needs of their school systems?
    Answer. For fiscal year 2006, the Administration is requesting $269 
million for the Mathematics and Science Partnerships program, a $90.4 
million increase over the 2005 appropriation. Of the total amount, $120 
million would be used for direct grants to LEAs to accelerate the 
mathematics achievement of secondary-school students and $149 million 
would be awarded to States by formula. The amount provided through 
formula grants would be a reduction of $29.6 million from the 2005 
level.
    American students' poor performance on national and international 
mathematics assessments, such as the National Assessment of Educational 
Progress and the 2003 Program for International Student Assessment, 
provides a compelling rationale for an intensive, targeted initiative 
to strengthen the mathematics skills of our middle- and high-school 
students, especially low-achieving students. The direct competitive 
grants requested in the budget would focus on ensuring that States and 
school districts provide professional development that is strongly 
grounded in research and that helps mathematics teachers become highly 
qualified. The Administration believes that it is critical to target 
funds directly to high-quality secondary-school mathematics projects, 
thus justifying the decrease in formula grants, which would not, as the 
program is structured, generate the type of intensive focus in 
secondary-school mathematics achievement that is clearly needed. The 
remaining funds for the formula grants would allow partnerships to 
conduct other important activities to improve student achievement, 
including activities that focus on science and elementary-school 
mathematics.
    Question. Why would a direct grant program out of Washington, D.C. 
be more effective at improving mathematics achievement than a State-
based approach that is consistent with the authorization for this 
program?
    Answer. The competitive grants would support projects that have 
significant potential to accelerate the mathematics learning of all 
secondary students, but especially low-achieving students. This 
initiative would focus on ensuring that States and LEAs implement 
professional development projects for mathematics teachers that are 
strongly grounded in research and that help teachers to improve their 
instruction in mathematics.
    The Administration believes that it is critical to fund efforts 
specifically to accelerate mathematics learning at the secondary level 
by helping secondary students master challenging curricula and by 
increasing the learning of students who have fallen behind in 
mathematics. Research indicates that many students who drop out of 
school lack basic skills in mathematics, and our Nation needs to 
support these students so that they can catch up to their peers and 
stay in school.

                            CIVIC EDUCATION

    Question. Funding for the Education for Democracy Act--supporting 
both domestic and international civic education programs--was 
eliminated in your budget and that program has successfully helped 
American students understand and appreciate our fundamental values and 
principles. This funding also supports a school violence prevention 
program that has had results in rural and urban settings throughout the 
country. The international exchange program has been very successful in 
helping emerging democracies establish an education for democracy 
program in their schools, so students would begin to understand basic 
concepts such as the rule of law, the protection of minority rights, 
and respect for diverse religions and races. The democracy curriculum 
created from the international exchange program is the only curriculum 
used in schools throughout Bosnia by all three ethnic groups, the 
Serbs, the Bosnians, and the Croats. This unique international program 
is having similar success in more than 60 countries including Russia, 
Indonesia, and nine countries in the Middle East. Madam Secretary, can 
you comment on why a program that is consistent with the 
Administration's desire to advance the ideals of democracy was 
eliminated from your budget this year?
    Answer. The request for this program is consistent with the 
Administration's intent to increase resources for higher priority 
programs by eliminating small categorical programs that have limited 
impact, and for which there is little or no reliable evidence of 
effectiveness. Less than 5 percent of funds (approximately $1.5 million 
in fiscal year 2005) available through the Civic Education program 
support activities specifically related to school violence prevention. 
The Administration believes that a more effective approach to 
addressing school violence is to invest in Safe Schools/Healthy 
Students grants--which would receive $88.5 million under the 2006 
request--to create safe, disciplined, and drug-free learning 
environments.
    Likewise, only a tiny fraction of funds designated for the 
Cooperative Education Exchange support summer workshops and other 
activities related to democracy in Bosnia. But, since the Dayton 
Accords of 1995, the U.S. Department of State and U.S. Agency for 
International Development have played a key role in promoting democracy 
in Bosnia and Herzegovina, providing hundreds of millions in support 
and critical expertise in everything from revitalizing the 
infrastructure to promoting democratic reforms of education and the 
media. Further, through the cooperative efforts of American and 
European Union governments, in 2003 a common curriculum was adopted by 
all education ministers in Bosnia and Herzegovina. It may have once 
been true that the Civic Education Project Citizen curriculum was ``the 
only curriculum used in schools throughout Bosnia by all three ethnic 
groups;'' however, it is our understanding that the adoption of a 
common curriculum in 2003 marked the end of rigid ethnic and religious 
separation in schools, and that Serbs, Bosnians, and Croat students now 
routinely pursue shared courses of study in mixed schools and 
classrooms.
    While the Civic Education program supports some worthwhile 
activities, there are no reliable measures of the overall effectiveness 
of interventions supported using program funds. Studies and evaluations 
conducted by the Center for Civic Education provide limited information 
on program performance, but none are sufficiently rigorous to yield 
reliable information on the overall effectiveness or impact(s) of the 
various interventions supported through this program. Additionally, 
because one statutorily designated entity receives approximately 75 
percent of all Civic Education funds during any single fiscal year, the 
program's contribution to the Department's overall mission is marginal.
    The Administration does not believe additional funding is necessary 
for the implementation of activities currently supported through this 
program. The Center for Civic Education is an established non-profit 
organization with a broad network of program participants, alumni, 
volunteers, and financial supporters at the local, State, and national 
levels. The Center also has a long history of success raising 
additional support through such vehicles as selling program-related 
curricular materials, trainings, and workshops, partnering with non-
profit groups on core activities, lobbying, and seeking support from 
foundations.

                   SPECIAL EDUCATION TEACHER SHORTAGE

    Question. The shortage of certified special education teachers is 
reaching very high levels and the issue needs to be addressed in order 
to ensure that all students are challenged in school and receive the 
same high level of education. Several statistics illustrate the point: 
half of new special education teachers leave the classroom within 3 
years; 98 percent of school districts report shortages of special 
education teachers; in 2002 our nation produced only 213 doctorates in 
special education; and one out of three faculty openings in special 
education go unfilled--diminishing the capacity of universities to 
train special education teachers. What does the fiscal year 2006 budget 
propose to address this critical shortage?
    Answer. Recent studies suggest that the on-going special education 
teacher shortage is affected by a number of factors, including special 
education teacher turnover rates, changes in the number of children 
with disabilities served under IDEA and Section 504, teacher training 
program enrollments and graduation rates, and the extent to which 
teacher training programs actually prepare teachers for the challenges 
they will face in the classroom. The fiscal year 2006 budget addresses 
the problem through multiple IDEA programs, including Grants to States, 
for which $11.1 billion is requested, and Personnel Preparation, for 
which $90.6 million is requested. SEAs and LEAs have the authority 
under IDEA to use Grants to States funds for a wide variety of 
personnel-related activities, including supporting personnel training 
and professional development and implementing plans to meet personnel 
shortages. Approximately 90 percent of Personnel Preparation program 
funds support grants to IHEs for the purpose of improving program 
curricula and making training and professional development 
scholarships. Such awards are targeted to improve both the quality and 
quantity of training for special education teachers and related 
services personnel. Individuals receiving scholarship assistance 
through projects funded under program are required to fulfill a 2-year 
service obligation or repay all or part of the costs of such 
assistance. This program also currently funds several projects that 
promote teacher retention through mentoring activities. Repayment 
obligations and mentoring programs are designed to aid in the retention 
of beginning special educators, a group that studies have shown to be 
particularly prone to attrition.
    It is worth mentioning that, for many years, one of the primary 
goals of Federal programs that support special education training has 
been to alleviate shortages by increasing the supply of special 
education teachers. However, except in certain isolated areas such as 
awards to train leadership personnel and personnel serving children 
with low-incidence disabilities, there is little evidence that these 
investments have resulted in measurable increases to the overall supply 
of special education teachers and related services personnel. For this 
reason, the fiscal year 2006 budget addresses the special education 
teacher shortage primarily by concentrating scholarship grant support 
in those areas where States and other investors have limited capacity 
and incentive to invest (e.g., supporting programs that prepare 
teachers of children with low-incidence disabilities and leadership 
personnel).

                   HIGHLY QUALIFIED SPECIAL EDUCATORS

    Question. What is your plan to ensure that all students benefit 
from having a highly qualified teacher in their classroom?
    Answer. The No Child Left Behind Act of 2001 (NCLB) emphasizes 
teacher quality as one of the primary factors contributing to improved 
student achievement. Consistent with this emphasis, and to better equip 
States for the critical task of ensuring that all teachers of core 
academic subjects are highly qualified, the Department has dedicated 
significant resources to such activities as providing on-going 
technical assistance and developing guidance that clearly articulates 
how the highly qualified teacher provisions affect all teachers and 
related personnel, including special educators. As part of an extensive 
outreach effort on the highly qualified teacher provisions, the 
Department recently sent a cadre of experts called the Teacher 
Assistance Corps to each State to clarify the highly qualified 
requirements, provide technical assistance, and capture promising 
implementation strategies. Many of these practices are available now 
through the www.teacherquality.us Web site, and more will be added as 
the Department continues to visit States as part of its highly 
qualified teacher monitoring. Any State that requests additional 
technical assistance on the highly qualified teacher requirements as 
they apply to special education teachers will receive such help. 
Through the Teacher-to-Teacher initiative, the Department also supports 
teacher roundtables, regional workshops, a national Research-to-
Practice Summit, and electronic teacher video training modules. The 
Teacher-to-Teacher Web site, at www.paec.org/teacher2teacher, offers 
on-demand professional development in the latest research-based 
practices.
    Because the recently reauthorized IDEA incorporates the ESEA 
definition and standards relating to highly qualified teachers with 
only slight modifications, the Department plans to continue its current 
focus on working with SEAs and LEAs towards the goal of ensuring that 
all students benefit from having a highly qualified teacher in their 
classroom. In addition to such on-going activities, consistent with 
this focus on highly qualified teachers, in announcing recent 
competitions for new Personnel Preparation competitive awards the 
Secretary emphasizes that the Department is interested in funding 
training programs that prepare highly qualified special educators. By 
emphasizing these requirements in new awards to grantees training 
special education personnel, the Department expects to gain critical 
insights into the most effective and efficient ways of ensuring that 
program curricula and professional development requirements are aligned 
with and support the highly qualified teacher requirements.

                    STATE SCHOLARS CAPACITY BUILDING

    Question. The budget proposes $12 million in fiscal year 2006 for 
State Scholars Capacity building. Congress has not provided funds 
specifically for this purpose previously, but the Department has 
supported State Scholars Partnerships through funding available under 
Vocational Education National Programs. With the additional funds 
requested in fiscal year 2006, subgrants would be made to support State 
Scholars Partnerships in 26 States. Research has demonstrated that 
students who complete a rigorous course of study during high school are 
better prepared to be successful in college and the workforce. 
Specifically, what are the findings from any evaluation that has been 
conducted on State Scholar projects?
    Answer. Since 1992, the Scholars Initiative has been piloted in 
local communities within several U.S. states, including Arkansas, 
Oklahoma, Tennessee, and Texas. We are seeing some good early results 
in the States and communities that have launched Scholars initiatives. 
Enrollment in Algebra I and Geometry at Little Rock high schools, for 
example, rose 6 and 8 percent, respectively, in the district's first 
year of participation in Arkansas Scholars. However, only one State, 
Texas, has implemented the State Scholars Initiative statewide for a 
long enough period for us to begin to examine long-term outcomes. The 
percentage of Texas high school students who completed the Scholars' 
recommended course of study rose from 15 percent in 1999 to 63 percent 
in 2003 (Texas Education Agency, Academic Excellence Indicator System. 
2003). We find this highly encouraging, although we cannot attribute 
these outcomes solely to Texas State Scholars initiative. While 
students and parents found the recommendations of the Texas Business 
and Education Coalition to be compelling, and students then increased 
their enrollment in challenging academic courses, State policy-makers 
also began to recognize the importance of providing all students with a 
rigorous academic education. Accordingly, they phased out lower-level 
graduation requirements in favor of graduation requirements that 
aligned with the Scholars academic core.

    PUBLIC SCHOOL CHOICE REQUIREMENT OF THE NO CHILD LEFT BEHIND ACT

    Question. Reports by The Government Accountability Office, 
Education Commission of the States and others have documented the 
challenges school districts face in meeting the public school choice 
requirement of No Child Left Behind. In response to a December 2004 
report on the implementation of the No Child Left Behind Act, the 
Department identified Parental Information and Resource Centers and 
grants funded under the Fund for the Improvement of Education as 
sources of outreach and information to parents on a national level 
about the school choice option. The response stated further that, ``We 
know that our efforts have led to parents learning about, and taking 
advantage of, their opportunity to transfer students. Much remains to 
be done, however.'' What is the Department doing currently and 
proposing in the fiscal year 2006 budget to help States and school 
districts effectively implement this provision of the law?

               PARENTAL INFORMATION AND RESOURCE CENTERS

    Answer. On the budget side, the need to support local efforts to 
implement the public school choice requirements of No Child Left Behind 
has been a key rationale for the consistently large increases President 
Bush has requested for Title I Grants to Local Educational Agencies. 
With Title I funding up $4 billion, or 45 percent, over the past 5 
years, we believe school districts have sufficient resources to carry 
out public school choice. And of course we are asking for $600 million 
more in 2006.
    The bigger challenge has been providing effective technical 
assistance and guidance to States and school districts. We have 
published detailed guidance on the public school choice provisions and 
distributed that guidance widely to key groups, including through 
presentations and workshops on public school choice at the National 
Title I Directors Conference, as well as conferences of the Black 
Alliance for Educational Options, National Alliance of Black School 
Educators, and National Association of Federal Program Administrators. 
We plan to continue these efforts at many other conferences during the 
coming year.
    In addition, we have published several ``Innovations in Education'' 
guides related to public school choice, including ``Creating Strong 
District School Choice Programs,'' ``Creating Successful Magnet School 
Programs,'' and ``Successful Charter Schools.'' The Department has 
disseminated and presented on these guides widely, and our web site 
contains information on No Child Left Behind choice options in a 
variety of formats.
    We are currently developing an Interactive Toolkit on Choice that 
will include tools, templates, and models used by school districts that 
are successfully implementing public school choice. We also are 
planning a two-day Train-the-Trainers Conference on Public School 
Choice intended to expand the number of experts available nationwide to 
provide technical assistance to districts on public school choice.
    NCLB choice options continue to be a key focus of State and local 
monitoring visits, where we pay special attention to outreach efforts 
by districts to make parents aware of public school choice. Finally, 
determining and disseminating the best practices for informing parents 
about choice options will be a key goal for our new technical 
assistance centers.

               PARENTAL INFORMATION AND RESOURCE CENTERS

    Question. Why does the Department propose to terminate funding for 
the Parental Information and Resource Centers program, just months 
after identifying them as a resource that has helped parents take 
advantage of their right to transfer their child to a higher performing 
public school?
    Answer. While the Parental Information and Resource Centers (PIRCs) 
make a limited contribution to informing parents about choice options 
under the No Child Left Behind Act, the overall structure of the 
centers limits their effectiveness. For example, one problem with the 
PIRCs that has been highlighted by the Administration's Performance 
Assessment Rating Tool is the multiple purposes served by the program, 
which prevent the kind of focused, tailored delivery of services that 
can have a meaningful impact in achieving program goals.
    We believe the parental involvement and outreach goals of No Child 
Left Behind are more effectively met through the existing requirements 
under Part A of Title I for the some 15,000 participating Title I 
districts and schools, which include not only parental involvement 
activities but school improvement-related reporting and outreach 
specifically intended to help parents take advantage of NCLB choice 
options. The Department continues to work with States and districts to 
improve the effectiveness of these Part A-funded activities, through 
both ongoing technical assistance and on-site monitoring visits. The 
PIRCs activities largely duplicate such efforts, as well as those of 
the comprehensive technical assistance centers currently under 
competition, at a time when we must make tough decisions about the best 
way to invest scarce resources in the most effective manner possible.

                              PELL GRANTS

    Question. The Administration proposed to add $5.6 billion to the 
Pell Grants program in fiscal year 2006, $867 million of which is 
discretionary and the remaining $4.7 billion is mandatory spending 
proposed in the reauthorization of the Higher Education Act. The 
Administration has proposed a very important investment. What will be 
the impact of the proposal on the typical students receiving a Pell 
Grant?
    Answer. The maximum Pell Grant would increase by $100 in fiscal 
year 2006 and by $500 over the next 5 years. The Administration's 
budget invests $19 billion in new funding over the next 10 years to 
increase grants to low-income students, helping them finance their 
postsecondary education
    Question. How will you pursue this important investment if the 
Higher Education Act is not reauthorized this year?
    Answer. The Department's comprehensive student aid proposals would 
best be implemented through the reauthorization of the Higher Education 
Act; we will work closely with Congress on these important changes.

                     LOANS FOR SHORT-TERM TRAINING

    Question. The fiscal year 2006 budget includes $10 million for a 
new loan program to help dislocated, unemployed, or older workers 
upgrade their skills. These individuals are not eligible for Federal 
student loans. This program will be jointly administered with the 
Department of Labor and could help more than 350,000 individuals 
acquire the skills they need for work. Madam Secretary, I applaud the 
Department for this important new initiative, since these individuals 
are not eligible for Federal student loans and many need help to 
upgrade their skills. If this new program is approved, how quickly 
could this new program be implemented?
    Answer. If this new program is approved, the Department expects to 
make loans in fiscal year 2006.
    Question. How will your Department coordinate with the Department 
of Labor on this program?
    Answer. The two departments will soon be submitting details on this 
program specifying each agency's roles and responsibilities. The 
proposal envisions the Departments of Labor and Education as operating 
partners, each bringing their particular expertise to the process of 
expanding training opportunities for American workers.

              TEACHER INCENTIVE FUND AND TEACHER TRAINING

    Question. The budget request proposes to create a new $500 million 
Teacher Incentive Fund, which would change the way teachers are paid 
and allow schools to use funds to recruit teachers to high-need 
schools. The existing $2.9 billion Teacher Quality State Grant program 
allows school districts to use funds for both of these activities. The 
Administration should be commended for the proposed increase in funding 
to support our nation's educators. Why have you proposed to create a 
new $500 million program that is the same as an existing program?
    Answer. The Administration is requesting $500 million for the 
Teacher Incentive Fund initiative to allow States and school districts 
to develop and implement innovative ways to provide financial 
incentives for teachers who raise student achievement and close the 
achievement gap in some of our Nation's highest-need schools, to 
attract highly qualified teachers to those schools, and to redesign 
teacher compensation systems in order to align pay with performance. 
This is a different mission from that of the Improving Teacher Quality 
State Grants program, which focuses mostly on enabling teachers to 
become ``highly qualified.''
    Under No Child Left Behind, all States are working to ensure that, 
by the end of the 2005-2006 school year, all classes of the core 
academic subjects are taught by highly qualified teachers. Funds are 
available under several formula grant programs, including Improving 
Teacher Quality State Grants, for professional development and other 
expenses needed to enable States and school districts to achieve that 
objective. But the Teacher Incentive Fund will take the national 
commitment to ensuring a continued high-quality teaching force one 
important step further by providing significant, dedicated Federal 
support for rewarding teachers for strong performance, encouraging 
highly qualified teachers to enter classrooms with concentrations of 
low-income students, and developing and implementing performance-based 
teacher compensation systems.

                         TEACHER INCENTIVE FUND

    Question. Can you explain why States and school districts need 
another source of Federal funds for recruiting teachers and reforming 
teacher pay systems?
    Answer. Although States and school districts are authorized to use 
Title II Improving Teacher Quality State Grants funds to recruit 
teachers to high-need schools and to reform teacher pay systems, the 
Department has found that they seldom use Title II funds for those 
purposes. For example, a Department survey of districts' use of Title 
II funds in the 2002-2003 school year indicates that most of the funds 
were being used for professional development (25 percent) and for 
teacher salaries to reduce class size (58 percent), and the study also 
found that, of the remaining allowable activities, no single activity 
accounted for more than 3 percent of all reported Title II school 
district funds. In addition, recent monitoring visits to States and 
school districts suggest that States and school districts continue to 
spend most of their Title II funds on professional development. Based 
on these findings, it appears that States and school districts are not 
using their Title II funds to recruit teachers to high-need schools and 
to reform teacher pay systems, particularly given other competing needs 
for Title II funds to improve teacher quality.
    Because the Administration believes that it is important for States 
and school districts to continue to conduct their existing Title II 
activities at current levels to improve teacher quality, the 
Administration is proposing additional funds, through the Teacher 
Incentive Fund, for efforts dedicated to rewarding effective teachers, 
offering incentives for highly qualified teachers to teach in high-need 
schools, and designing and implementing performance-based compensation 
systems that change the way school districts pay teachers. The $500 
million requested for the Teacher Incentive Fund will permit many more 
school districts to implement these types of reforms and provide a 
major incentive for needed changes in teacher compensation systems 
nationally.
    Question. Why not add the $500 million to the existing program?
    Answer. The Administration believes that, by dedicating $500 
million specifically for teacher incentive efforts, many more States 
and school districts will develop and implement much-needed reforms in 
the way teachers are compensated in order to further improve teacher 
quality. Under the existing program, States are much less likely to 
implement these reforms.

                  NO CHILD LEFT BEHIND AND FLEXIBILITY

    Question. While I support the No Child Left Behind Act, I believe 
there needs to be more state flexibility in the implementation of the 
Act, because each state has the knowledge of the particular challenges 
facing its education system, including accounting for students with 
learning, emotional and English language difficulties. Madam Secretary, 
you stated in your January 6, 2005 nomination hearing before the Senate 
Health, Education, Labor and Pensions Committee that, ``We must stay 
true to the sound principles of leaving no child behind. But we in the 
administration must engage with those closest to children to embed 
these principles in a sensible and workable way.'' Will you provide 
needed flexibility to Pennsylvania and other States?
    Answer. I remain committed to my January 6 statement, Mr. Chairman. 
We are willing to carefully consider requests from States and school 
districts for additional flexibility in implementing No Child Left 
Behind, and we will work very hard to try and provide that flexibility. 
However, we must remain true to the law's core principles. Just to give 
you a couple of examples, I believe it would be very difficult--
impossible really--to eliminate key requirements like annual testing or 
the use of subgroup accountability to determine adequate yearly 
progress.
    On the other hand, I think you have already seen that we are 
willing to work with States in areas like the assessment of special 
education and limited English proficient students, and in ensuring that 
all teachers are highly qualified. I have met with experts in these 
areas and am working with senior Department officials to clarify our 
policies. So in answer to your question, we will provide flexibility 
wherever we can do so consistent with the law.

       COLLEGE ENROLLMENT GAP--FEDERAL TRIO AND GEAR UP PROGRAMS

     Question. Last year, I asked Secretary Paige what initiatives the 
fiscal year 2005 President's Budget supports to reverse the increasing 
college enrollment gap between low- and high-income students. As part 
of that response, Secretary Paige wrote that, ``The Administration also 
supports strong academic preparation for postsecondary education and 
training through the Federal TRIO and GEAR UP programs. The 
Administration is proposing in fiscal year 2005 to spend $1.13 billion 
for these two programs.'' Why are TRIO's Talent Search and Upward Bound 
programs and GEAR UP now proposed for elimination?
    Answer. The Administration has not requested funding for Upward 
Bound, Talent Search, and GEAR UP in the fiscal year 2006 budget 
because we believe our proposed $1.2 billion High School Intervention 
initiative would do a better job of improving high school education and 
increasing student achievement. Today, just 68 out of 100 9th graders 
will receive their diplomas on time. Moreover, only 51 percent of 
African-American students and 52 percent of Hispanic students will 
graduate from high school, and less than a third of students will leave 
high school ready to attend 4-year colleges. We believe a targeted and 
comprehensive approach is necessary to overcome these challenges.

                  HIGH SCHOOL INTERVENTION INITIATIVE

    The new High School Intervention initiative would require each 
State to develop a plan for improving high school education and 
increasing student achievement, especially the achievement of low-
income students and students who attend schools that fail to make 
adequate yearly progress. States would be held accountable for 
improving the academic performance of at-risk students, narrowing 
achievement gaps, and reducing dropout rates, but States would have 
flexibility to provide the full range of services students need to 
ensure they are academically prepared for the transition to 
postsecondary education and the workforce. The initiative also would 
deepen the national knowledge base on what works in improving high 
schools and high school student achievement by supporting 
scientifically based research on specific interventions that have 
promise for improving outcomes.
    We believe this High School Intervention initiative would be more 
effective than our current, disjointed approach that has not served all 
students well. Replacing Upward Bound, Talent Search, and GEAR UP with 
a more targeted and comprehensive initiative would help us reach our 
strategic goals of improving the performance of all high school 
students and increasing access to postsecondary education. However, in 
the interest of minimizing the disruption of services to students, 
funding for the High School Intervention initiative would support 
existing TRIO and GEAR UP projects that would be eligible for 
continuation funding in fiscal year 2006.

      UPWARD BOUND, TALENT SEARCH AND GEAR UP PROGRAM ASSESSMENTS

    Question. What specific evidence leads you to a different 
conclusion about the importance of these funded activities?
    Answer. While we agree that the activities supported by Upward 
Bound, Talent Search, and GEAR UP are important, the Administration's 
assessments of these programs have not found evidence that the programs 
are effective overall in helping disadvantaged students enroll in 
college. Moreover, we believe the new High School Intervention 
initiative would incorporate the best elements of these programs to 
achieve better results.
    Evaluation findings demonstrate that Upward Bound projects serve 
low-income students who have unusually high educational expectations 
and who would enroll in college regardless of their participation in 
the program. The high college enrollment rate for these Upward Bound 
students (65 percent) hides the reality that only 34 percent of the 
neediest students served by Upward Bound enroll in college. Although 
the program could have a significant impact if it served more students 
who truly need help, we do not have evidence to show that our efforts 
to target more of the neediest students have been successful.
    Similarly, we do not have evidence to demonstrate that GEAR UP and 
Talent Search increase college enrollment rates, even though both 
programs appear to have some positive effects. Data for GEAR UP and 
Talent Search show that both programs are meeting their short-term 
performance goals, evaluation findings for GEAR UP suggest that it has 
positive effects on middle school course-taking behavior and student 
and parent knowledge of postsecondary education.

                  HIGH SCHOOL INTERVENTION INITIATIVE

    The new High School Intervention initiative would provide a more 
coordinated approach at the State level to ensure that the types of 
services currently provided under programs like GEAR UP, Talent Search, 
and Upward Bound are part of a broader effort to provide students with 
the full range of services they need in order to succeed. The 
initiative's emphasis on supporting scientifically based research would 
help ensure that resources are focused on those activities that are 
shown to have the most positive effects.
                                 ______
                                 
               Questions Submitted by Senator Mike DeWine

                   SAFE DRUG-FREE SCHOOL COMMUNITIES

    Question. The recommendation in the President's fiscal year 2006 
budget request to ``zero out'' the State Grants portion of the Safe and 
Drug-Free Schools and Communities program will leave most of America's 
schools and K-12 students with absolutely no substance abuse prevention 
and intervention services. With drug use finally on the decline, isn't 
this the wrong time to get rid of the prevention program that provides 
America's school aged youth with drug prevention programming?
    Answer. The Administration proposes to terminate funding for Safe 
and Drug-Free Schools and Communities (SDFSC) State Grants because of 
the program's inability to demonstrate effectiveness and the fact that 
funds are spread too thinly to support quality interventions. For 
example, SDFSC State Grants provides about 60 percent of local 
educational agencies (LEAs) with allocations of less than $10,000, 
amounts typically too small to mount comprehensive and effective drug 
prevention and school safety programs.
    By comparison, under SDFSC National Programs the Department has 
greater flexibility to provide large enough awards to support quality 
interventions. In addition, the National Programs authority is 
structured to permit grantees and independent evaluators to measure 
progress, hold projects accountable, and determine which outcomes are 
most effective. We are requesting $317. 3 million for SDFSC National 
Programs, an $82.7 million or 35 percent, increase over 2005.

 SAFE DRUG-FREE SCHOOL COMMUNITIES--UNIFORM MANAGEMENT INFORMATION AND 
                            REPORTING SYSTEM

    Question. To date, the Department has failed to implement the 
requirements in H.R. 1 (No Child Left Behind Act) for a Uniform 
Management Information and Reporting System (UMIRS) under the State 
Grants portion of the Safe and Drug Free Schools and Communities 
program. This system was intended to collect uniform data and outcome 
measures for drug use and violence across all States. The poor PART 
score this program received is largely due to the failure of the 
Department to collect this required information and is one of the 
reasons being given for the zeroing out of the program. What do you 
intend to do to comply with the requirements of H.R. 1 as far as 
implementation of the UMIRS?
    Answer. We have issued non-regulatory guidance to States concerning 
implementation of the Uniform Management Information Reporting System 
(UMIRS) requirements contained in Section 4113 of the Elementary and 
Secondary Education Act (ESEA) as reauthorized by the No Child Left 
Behind Act of 2001 (NCLB). Consistent with NCLB's emphasis on 
flexibility and discussions with House and Senate staff during 
reauthorization, the guidance reiterates the data elements that must be 
included in the UMIRS, as well as the kinds of data sources that must 
included as part of the system. It also addresses the issue of which 
entity within a State is responsible for implementation of the UMIRS, 
and covers questions about funding for the system, and periodicity of 
data collection.
    We should also clarify that lack of progress on implementation of 
UMIRS was not a major factor in the ineffective PART rating received by 
the program. Safe and Drug-Free Schools and Communities State Grants 
received this rating because the program is not well designed to 
accomplish its objectives and because it cannot demonstrate results, 
among other factors. UMIRS was not really an issue.

       TITLE IV INFORMATION COLLECTION AND REPORTING REQUIREMENTS

    Question. The Department of Education has neglected to implement 
any of the data collection and reporting requirement reforms that 
Congress specifically included in Title IV of H.R. 1, including the 
Uniform Management Information and Reporting System and a minimum data 
set, to be reported on by all States to the Secretary. States and local 
education agencies (LEA's) across the Nation have exercised due 
diligence and are working to document what they think is required by 
Title IV, but have had to do this without any guidance at all from the 
Department. How and when do you intend to rectify this situation, 
especially given that this failure on the Department's part is one of 
the main reasons this program has not been able to ``demonstrate 
results'' and is slated for elimination?
    Answer. We have requested information from States concerning 
implementation of the Safe and Drug-Free Schools and Communities Act 
State Grants programs as part of the Department's Consolidated Report 
for NCLB Programs. As you know, ESEA Section 9303 authorizes the 
creation of the consolidated report and mandates that the report 
collect information on the performance of the States under ``covered 
programs.'' The consolidated report replaces pre-NCLB individual, 
program-specific reports.
    The first consolidated report covering the SDFSCA State Grants 
program was due to the Department in June 2004. The Department 
requested information from the States about the performance measures 
and targets they established for the SDFSCA State Grants program. In 
this initial report, covering school year 2002-2003, States provided 
baseline information for the performance measures that they established 
for the program. In the next consolidated report, scheduled to be 
submitted to the Department in April 2005, States will report data for 
their targets for the 2003-2004 school year.
    In addition to information about performance measures and progress 
toward achieving targets, the Department also asked States to provide 
information about the number of out-of-school suspensions and 
expulsions by school type (elementary, middle/junior high, or high 
school) for alcohol or drug-related offenses, or for fighting or 
weapons possession.

           INFORMATION COLLECTION AND REPORTING REQUIREMENTS

    We are very sensitive to the issue of creating burden related to 
information collection and reporting, and have worked hard to select 
the smallest possible data set that will permit us to assess the extent 
to which States are meeting their established targets to prevent youth 
drug use and violence. We believe that our focus on progress toward 
identified targets and suspension and expulsion data is consistent with 
that goal. While this information cannot provide scientific evidence 
about the effectiveness of the SDFSCA State Grants Program (only 
research studies that include experimental designs are capable of 
demonstrating the effectiveness of an intervention), it does provide an 
important tool for States to use in assessing their progress in 
addressing youth drug use and violence.
    Our experience in administering the SDFSCA State Grants program and 
other NCLB provisions, including the Unsafe School Choice Option (USCO) 
requirements, indicates that States need to focus additional attention 
and resources on improving the quality and consistency of data they 
collect concerning youth drug use and violence, and to take steps to 
improve the way in which such data are used to manage youth drug and 
violence prevention initiatives. Accordingly, in fiscal year 2004, we 
held a competition for Data Management Improvement Grants to help 
States develop, enhance, or expand the capacity of States and LEAs (and 
other State agencies and community-based entities that receive SDFSC 
State grant funds) to collect, analyze, and use data to improve the 
management, and report the outcomes, of drug and violence prevention 
programs. We awarded 11 such grants in fiscal year 2004 and estimate 
making an additional 7 awards in fiscal year 2005. Among other things, 
these grants will assist recipients of SDFSC State grant funds to use 
data to assess needs, establish performance measures, select 
appropriate interventions, and monitor progress toward established 
performance measures.
    As a complement to these grants, we have awarded a contract to help 
support the development of a model data set that includes, at a 
minimum, the UMIRS elements. This technical assistance effort will 
build on the work done by the Department of Health and Human Services 
Office of Substance Abuse Prevention, as well the activities of other 
Federal agencies that either collect youth drug use and violence data 
or use that data in policymaking, including the Centers for Disease 
Control and Prevention, the National Institute on Drug Abuse, the 
National Institute on Alcohol Abuse and Alcoholism, the Office of 
Juvenile Justice and Delinquency Prevention, and the Office of National 
Drug Control Policy. We will be working with these Federal agencies and 
all of the States to develop a model data set that can be adopted by 
States. The initiative also includes technical assistances services for 
the States, as well as activities designed to identify and disseminate 
best practices in this area. We believe that this approach provides the 
appropriate balance between State flexibility and leadership in this 
area.

      TEACHER INCENTIVE FUND--STATE GRANTS AND COMPETITIVE GRANTS

    Question. In the President's Budget there is a proposal for a $500 
million new Teacher Incentive Fund. It would encourage States to adopt 
and implement performance-based compensation systems for teachers. 
Could you describe your idea for this program a bit more; specifically, 
how do you see States determining who deserves ``merit'' pay?
    Answer. The Teacher Incentive Fund would provide formula grants to 
State educational agencies (SEAs) to reward effective teachers and to 
offer incentives for highly qualified teachers to teach in high-need 
schools. In addition, the Department would make competitive grants to 
SEAs, local educational agencies (LEAs), and non-profit organizations 
to design and implement performance-based compensation systems that 
change the way school districts pay teachers. The Department would use 
$450 million for the formula grants and $50 million for the competitive 
grants.
    Under the formula component of the initiative, the Department would 
provide grants to SEAs by a formula. States would use these funds to 
give monetary awards to: (1) teachers who raise student achievement or 
make significant progress in closing the achievement gap among groups 
of students; and (2) highly qualified teachers who agree to teach in 
high-need schools.
    SEAs would develop their own strategies for identifying the 
teachers who have done the best job at raising achievement or narrowing 
achievement gaps, or both, and, thus, qualify for a monetary award. A 
State might give awards directly to individual teachers, or reward all 
of the teachers in a high-performing school, or both. An SEA could also 
choose not to offer monetary awards directly to teachers and, instead, 
make competitive grants to LEAs to provide monetary awards to teachers 
who are raising student achievement or closing the achievement gap. An 
SEA would specify in its application to the Department the procedures 
and criteria it would employ.
    States would have similar flexibility in designing programs to 
attract highly qualified teachers to schools that face the greatest 
challenges in meeting the objectives of No Child Left Behind and then 
rewarding those who take positions in those schools. A State might use 
funds at the State level to create a statewide system providing 
rewards, or higher salary, to those teachers. The Department's 
expectation, however, is that SEAs would use most of the money for 
competitive grants to LEAs that have the best strategies for using the 
funds to recruit qualified teachers to high-need schools. The States 
would describe in their applications the procedures and criteria they 
would use to implement the program, including the State's definition of 
a ``high-need school'' (generally a school with a high poverty rate and 
poor performance on State assessments). All public school teachers who 
receive a monetary award under this activity would be required to meet 
the ``highly qualified teacher'' requirements under the Elementary and 
Secondary Education Act, and the Department would also encourage States 
to include additional criteria to ensure that salary increments go to 
teachers who have demonstrated a high level of performance.

                                 ______
                                 
               Questions Submitted by Senator Tom Harkin

              ADEQUACY OF NCLB FUNDING--STUDIES SUPPORTING

    Question. The Administration has repeatedly claimed that there is 
more than enough money available to States to fully implement the 
requirements of the No Child Left Behind Act. However, many reports and 
studies--including those done by the National Conference of State 
Legislatures, the Ohio Department of Education, and the New Hampshire 
Association of School Administrators--have found that Federal funding 
is falling significantly short of the costs of implementing NCLB and 
providing the remediation efforts to improve student achievement. Can 
you please provide us with specific studies and analyses you have used 
to justify your confidence that the funding provided is fully 
sufficient for States and school districts to meet all the provisions 
of NCLB?
    Answer. No Child Left Behind was met with charges of underfunding 
almost from the moment it was signed by President Bush, despite the 
fact that it was accompanied by a $4.6 billion increase in funding in 
its first year alone. Many of the early so-called studies of the costs 
of the new law have been little more than summaries of authorized 
funding levels, while others were based on assumptions that applied to 
only one or two States, ignoring that fact that implementation costs 
vary greatly according to how far along a given State was in its own 
standards-based reform efforts. Some studies also ignored the fact that 
many of the requirements of No Child Left Behind--such as annual 
assessment, determining adequate yearly progress, and school 
improvement--were not new at all, but expansions or enhancements of the 
previous law.
    What is most striking to me, however, is that 3 years into No Child 
Left Behind, I have yet to see a comprehensive, convincing study or 
report documenting the real costs of the law, even for a single State 
or school district. For example, the National Conference of State 
Legislatures Task Force on No Child Left Behind recognized that (1) 
``the federal government has dramatically increased funding to K-12 
education since passage of No Child Left Behind;'' (2) that while 
``estimates vary widely,'' Federal funding ``covers the costs'' of 
administrative compliance with NCLB; and (3) a key step to meeting NCLB 
proficiency goals involves reallocating current resources, and not just 
increasing the Federal contribution, which is dwarfed by State and 
local spending on education.
    Interestingly, even after a thorough review of existing cost 
studies, the Task Force did not attempt to provide an authoritative 
estimate of its own. Rather, it concluded that because each State's 
experience with NCLB is unique, ``Cost estimates must be made on a 
state-by-state basis.''
    On the basis of what we know now, I think it is reasonable to 
conclude that cost is not, at least not yet, a major obstacle to 
implementing No Child Left Behind. It may well be that in the future 
States and school districts will be able to provide more reliable and 
persuasive data on the costs of moving their students toward NCLB 
proficiency goals. But we have yet to see such data and, in their 
absence, I believe demands for more money are more of a political than 
an educational or analytical exercise.

                        HIGH SCHOOL ASSESSMENTS

    Question. Your proposal to expand NCLB reading and math tests in 
high schools raises the question of what consequences would be imposed 
on schools based on those test results. Currently, under NCLB, 
federally mandated sanctions for failure to make AYP apply only to 
schools that receive Title I funds. Since less than 10 percent of high 
schools get Title I funds, are you proposing to expand the scope of 
Federal consequences for failure to make AYP to all high schools, 
regardless of whether they get Title I funding?
    Answer. No, we are not proposing to expand the current school 
improvement requirements to non-Title I high schools. As is the case 
under current law, only high schools receiving Title I funds would be 
subject to improvement requirements, including the provision of public 
school choice and supplemental educational services, if they do not 
make adequate yearly progress.
    The expanded assessments would provide a uniform, objective 
mechanism for measuring student achievement and for holding high 
schools accountable under the President's High School Intervention 
initiative. They would also offer information about individual student 
progress and help educators make informed decisions for helping 
students advance through high school.

                ASSISTIVE TECHNOLOGY STATE GRANT PROGRAM

    Question. Last October, President Bush signed Public Law 108-364, 
the Assistive Technology Act. I was the lead co-sponsor in the Senate. 
This legislation supports services that ensure that people with 
disabilities will have access to the assistive technology they need--
technology that makes independent living possible in many cases. This 
legislation was one of few bipartisan successes we had last year, being 
unanimously endorsed by Republicans and Democrats alike in both the 
House and the Senate. Yet less than 5 months after the President signed 
the new law, his budget zeroes it out. The reason given in the budget 
is that ``the Department has been unable to identify and document any 
significant benefits.'' It is my understanding that the Department has 
collected data from every State funded under this law, yet not once in 
15 years issued the statutorily required report to Congress that would 
document the impact of these programs. It seems to me like you are 
punishing people with disabilities who get services from these programs 
because the Department has failed to do its job. How would you respond?
    Answer. The President signed the reauthorization of the AT Act 
because its goal is consistent with the goals of the New Freedom 
Initiative, that is, to promote the full participation of people with 
disabilities in all areas of society by expanding education and 
employment opportunities, promoting increased access into daily 
community life, and increasing access to assistive and universally 
designed technologies. The kinds of activities authorized by the bill, 
particularly the Alternative Financing Program (AFP), have the 
potential of enabling individuals with disabilities to have more 
control over their lives and greater participation in schools, work 
environments, and communities, through increased access to assistive 
technology. State interest in the AFP is very high; during the last 
competition we awarded $35.8 million, but received requests for $42.3 
million. In fiscal year 2005, the Department received just over $4 
million for the AFP and our fiscal year 2006 budget request includes 
$15 million.
    The design of the AT State grant program, however, is not ideal 
because it mandates four specific activities that States must carry 
out. States are unable to focus their efforts on those activities most 
needed to increase consumer access to, and ownership of, assistive 
technology within their State. Further, the new State formula grant 
program permits States to spend up to 40 percent on activities that 
have not been shown to have direct benefits to individuals with 
disabilities. Therefore, we targeted our 2006 request to funding for 
the AFP rather than the new AT State grant program.
    The Department recently sent the required annual report to Congress 
for the AT State grant program. This report, dated February 2005, 
provides a compilation of data for fiscal years 2001, 2002, and 2003 
that States provided to NIDRR using a web-based data collection 
instrument. Among other things, the report contains data required by 
the AT Act on such activities as improving interagency coordination 
relating to assistive technology, streamlining access to funding for 
assistive technology, and producing beneficial outcomes for users of 
assistive technology. In fiscal year 2001, the first year in which 
States reported data using this web-based system, NIDRR received data 
from 51 of the 56 grantees, but all 56 States reported for fiscal years 
2002 and 2003. This report is also available at http://www.ed.gov/
about/offices/list/osers.

           EVIDENCE ON THE EFFECTIVENESS OF THE REGIONAL LABS

    Question. The enactment of two pieces of legislation, the No Child 
Left Behind Act (NCLB) and the Education Sciences Reform Act, have 
brought scientifically based research, development, dissemination, and 
technical assistance to the forefront of K-12 education. Yet for the 
last 3 years, President Bush has eliminated funding for the important 
research conducted by regional education laboratories in his budget 
request. The Administration has indicated in justification documents 
that the labs ``have not consistently provided high quality research 
and development products or evidence-based training and technical 
assistance.'' Can you cite specific evaluations studies that support 
this justification?
    Answer. Our budget request is based on the fact that we do not have 
comprehensive, rigorous evaluations of the products and services 
developed by the regional educational laboratories to warrant further 
investment beyond the more than $1.5 billion in Federal funds the 
program has received since 1966. The most recent Federal evaluation of 
the program was conducted in 1998 by Decision Information Resources, 
Inc. Panels of peer reviewers assessed the performance of each 
laboratory in meeting the duties outlined in their contract, and 
provided information to guide program improvement for the remainder of 
the contract period. Although it provided useful feedback on the 
strengths and weaknesses of each laboratory, the findings could not be 
generalized across laboratories and did not provide an assessment of 
the performance of the program as a whole.
    In June 1993, Maris Vinovskis, an outside analyst brought in by 
Diane Ravitch, then Assistant Secretary for Education Research and 
Improvement, examined the quality of research and development at 5 
regional educational laboratories, 4 of which are part of the 10 
current regional education laboratories. Dr. Vinovskis, currently a 
professor at the Department of History and Institute for Social 
Research at the University of Michigan, focused on many of the issues 
of concern to education research generally. He found that much of the 
applied research conducted by the laboratories was based solely upon 
case studies, limiting the applicability of the findings to school 
settings generally. Although Dr. Vinovskis praised some of the work 
conducted by the laboratories, particularly that of the Far West Lab, 
now WestED, he questioned both the underlying methodology and the 
practical implications of many of the other laboratory products for 
classroom use.
    Since its creation in 2002, the Institute of Education Sciences has 
addressed the issues Dr. Vinovskis raised over a decade ago by 
significantly expanding its support of applied research that uses 
rigorous scientifically based methods to find solutions to the problems 
faced by educators and policymakers. As we stated in our budget 
request, achieving the Department's strategic goal of transforming 
education into an evidence based field will require not only more and 
better research but also new and better ways to use research-based 
knowledge and translate research to practice. To reach this goal, the 
Administration is improving the way we foster knowledge utilization by 
establishing the What Works Clearinghouse, revamping the Education 
Resources Information Center, and significantly expanding the capacity 
of the Comprehensive Centers to provide technical assistance that helps 
schools apply research findings in classrooms. We believe these 
investments are more tailored to the needs of States, districts, and 
schools than the regional educational laboratories.

                         COMPREHENSIVE CENTERS

    Question. I am pleased that the Department has requested funds for 
new comprehensive centers, which will work with States and districts in 
helping schools implement No Child Left Behind. A new Request for 
Proposals for the Comprehensive Centers will be released this summer. 
The statute calls for a center in each of the 10 designated regions and 
at least 10 additional centers to be structured on a variety of 
criteria. Can you tell us what your plans are for structuring the 
second ten centers; will they be based on population or topic, or a 
combination thereof?
    Answer. The statute calls for a total of not less than 20 new 
Comprehensive Centers, while requiring that the Department establish at 
least one center in each of the 10 geographic regions served by the 
regional educational laboratories. The locations of the other centers 
will be determined through the competition, which will take into 
consideration elements identified in the law, including the number of 
school-aged children, the proportion of disadvantaged students in the 
various regions, the increased cost burdens of service delivery in 
sparsely populated areas, and the number of schools identified for 
improvement under Title I.
    The centers other than the required 10 will likely be a combination 
of additional regional centers in high-need jurisdictions and a few 
``content'' centers with responsibilities across States and across 
Centers in major priority areas related to NCLB implementation. The 
Department has not yet made final decisions on this issue.

                REGIONAL ADVISORY COMMITTEE ASSESSMENTS

    Question. Specifically, how will the needs assessments conducted by 
the Regional Advisory Committee process factor into your plans for 
these new Centers?
    Answer. In designing the competition for awards to the new 
Comprehensive Centers, the Department is required to consider the 
findings of 10 Regional Advisory Committees (RACs), convened to assess 
regional needs for technical assistance to support high-quality 
implementation of No Child Left Behind. The Department established the 
RACs in November 2004 and expects to receive written reports from each 
committee by the end of March 2005.
    The Department will consider the RAC assessments in drafting the 
request for proposals establishing priorities for the new centers, 
which the Department expects to publish in May. Also, the written 
reports from the RAC needs assessments will be available on the 
Department's web page so that applicants can use them to as a resource 
in designing their proposals for new Comprehensive Centers.

                      ADULT EDUCATION STATE GRANTS

    Question. The President's proposed budget calls for large cuts in 
the Adult Basic and Literacy Education program because it did not 
demonstrate results under the Program Assessment Rating Tool (PART). 
The Department says the program shows modest impacts on adult literacy 
and skill attainment but data quality problems and the lack of a 
national evaluation made it difficult to assess the program's 
effectiveness. How does that assessment justify a 75 percent cut in 
funding?
    Answer. We have requested a reduction in the Adult Education 
program due to severe budget constraints that the Federal Government 
now faces and in order to direct funds to a new initiative to 
strengthen high schools. In addition, the PART review of the program 
shows that the program does not demonstrate strong program performance 
outcomes. Currently, the program has failed for three consecutive years 
to reach performance targets measuring skill attainment of both Adult 
Basic Education and English as a Second Language students.

                        ADULT EDUCATION RESEARCH

    Question. Wouldn't it instead point first toward gathering better 
data and calling for a national evaluation through WIA reauthorization?
    Answer. Due to the diversity in age, skill level, learning 
disability status, and level of English proficiency of the adult 
education student body, a national evaluation would be extremely cost-
intensive and would not likely produce results that could be 
generalized across States or localities. Adult Education providers also 
vary considerably and include community-based organizations, local 
educational agencies, correctional facilities, community colleges, and 
other entities. However, the Department actively conducts research 
targeting specific areas of instruction, curriculum, data collection, 
and program characteristics. For instance, we use Adult Education 
national leadership funding to address such issues as explicit literacy 
instruction for adult English as a Second Language participants and the 
use of technology to support adult education programs.

                 ENHANCED ASSESSMENT INSTRUMENTS GRANTS

    Question. Madame Secretary, as we discussed at the hearing, the 
Senate included report language urging the Department, when awarding 
enhanced assessments grants, to give special attention to the needs of 
students with disabilities and students with limited English 
proficiency. Do you plan to specify this priority in the request for 
proposals for this grant application?
    Answer. Yes. We have revised the notice inviting applications to 
give competitive priority to projects that will address the use of 
accommodations or alternate assessments in assessing limited English 
proficient students and students with disabilities.
                                 ______
                                 
            Questions Submitted by Senator Daniel K. Inouye

                       NATIVE HAWAIIAN EDUCATION

    Question. On the subject of Native Hawaiian Education, there were 
reports that the Native Hawaiian Education Council was not getting 
information from the Department of Education. Is your department now 
working with the Native Hawaiian Education Council and providing them 
with information?
    Answer. The Department has been working to improve communications 
with the Council. Department officials met with a number of Council 
members on February 15, 2005 to discuss ways to improve communication 
between the Council and the Department. The meeting also addressed ways 
to improve the Council's effectiveness and its technical assistance 
activities. We will continue to communicate with the Council and assist 
its members in fulfilling their duties.

                            CHARTER SCHOOLS

    Question. Charter schools are an important addition to Hawaii's 
education system. How do you feel about charter schools, and are there 
additional funding opportunities for charter schools?
    Answer. Charter schools are an important reform, and a key element 
of the Administration's efforts to expand school choice for students 
and parents. This is reflected in the strong support for charter school 
programs contained in the 2006 budget request. This request would 
support planning, development, and initial implementation activities 
for approximately 1,200 charter schools, as well as enhanced 
dissemination activities by schools with a demonstrated history of 
success. Further, a portion of the funds are available to States for 
subgrants to assist charter schools with their facilities financing. 
This program component, the Charter Schools Per-Pupil Facilities Aid 
program, complements an additional source of funding for charter 
schools, the Credit Enhancement for Charter School Facilities, which 
provides assistance to help charter schools meet their facility needs. 
Additionally, many charter schools are eligible for Federal funds under 
both discretionary and formula grant programs, such as the Teaching 
American History and Rural Education Achievement programs.

         PERKINS VOCATIONAL EDUCATION AND PERKINS LOAN PROGRAMS

    Question. In the President's budget he plans to cut Perkins 
vocational education and loan programs. Is there some alternative 
proposal for these programs?
    Answer. The President's fiscal year 2006 budget does not request 
funding for Vocational Education programs because those programs have 
not demonstrated effectiveness and in order to direct funds to a new 
initiative to strengthen high schools. The President believes that a 
targeted initiative will be more effective than current programs in 
meeting the major need for reform and improvement of American high 
school education. The new program would give States and districts more 
flexibility in designing and implementing services and activities to 
improve high school education and raise achievement, particularly the 
achievement of students most at risk of failure. States and school 
districts would be able to use funds for vocational education, tech-
prep programs, and other purposes, depending on State and local needs 
and priorities. The Department would use part of the money to conduct 
carefully designed research in order to identify the most effective 
strategies for raising high school achievement and eliminating 
achievement gaps.
    The President's budget requests $1.24 billion for the new high 
school intervention program and $250 million to ensure that students 
are assessed in reading/language arts and mathematics at least three 
times during high school. The 2006 budget also includes more than $400 
million for related programs to strengthen high school achievement, 
including $200 million to expand the use of research-based 
interventions for secondary school students who read below grade level 
and thus are at greater risk for dropping out of school, $120 million 
to accelerate the mathematics achievement of secondary school students 
through research-based professional development for math teachers, $52 
million to increase the availability of Advanced Placement and 
International Baccalaureate programs in high-poverty schools, $12 
million to encourage students to take more rigorous courses through the 
State Scholars program, and $33 million in enhanced Pell Grants for 
State Scholars as they pursue higher education.
    The budget request also includes a $125 million Community College 
Access grants initiative, which would support expansion of ``dual-
enrollment'' programs under which high school students take 
postsecondary courses and receive both secondary and postsecondary 
credit. It would also help ensure that students completing such courses 
can continue and succeed in 4-year colleges and universities.

                     FUTURE OF VOCATIONAL EDUCATION

    Question. In your opinion what is the future for vocational 
education?
    Answer. Vocational education is predominantly funded with State and 
local dollars and will continue without a Federal categorical aid 
program. Secondary vocational education will thrive if the field 
responds promptly and aggressively to demands from the business 
community and postsecondary education that it provide students with a 
more rigorous academic education, particularly in mathematics and 
science. All of our youth, regardless of their post-graduation plans, 
need a rigorous academic foundation. As the American Diploma Project 
documented in its research, ``[s]uccessful preparation for both 
postsecondary education and employment requires learning the same 
rigorous English and mathematics content and skills. No longer do 
students planning to go to work after high school need a different and 
less rigorous curriculum than those planning to go to college.'' If the 
field fails to respond to this new imperative, policy-makers, business 
leaders, postsecondary educators, and parents and students will 
increasingly question the value and relevance of secondary vocational 
education.
    Question. Will it become part of the President's Higher Education 
Act?
    Answer. Eligible recipients of grants, loans, and college work-
study assistance under HEA student aid programs have long been eligible 
to use that assistance to pursue vocational degrees and certificates. 
The President's proposals for HEA reauthorization would allow that type 
of assistance to continue.

                                 ______
                                 
                Questions Submitted by Senator Herb Kohl

                    FUNDING FOR NO CHILD LEFT BEHIND

    Question. I supported No Child Left Behind because it guaranteed 
that flexibility and accountability would come with more Federal 
funding to make it work. Instead, funding levels have fallen billions 
short of what was authorized. These cuts cause real hardship. To make 
ends meet, schools are being forced to cut staff and important programs 
like summer school, class size reduction, arts and foreign languages.
    Last year, Secretary Paige suggested that funding has no connection 
to student achievement. He seemed to believe that schools receive 
plenty of money to meet these requirements--even though 
superintendents, school boards, state legislatures and teachers 
consistently say otherwise. If we want this law to work--a goal which 
most of us share--don't you think it's time that the Administration 
become more responsive to these funding concerns; isn't it time to 
provide the funding that was authorized?
    Answer. As I stated earlier in response to a question from Senator 
Harkin, I believe there is little evidence for the claim that lack of 
funding is the central obstacle to effective implementation of No Child 
Left Behind. With national spending on elementary and secondary 
education roughly doubling over the past decade, from about $260 
billion to more than $500 billion, it's hard to make the case that 
we're not spending enough on education. I realize that circumstances 
vary from State to State and district to district, and that many areas 
are dealing with tight budgets, but from a national perspective, as I 
said, I don't think funding is the primary problem.
    On the issue of authorization levels, the Members of this 
Subcommittee know as well as I do that these are just targets--wish-
lists, really--established by the authorizing committees when they pass 
new legislation. They rarely are accompanied by any careful analysis of 
what it actually costs to make a program work as intended, and the 
situation is the same with No Child Left Behind. And in the absence of 
any reliable data on the actual or prospective costs of No Child Left 
Behind, merely pointing to authorization levels is not a very 
persuasive argument for higher funding levels, particularly at a time 
of fiscal constraint at the Federal level.
    The Administration, just like the Appropriations Committees, has 
had to make hard-nosed judgments about how much we can afford for NCLB 
and other programs in light of tight fiscal constraints. Last year, for 
example, the Administration asked for substantially more funding for 
both Title I and IDEA--the two programs most frequently identified by 
critics as being underfunded--than the appropriators provided in their 
final 2005 appropriations act.

                     SPECIAL EDUCATION FULL FUNDING

    Question. Many of us here have worked hard every year to increase 
funding for Special Education. Year after year, school districts in 
Wisconsin tell me that this is one of their top concerns. They think 
it's wrong that the Federal Government continues to ignore its 
commitment to pay 40 percent of the costs as authorized in the original 
IDEA law. Just last December, the President signed the IDEA 
Reauthorization into law with an authorized funding level of $12.4 
billion for 2005. Just days later, he signed the Omnibus Appropriations 
bill which only provided $10.6 billion. This year, the President's 
budget only proposes $11.1 billion for fiscal year 2006--still $3.5 
billion short of what is authorized for 2006. This trend begs the 
question: does the Administration plan to fully fund IDEA and do you 
have a plan to get there?
    Answer. The Administration is committed to assisting States and 
school districts with meeting the costs of special education. This 
President has requested record-level increases for special education 
since he entered office.
    The 2006 President's budget request for $11.1 billion includes an 
increase of $508 million over the 2005 level. It would maintain the 
Federal contribution at its highest level--19 percent of the national 
average per pupil expenditure. If enacted, the request would result in 
an increase of $4.8 billion or 75 percent since 2001.
    The President has opposed mandatory full funding for special 
education because of the importance of taking into account competing 
budget priorities during the formulation of the budget each year. In 
the current fiscal environment, there are limited resources for Federal 
discretionary programs not related to national defense or homeland 
security. In this environment, the 4.8 percent increase requested for 
the Special Education Grants to States program is significant.

                                 E-RATE

    Question. E-rate is a vital program that provides classrooms with 
the technology they need to enhance teaching and learning. E-rate 
grants give students more opportunities to develop the skills they need 
to compete in the 21st Century. This past year, Wisconsin received over 
$24 million from this program. However, as you know, e-rate grants were 
in jeopardy last year because of new rulings related to the Anti-
deficiency Act. Congress was able to fix the problem last year and e-
rate grants have resumed. But that was just a one-year fix and we need 
to pass legislation to fix it permanently in order to fully cover all 
pending applications for E-rate. I look forward to working with my 
colleagues in the Senate to meet this goal. Can we count on your 
support for the E-rate program?
    Answer. I understand that the Administration has not yet taken a 
policy position on legislative initiatives regarding the E-rate. That 
said, the financial management responsibilities required by the 
Antideficiency Act are designed to protect taxpayers and beneficiaries 
of U.S. Government programs by ensuring that spending agreements do not 
exceed available resources. The PART review by OMB and recent reports 
from GAO have identified fiscal and managerial problems with the 
program. The FCC has taken some steps to address these problems, 
including collaborating with our Department on more accurate 
measurement of E-rate effectiveness.

                          READING FIRST GRANTS

    Question. I supported No Child Left Behind because I believed in 
the combination of more funding, more flexibility, and more 
accountability for results. However, many believe that the flexibility 
piece has not lived up to its promise and that certain No Child Left 
Behind regulations are overly proscriptive. One example that has been 
brought to my attention is the Reading First grant program. Last 
October, the Madison School District decided to pass on an additional 
$2 million in Reading First grants because new Federal guidelines would 
have required a substantial change in a curriculum that had already 
been successful with 80 percent of students. Can you explain why 
schools with successful programs are being forced to change in order to 
qualify for Federal funds?
    Answer. One of the advantages of the Reading First program is that 
local education agencies (LEAs) retain considerable flexibility in the 
selection of a reading program. Schools are permitted to implement the 
core reading curriculum of their choosing, so long as it addresses the 
five critical factors, identified by the 2000 Report of the National 
Reading Panel, upon which the Reading First program is based: phonemic 
awareness, phonics, vocabulary, fluency, and comprehension. Although 
the reading program used by Madison Metropolitan Public Schools (MMPS) 
proved successful with many of its students, the Wisconsin 
Superintendent of Public Instruction awarded a Reading First subgrant 
due to a gap of 2 to 4 years in reading levels between third graders in 
five elementary schools.
    A Federal review of the MMSD curriculum, undertaken as a part of 
Reading First monitoring for the 2004-2005 school year, revealed that 
the MMSD program failed to address all of the required elements of a 
scientifically based reading program. The district worked with 
technical assistance providers to address these gaps through the 
addition of supplementary materials, lesson plans, and exercises but 
ultimately decided to continue its own reading curriculum.
    Question. Why were new Federal guidelines issued?
    Answer. The Department issued non-regulatory guidance for the 
Reading First program in April 2002. States and local educational 
agencies have used this guidance as a resource to guide successful 
implementation of Reading First. We have not issued any additional 
guidance since that time.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray

                          D.C. VOUCHER PROGRAM

    Question. Secretary Spellings you are more than aware of the tight 
budget this country is facing. Education is facing a cut for the first 
time in decade. The President has proposed elimination of 48 programs 
including some very popular programs. I understand that the 
determination for which programs were eliminated comes from the 
evaluations of the Program Assessment Rating Tool (PART) administered 
by OMB. And that evaluation includes which programs are ineffective so 
that funds can be redirected to effective programs. As an appropriator, 
I agree that the government should only be funding programs that are 
effective and serving their intended purpose.
    However the President has continued to fund in his budget a program 
that is not serving its intended purpose--the D.C. voucher program. As 
I understand it, only about 75 students out of roughly 1,350 students 
receiving vouchers come from schools labeled in need of improvement--
the highest priority of students in the original legislation. That is 
less than 6 percent of the participating students. Further, over 200 
students receiving vouchers were already attending private schools. 
According to the Washington Post, this number includes a student who is 
an 8th grader at Sidwell-Friends who had been attending the school 
since 5th grade. Clearly those students are just being subsidized by 
taxpayers, not being provided increased ``choice'' as proponents would 
argue.
    In such tight budget times, how can you justify continuing a 
program that is clearly not serving the intended population?
    Answer. On the contrary, I believe that the program is serving the 
students who Congress intended it to serve and that, as the program 
matures, it will be even more successful in providing educational 
opportunities to low-income students attending schools identified for 
improvement.
    All of the students receiving scholarships this year met the 
statutory eligibility requirements; they are from families with incomes 
of less than 185 percent of the poverty level, or roughly $35,000 for a 
family of four [correct?] Raising a family on that income is certainly 
not an easy task. While some of these families were already paying 
private school tuition, you can imagine the kinds of sacrifices they 
were making to provide their children with that opportunity. While we 
believed it was appropriate to limit the number of scholarships going 
to students already attending private schools, and we did so, we also 
did not feel that it would be fair to penalize families who had been 
making such a sacrifice.
    The Department also faithfully implemented the requirement to give 
priority to students enrolled in D.C. public schools identified for 
improvement under No Child Left Behind. However, only 15 schools were 
in NCLB ``needs improvement'' status last year, and seven of the 
schools, enrolling the great majority of those students, were high 
schools. D.C. private high schools had only a small number of slots 
they could make available to scholarship recipients during the first 
year of the program, in part because Congress was very late in passing 
the fiscal year 2004 appropriations act and, thus, the program was slow 
in getting underway. (Most D.C. private high schools accept 
applications and make enrollment decisions in the fall and early 
winter. Because of the late Congressional appropriations process and 
then the time needed to select an organization to administer the 
program and then select scholarship recipients, the program could not 
link recipients with schools until late spring.
    Further, the great majority of students who applied for 
scholarships were in elementary and middle schools, in part because 
there are just more students in those grades and in part because upper-
grade high school students who are nearing the end of their high school 
careers are typically less interested in changing schools. For these 
reasons, the number of students receiving scholarships who came from 
schools in need of improvement was, I think, understandable given the 
circumstances.
    I am very confident that the number of students from those schools 
who participate in the program will rise very significantly during the 
next school year. For one thing, a total of 68 D.C. schools have now 
been identified for improvement, including many elementary schools. 
Secondly, our grantee, the Washington Scholarship Fund, has more time 
this year to recruit students from those schools and to recruit private 
schools to accept those students.
    Further, of the 15 schools identified for improvement last year, 
seven were high schools. High-school students are less likely than 
elementary- and middle-school students to want to change schools. In 
addition, because of the late passage of the appropriations bills and 
the need to select competitively a grantee to administer the program, 
it was not until March 2004 that the Washington Scholarship Foundation 
(WSF) was selected to operate the program and begin to solicit 
applications from parents on behalf of students. This is well past the 
time when many of the area's private high schools require students to 
apply for the following school year. As a result, few private high 
schools had places remaining for D.C. Choice participants.
    I feel confident that, with more time for the WSF to publicize the 
program and to assist parents in completing applications and more 
schools (particularly elementary schools) identified for improvement, 
the program will be even more successful in providing low-income 
parents of students who attend low-performing schools with expanded 
options for their children's education.

                     D.C. VOUCHER PROGRAM EVALUATON

    Question. What evaluations has OMB done on the D.C. voucher 
programs and can you make that information available?
    Answer. The D.C. Choice initiative has not been reviewed using the 
PART instrument. The program is in its first year of operation so it is 
too early to determine its effectiveness or undergo a PART review. 
However, the Department has moved ahead with the required evaluation of 
the program.
    Question. Part of the law also says that you must do evaluations of 
the students receiving the vouchers as compared to students in D.C. 
public schools and compared to students who applied for and did not 
receive vouchers. What is the status of the evaluations required in the 
original statute?
    Answer. The evaluation of the D.C. Opportunity Scholarship Program 
has been underway since spring 2004, when the Department's Institute of 
Education Sciences awarded a contract to a team of researchers from 
Westat, Georgetown University, and Chesapeake Associates. The 
evaluators collected information on program applicants in spring 2004, 
conducted lotteries to fairly allocate scholarships and placements at 
the grade levels and schools where there were more applicants than 
space available, and drafted a report examining the extent and 
characteristics of student and school participants in the program's 
first year. In the next few months the evaluators will be collecting 
data on academic achievement, on other student outcomes, and on parent 
satisfaction for the first group of applicants. The evaluators will, at 
the same time, be collecting applicant information, conducting 
lotteries, and beginning a descriptive analysis of the spring 2005 
applicants.
    Question. When can Congress expect to see the results of the 
analysis?
    Answer. The evaluators are finalizing their first year report and 
it should be available to Congress this spring. While the focus of the 
evaluation is on examining the effectiveness of the D.C. Opportunity 
Scholarship Program, no impact information is available at this point 
because the initial group of program participants--those who applied in 
spring 2004 to receive scholarships for the 2004-2005 school year--have 
only recently matriculated at their new schools. Instead, this report 
examines the extent of student and school interest in the program and 
the characteristics of those participating. The report provides an 
important foundation for the later examination of program impacts.

                 HIGH SCHOOL INTERVENTION/PREPAREDNESS

    Question. Secretary Spellings, as you and I have discussed before, 
I have always seen the Department of Education as a resource for 
schools, other education agencies, parents, and students. However, in 
the administration of this program, I understand that the Department 
sent an email to the Washington Scholarship Fund asking them to alter 
one of their Frequently Asked Questions on whether or not a school 
affiliated with the voucher program can still apply its own admissions 
standards. The following email was sent to WSF from the Department: 
``the House Ed Committee has been reluctant to put this answer in 
writing. Many members (of Congress) are unaware that the schools can 
pick the students . . . I am not sure how to fix the answer but if this 
document is made public, it may damage their vote count.'' Clearly the 
Department was concerned that the reality that vouchers provide choices 
to schools not students and their families would become better known.
    How does providing incomplete information to families on the 
program increase a parent's ``choice'' about where their child can 
attend school?
    Answer. After Congress enacted the D.C. School Choice Incentive 
program, the Department moved quickly and aggressively to provide 
parents with complete information on the choices that would be 
available to eligible students. We did nothing to prevent parents of 
eligible students from receiving that information.
    The e-mail message included in the recent People for the American 
Way report fails entirely to present a full or balanced picture on the 
actions taken by the Department and its grantee, the Washington 
Scholarship Fund (WSF), during this period. The e-mail concerns the 
language WSF would include in an informational package mailed to 
private schools about participation in the program. Although the 
Department and WSF discussed different options for explaining policies 
regarding schools' admissions criteria, the package that WSF mailed to 
the schools asks the question, ``Can a school apply its own admissions 
criteria?,'' answers ``Yes,'' and then explains how a school may test 
eligible students to determine whether they are admissible and, if so, 
how they should be placed in grades or classes within the school. The 
Department made no attempt to prevent this information from reaching 
both the schools and the parents.

               EFFECTS OF PROPOSED HIGH SCHOOL INITIATIVE

    Question. Secretary Spellings, you and I have previously discussed 
our mutual interest in improving our Nation's high schools and I hope 
we can continue that conversation. As you know, I have my own bill on 
high school reform called the Pathways For All Students to Succeed Act 
that I will be reintroducing this Congress. My bill focuses on reading 
and writing skills, academic counseling including creating graduation 
plans with students and their families, accurate calculations and data 
collection on high school graduation rates, and funding to turn around 
low performing schools using best practices.
    The President's budget eliminates the Perkins program, GEAR UP, and 
part of the TRIO program and effectively creates a block grant and 
would require more testing at the high school level. You and the 
President have said that the idea would be to allow States to determine 
how to spend that block grant--if they determine career and technical 
education to be most needed to fund that, if it's GEAR UP, fund that. 
The problem with that theory is that all of these programs are needed 
along with new ways and investment to improve our high schools.
    Considering that the President is proposing a high school block 
grant to States, how does he think that will improve problems in high 
schools such as high dropout rates amongst poor and minority students 
or a lack of academic preparedness for postsecondary education?
    Answer. It sounds like your bill would support a number of 
potentially useful strategies to improving the performance of our 
secondary schools, and I believe that States and school districts would 
be able to support many of them under the President's High School 
Intervention proposal. Where I would have to disagree is with your 
assertion that ``all of these programs are needed,'' including the grab 
bag of currently authorized programs, to improve our high schools. The 
problem with categorical programs like Perkins, TRIO, and GEAR UP is 
that they only support specific educational strategies, and thus if 
those strategies don't meet the needs of your school or district, those 
programs can't help you. Under the President's more flexible proposal, 
districts and schools choose the best strategy for meeting the 
educational needs of their students, and the High School Intervention 
initiative helps pay for it. This broader flexibility would be 
accompanied by much stronger accountability for results than is found 
in the current programs. We think that's a better way to get the 
results we need in our high schools.

                   DISADVANTAGED HIGH SCHOOL STUDENTS

    Question. One of my constituents, Bill Gates, spoke to the National 
Governor's Association High School Summit. As you know, the Gates 
Foundation is doing critical work with our Nation's high schools. He 
talked about our Nation's high schools as a question of morals and 
values and I couldn't agree more. The Federal role in education has 
traditionally been to ensure that disadvantaged students are receiving 
an equal education but it is exactly those students, poor and minority 
students, who are dropping out at the highest rates. What is the 
Department of Education doing at the high school level to target 
improving education for those students?
    Answer. The President's High School Initiative, including $1.24 
billion for High School Intervention and $250 million for High School 
Assessments, is specifically targeted at the students you describe, 
particularly those students most at risk of dropping out, who tend to 
be poor and minority. In particular, the combination of individual 
education plans based on 8th-grade assessment data and more regular 
assessment throughout high school would help principals and teachers 
focus on the students with the greatest need for assistance.
    In addition, our 2006 budget includes proposals like the expansion 
of the Striving Readers program, which target students who are falling 
behind and at risk of dropping out.

         HIGH SCHOOL INTERVENTION PROGRAM AND STRIVING READERS

    Question. As the public conversation about education focuses on 
high school reform, it's important to recognize that improving the 
literacy skills of our Nation's youth is the key to really improving 
the success of our high schools in preparing students for the 21st 
century. If our Nation's high school students do not have adequate 
literacy skills, they will not be able to graduate prepared for college 
and the workplace no matter what other supports and programs are put in 
place. Such interventions need to take place in 9th grade before 
students drop out or become disengaged in their academic future. The 
President has requested $200 million to expand the Striving Readers 
program to support interventions to improve the skills of struggling 
adolescent readers.
    How does the Administration plan to engage the education policy and 
literacy communities in this initiative to ensure that this money is 
spent efficiently on high-quality interventions that not only help 
struggling adolescent readers, but complement and support real high 
school reform?
    Answer. Department staff have met with several organizations to 
solicit their suggestions on implementing the Striving Readers program. 
For example, staff met with representatives of the National Association 
of School of School Boards of Education and the Alliance for Excellent 
Education, which published the recent Reading Next report on adolescent 
literacy. In addition, the Department has received input from 
developers of adolescent literacy programs. The Department plans future 
outreach efforts in planning and promoting the Striving Readers 
program.

                        HIGH SCHOOL INTERVENTION

    Question. Only one-in-three 18 year olds is even minimally prepared 
for college and the picture is bleaker for poor and minority students. 
High school students--especially those most at risk of dropping out of 
school--need sound advice, strong support and an advocate to ensure 
they are getting all the support and services they need to take 
rigorous courses and have a plan in place for graduation and life after 
high school. Every student must have a clear graduation plan that 
assesses their needs and identifies coursework, additional learning 
opportunities and other supports to make their goals a reality. The 
President's budget includes $1.24 billion for a High School 
Intervention which would require districts to ``ensure that targeted 
high schools develop and implement individual performance plans for 
entering students based on 8th-grade assessment data.'' My bill, the 
PASS Act contains a similar proposal.
    Would this plan be a mandatory activity for recipients, and would 
the money be required to be used not just for identifying needs, but 
providing supports and interventions?
    Answer. Under the Administration's High School Intervention 
proposal, each grantee would be responsible for developing and 
implementing individual performance plans for entering students. 
Schools would use those plans to select interventions and strategies 
with the greatest potential for improving the achievement of their 
students. In addition to developing those plans, districts would use 
the funds to implement specific interventions designed to strengthen 
instruction and improve the academic achievement of students, 
particularly those students at the greatest risk of failing to meet 
challenging State academic standards and dropping out of high school. 
The High School Intervention proposal would provide districts with the 
flexibility to use their funds to meet their specific needs without 
having to apply for several discrete grants.

      SPECIAL ALLOWANCE ON LOANS FUNDED FROM TAX-EXEMPT SECURITIES

    Question. In its fiscal year 2005 budget, the Administration 
proposed eliminating a 9.5 percent guarantee on all new student loans. 
But in this year's budget, the Administration simply says it proposes 
to make the Taxpayer--Teacher Protection Act's provisions permanent. 
But the Taxpayer--Teacher Protection Act still leaves a $100 million a 
year 9.5 percent loan loophole. That remaining loophole allows the 
holders of 9.5 percent loans to ``recycle'' loan payments from students 
and the Government back into new loans that some lenders claim are also 
entitled to a 9.5 percent rate of return.
    Do you support shutting down completely and permanently the 9.5 
percent loan loophole once and for all so that ``no new loans have a 
9.5 percent guaranteed rate of return?''
    Answer. The Taxpayer-Teacher Protection Act prohibits lenders from 
using refunding and transferring to increase student loan volume 
receiving the 9.5 percent guaranteed yield, but allows lenders to 
continue to recycle repayments of existing 9.5 percent loans into new 
9.5 percent loans. Those new restrictions are in effect through 
December 2005; the Administration's proposal would make them permanent.
    In adopting the Taxpayer-Teacher Act, Congress and the 
Administration balanced the needs of current bondholders for a stable 
and predictable revenue stream against the need to minimize unnecessary 
subsidy payments. Existing bonds, used for recycling, are maturing and 
will be retired in the near future.
    Question. Washington State has seen many brave men and women 
deployed to serve in the conflicts in Afghanistan and Iraq over the 
last 3 years. Unfortunately too many have returned as amputees, 
necessitating a difficult and uncertain recovery process. I was very 
disheartened to learn that the Department of Education, through the 
Rehabilitation Services Administration (RSA), has decided not to 
support training grants for students in prosthetics or orthotics. There 
are a very limited number of prosthetics and orthotists across the 
country who can build the artificial limbs and braces that our 
returning war veterans will need to return to a productive lifestyle. 
Less Government support to these students will mean fewer practitioners 
and more difficulty for our newly injured veterans to secure the 
quality devices they so desperately need and deserve.
    Given the significant and growing needs of our returning veterans 
for these prosthetic or orthotic devices, why did the RSA discontinue 
these critically needed training grants?

       REHABILITATION SERVICES ADMINISTRATION'S TRAINING PROGRAM

    Answer. The purpose of the Rehabilitation Services Administration's 
(RSA) Training program is to ensure that skilled personnel are 
available to serve the rehabilitation needs of individuals with 
disabilities assisted through the vocational rehabilitation (VR), 
supported employment, and independent living programs. The Training 
program provides grants for Long-Term Training, In-Service Training, 
Continuing Education, Experimental and Innovative Training, Short-Term 
Training, and Training of Interpreter for individuals who are Deaf and 
Individuals who are Deaf-Blind.
    In fiscal year 2005, the Training program received an appropriation 
of $38.8 million, of which $18.6 million (48 percent) will be directed 
toward the Long-Term Training (LTT) program. Under the LTT program, 
grants (averaging $100,000 annually for 5 years) are competitively 
awarded to institutions of higher education. Seventy-five percent of 
these grant funds must be used for direct scholarship support. RSA may 
support as many as 31 academic fields under the LTT program but, as 
required by the authorizing statute, directs funding toward the 
personnel fields with the greatest training needs and/or personnel 
shortages. As the cost of tuition has increased over time, the impact 
of the support provided has been reduced. Specifically, over the past 
12 years college tuition has more than tripled while level funding (and 
rescissions since 2003) for the Training program have required RSA to 
reduce the number of LTT fields supported.
    Our primary partners for delivery of rehabilitation services to 
people with disabilities are the State VR agencies. They are faced with 
an incredible staffing shortage. A study in progress, being conducted 
by the American Institutes of Research, has reported that it is likely 
that the supply of graduates of rehabilitation counseling programs may 
meet less than half of the number needed to replace retiring counselors 
in State VR agencies.
    To help develop a larger recruiting pool, RSA has focused the LTT 
program on counselor programs. In 1998, RSA funded LTT program grants 
in 17 areas. In 2005, it will fund 11, and may fund fewer in the 
future. RSA is very aware of the need for Prosthetists and Orthotists 
and many other rehabilitation professionals. However, given the 
Training program's level of resources, the reduced buying power of its 
scholarship dollars, and the tremendous demand for counselors in State 
VR agencies, RSA will continue to focus the LTT program on personnel 
fields that directly link to the provision of VR counseling.
    Question. Will the Department of Education reinstitute these 
training grants to support those students studying to be the next 
generation of providers of artificial limbs and braces?
    Answer. As discussed earlier, the tremendous shortage of VR 
counselors that the State agencies face make changes in the number of 
fields supported under the LTT program not feasible. RSA must continue 
to target the grants under the LTT program to the largest professional 
field--VR counselors.

 VOCATIONAL/TECHNICAL EDUCATION--POSTSECONDARY STUDENTS ATTAINMENT AND 
                           COMPLETION TARGETS

    Question. According to Sec. 113(b)(3)(A)(i) of Perkins, the State 
eligible agency, with input from eligible recipients, shall establish 
the level of performance for each of the core indicators, and the State 
eligible agency may express the level in ``a percentage or numerical 
form, so as to be objective, quantifiable, and measurable . . .''
    The Washington State eligible agency, with the support of the State 
community and technical college system, has expressed the State's 
targets for the core indicators for postsecondary student attainment 
and completion as numerical targets (e.g., the number of students 
completing postsecondary career and technical education). The State has 
chosen to express the targets numerically because the State's goal is 
to increase the number of trained workers in order to meet employer 
demand. The Office of Vocational and Adult Education has rejected the 
choice of the State, and refused to accept any target not expressed as 
a percentage.
    Why has the Department of Education ignored the discretion that 
Congress clearly granted State eligible agencies when Washington State 
is fully and demonstrably committed to improving the performance of its 
vocational and technical education programs and to meeting the skill 
needs of State employers?
    Answer. As you indicate, eligible agencies are free under the law 
to express their performance levels in a percentage or numerical form. 
Regardless of how eligible agencies choose to express their performance 
levels, however, the Department has asked each eligible agency, in 
guidance that we issued after providing an opportunity for public 
comment, to define both a numerator (number of individuals achieving an 
outcome) and a denominator (number of individuals seeking to achieve an 
outcome) in submitting their proposed performance levels to us for 
review.
    We cannot fulfill the requirements of the Perkins statute without 
this information. Section 113(b)(3)(A)(i)(II) of Perkins mandates that 
each proposed performance level ``require the State to continually make 
progress toward improving the performance of vocational and technical 
education students.'' We cannot determine whether a State has satisfied 
this requirement if an eligible agency only provides numbers or 
percentages. Though the number of individuals who achieve an outcome 
may increase from year to year, this may not indicate that the 
performance of vocational and technical education students has 
improved. It may instead be the result of an increase in population. 
Similarly, an increase in the percentage of individuals achieving an 
outcome may or may not reflect improvement in the performance of 
vocational and technical education students; changing the definitions 
of the numerator and denominator could also cause it.
    In reaching agreement with eligible agencies on their performance 
levels, the Department also is required by the Perkins Act to consider 
``how the levels of performance involved compare with the State 
adjusted levels of performance established for other States taking into 
account factors including the characteristics of participants when the 
participants entered the program and the services or instruction to be 
provided.'' (See section 113(b)(3)(A)(vi) of the Act). It would be 
inequitable for the Department to consider only the number of 
individuals achieving an outcome in making comparisons across States 
and determining appropriate performance levels. Given the significant 
differences in the sizes of their populations, Rhode Island, Washington 
State, and California, for example, should not be expected to reach 
performance levels that require same numbers of individuals to achieve 
certain outcomes.
    For these reasons, we have given each eligible agency the 
flexibility to express its performance levels however it chooses, but 
asked all agencies to define both a numerator and a denominator in 
their submission of proposed performance levels. We cannot implement 
the law the Congress has enacted without this information.
    Washington is the only State that has expressed periodic misgivings 
about providing all of the information that we have sought from States 
to evaluate their proposed performance levels consistent with the law's 
requirements. However, the Washington State eligible agency, the 
Washington State Workforce Training and Education Coordinating Board, 
has acknowledged recently that it is inappropriate and misleading to 
measure performance, either at the secondary or postsecondary level, 
simply on the basis of the number of students who achieve an outcome. 
In February 2005, the Washington State Workforce Training and Education 
Coordinating Board issued a report on behalf of itself and agencies in 
Florida, Michigan, Montana, Oregon, and Texas that made recommendations 
to States on how best to measure performance in education and training 
programs. Integrated Performance Information for Workforce Development: 
A Blueprint for States recommends that States express performance 
levels as percentages, with clearly defined numerators and 
denominators.

                           IMMIGRANT LITERACY

    Question. According to the Aspen Institute, immigrants supplied 
half of our workforce growth in the 1990s and will account for all of 
our net workforce growth over the next 20 years. More immigrants 
arrived in the 1990s--13 million--than in any other decade in U.S. 
history. Demographers and employers are warning Members of Congress 
about a severe worker shortage in the United States in the next decade. 
They have told me we must increase our investments in these newly 
arriving workers with literacy training and other support services. If 
we do not, we run the very real risk of losing our worldwide economic 
competitiveness.
    The President's proposed budget cuts to Adult Basic and English 
Literacy, coupled with his efforts to reduce funding for workforce 
programs, do just the opposite.
    What steps is the Department of Education taking to provide the 
kinds of resources needed to ensure that the employers and the new 
immigrant workers in Washington State will have ready access to a 
literate and well-trained workforce?
    Answer. The Department agrees that the health and success of our 
workforce require emphasis on English language education, particularly 
in those areas most affected by increased immigration. The Department 
continues to address actively the language and education needs of 
immigrant students, at the elementary and secondary levels as well as 
at the adult level. The request includes level funding at $68.6 million 
for English Literacy and Civics Education (EL/Civics) grants, which 
serve a vital purpose in States with large numbers of non-English-
speaking immigrants. According to the Educational Testing Service 
study, ``A Human Capital Concern: The Literacy Proficiency of U.S. 
Immigrants,'' the average literacy level of immigrants is far below 
that of U.S. adults. The report also found that immigrants with higher 
literacy proficiencies have improved labor market outcomes and were 
less likely to be poor and in need of Government support. This 
population comprises approximately 40 percent of those served by Adult 
Education State grants, including EL/Civics grants. Unlike regular 
Adult Education State grants, which rely upon decennial U.S. Census 
data, EL/Civics grants utilize a formula based on a combination of 10-
year Census averages and recent population data and are, therefore, 
more responsive to fluctuations in immigration patterns.
    According to a 2005 report by the National Clearinghouse for 
English Language Acquisition, 54 percent of LEP students in the United 
States are foreign born. ESEA Title III, Part A authorizes Language 
Acquisition State grants to serve limited English proficient (LEP) and 
immigrant students at the elementary and secondary level. The 
President's fiscal year 2006 budget request for Title III includes $627 
million for that program. In fiscal year 2004, Washington State's 
allocation under Language Acquisition State Grants was $9,607,031, and 
preliminary estimates for 2005 and 2006 indicate that the State will 
receive increases in both years (assuming enactment of the President's 
budget request for 2006). This program is similarly responsive to 
fluctuations in immigrant populations and requires States to reserve at 
least 15 percent of their funding each year to increase grants to 
districts that have experienced a significant increase in the 
percentage or number of recent immigrant students over the preceding 2 
years. Through both the EL/Civics program and the Title III program, 
Washington and other States have numerous options for addressing the 
literacy needs of LEP adults and youth.

                  TEACHER QUALITY ENHANCEMENT PROGRAM

    Question. Funding for Title II of the Higher Education Act--Teacher 
Quality--is the only dedicated source of Federal support to reform and 
strengthen teacher preparation available to higher education 
institutions. Grants awarded under this program enable partnerships 
between Schools of Education, Arts and Sciences Departments at colleges 
and universities and local schools to work together to achieve the 
requirement that all students be taught by highly qualified teachers, 
as mandated by the No Child Left Behind Act.
    Given the well-documented shortages of highly qualified teachers in 
certain disciplines and in rural and hard to serve urban communities, 
why has the Administration eliminated all funding for Title II of HEA 
in their fiscal year 2006 budget proposal to the Congress?
    Answer. The Administration understands that the quality of the 
teacher is one of the most significant determinants of student learning 
and, as such, the Department of Education's budget supports major 
efforts to meet the President's goal of placing a qualified teacher in 
every classroom in America in order to ensure that no child is left 
behind. Spending on programs that are designed to improve teacher 
quality was more than $3 billion in fiscal year 2005 and the 
Administration's budget request increases this amount to more than $3.6 
billion in fiscal year 2006. Included in this request is $500 million 
for a major new initiative designed to improve teacher quality. The 
Teacher Incentive Fund would reward teachers whose students make the 
most achievement gains, provide incentives for teachers to teach in the 
most challenging schools, and encourage States and LEAs to adopt 
performance-based pay plans. These measures will do even more to ensure 
that effective teachers are available to teach our children. Even with 
proposed program eliminations, spending on teacher quality would 
increase substantially in fiscal year 2006 under the Administration's 
budget request.
    In reviewing the portfolio of programs within the Department 
dedicated to achieving the goal of improving teacher quality, the 
Administration concluded that providing additional funds to the Teacher 
Quality Enhancement program would not be the most effective use of 
funds. State and local entities may already use funds they receive 
under a number of other Department programs, including the Improving 
Teacher Quality State Grants program and the Transition to Teaching 
program, to carry out the kinds of activities supported through the 
Teacher Quality Enhancement program.

                 IMPROVING TEACHER QUALITY STATE GRANTS

    For example, the Improving Teacher Quality State Grants program 
focuses on preparing, training, and recruiting high-quality teachers. 
Under that program States may use funds to reform teacher and principal 
certification and licensing requirements, support alternative routes to 
State certification, support teacher and principal recruitment and 
retention initiatives, and initiate innovative strategies to improve 
teacher quality.
    Additionally, under that program States are required to award 
subgrants on a competitive basis to partnerships that are structured 
similarly to the partnerships mandated under the Teacher Quality 
Enhancement program and consisting of at least one institution of 
higher education, one high-need local educational agency, and one other 
entity. Partnerships may receive funds to support new teacher and 
principal recruitment and retention initiatives as well as to support a 
broad range of innovative initiatives to improve teacher quality, 
including signing bonuses and other financial incentives, teacher and 
principal mentoring, reforming tenure systems, merit pay, teacher 
testing, and pay differentiation initiatives.

                     TRANSITION TO TEACHING PROGRAM

    The Transition to Teaching program is also intended to help 
mitigate the shortage of qualified licensed or certified teachers in 
many of our Nation's schools by, among other things, encouraging the 
development and expansion of alternative routes to certification. The 
program provides funds to States, local educational authorities, and 
partnerships to support efforts to recruit, train, and place high-
quality teachers in high need schools and school districts.

                  TEACHER QUALITY ENHANCEMENT PROGRAM

    In light of the serious programmatic deficiencies identified 
through the PART process when the Teacher Quality Enhancement program 
was assessed in 2003, the Administration has concluded that the 
resources previously used to support this program should be shifted to 
higher-priority programs and initiatives that have greater potential to 
be effective in improving teacher quality. The Administration's budget 
request for programs in the Department designed to improve the quality 
of teachers demonstrates its commitment to ensuring that all American 
students have access to the highest quality teachers.

           ELEMENTARY AND SECONDARY SCHOOL COUNSELING PROGRAM

    Question. As part of the No Child Left Behind Act, Congress 
expanded the Elementary and Secondary School Counseling Program (ESSCP) 
to include secondary school activities. However, due to the program's 
statutory funding trigger, secondary schools will not benefit unless 
total funding exceeds $40 million, with the base amount reserved for 
elementary schools. Providing $75 million for the ESSCP will trigger 
the statutory requirement to support secondary school counselors, while 
maintaining funding for elementary school counselors.
    The Elementary and Secondary School Counseling Program is intended 
to provide schools with the necessary resources so that school 
counselors, school psychologists, school social workers, child and 
adolescent psychiatrists, and other qualified psychologists can work 
together to establish a comprehensive counseling program to improve 
academic achievement, provide career/education planning and facilitate 
personal/social development.
    Why did you decide to no longer fund the Elementary and Secondary 
School Counseling Program? It seems contradictory to one of the 
strongest messages from the President's fiscal year 2006 budget 
proposal, i.e., the need for high school reform.
    Answer. The budget request to eliminate funding for the Elementary 
and Secondary School Counseling program is part of an overall budget 
strategy to discontinue programs that duplicate other programs that may 
be carried out with flexible State formula grant funds, or that involve 
activities that are better or more appropriately supported through 
State, local, or private resources. Specifically, the 2006 budget 
proposes termination of 48 programs in order to free up almost $4.3 
billion (based on 2005 levels) for reallocation to higher-priority 
activities within the Department, including high school reform. Under 
the Administration's $1.24 billion High School Intervention initiative, 
school districts will be able to include student counseling services as 
part of comprehensive strategies they adopt to raise high school 
achievement and eliminate gaps in achievement among subgroups of 
students.
    The 2006 President's budget request also reflects the Nation's 
priorities to improve our homeland defenses, strengthen the armed 
forces, and promote economic opportunity. In order to ensure sustained 
economic prosperity, the President believes that it is imperative that 
spending be restrained and that the Nation's budget deficit be cut in 
half by 2009. The 2006 request would put us on track toward achieving 
that goal.

                       SCHOOL COUNSELING SERVICES

    Question. Why would you eliminate the one program that supports the 
school personnel in secondary schools (as well as elementary schools) 
who promote academic achievement, career planning and personal/social 
development which is so desperately needed by high school students?
    Answer. School counseling has, for many decades, been supported 
almost entirely with State and local funds. The very small amount of 
money appropriated for the Elementary and Secondary School Counseling 
program is unlikely to have more than a minimal impact on the 
availability of counseling services nationally. As stated in the answer 
to the previous question, under the Administration's $1.24 billion High 
School Intervention initiative, school districts may include student 
counseling services as part of comprehensive strategies they adopt to 
raise high school achievement and eliminate gaps in achievement among 
subgroups of students.
    In addition, if school districts choose to do so, they may support 
counseling programs with the funds they receive under the State Grants 
for Innovative Programs authority, which allows them to implement 
programs that best meet their needs. Furthermore, the Elementary and 
Secondary Education Act (ESEA) provides school districts with 
additional flexibility to meet their own priorities by consolidating a 
sizable portion of their Federal funds from their allocations under 
certain State formula grant programs and using those funds under any 
other of these authorized programs. A school district that seeks to 
implement a school counseling program in some or all of its schools may 
use funds from those programs to do so.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu

              EDUCATION PROGRAMS PROPOSED FOR BUDGET CUTS

    Question. Can you please provide justification beyond that given in 
the Department of Education fiscal year 2006 Budget Summary for the 
cuts made to the following programs:
Educational Technology State Grants
    Answer. Schools and districts have made great gains in educational 
technology in recent years. In 2003, 93 percent of schools reported 
that they had access to the Internet in instructional rooms; just 2 
years prior, only 77 percent of schools offered this access. While many 
schools continue to have technology-related needs, particularly in 
training teachers to integrate technology into instruction, those needs 
can be met with resources available through other Federal programs. For 
example, activities to support technology-based professional 
development as well as school-based reform efforts that include 
technology are allowable under the State Grants for Innovative Programs 
and the Improving Teacher Quality State Grants program. Also, under the 
State and Local Transferability Act, most LEAs may transfer up to 50 
percent of their formula allocation under certain State formula grant 
programs to their allocations under any of the other authorized 
programs or to Part A of Title I. Therefore, an LEA that wants to 
implement technology programs may do so under the authorities granted 
though the individual programs or may transfer funds from, or to, its 
State Grants for Innovative Programs or Improving Teacher Quality State 
Grants allocation, without having to go through a separate grant 
application process.
Arts in Education
    Answer. The request to eliminate funding for the Arts in Education 
program supports the Administration's policy of increasing resources 
for high-priority programs by eliminating categorical programs that 
have narrow or limited effect. These categorical programs siphon off 
Federal resources that could be used by State and local educational 
agencies to improve the academic performance of all students. However, 
activities in the arts are allowable under larger State formula 
programs such as those mentioned above; by exercising the 
transferability authority, districts may choose to continue successful 
arts programs to fit the unique need of their students.
Safe and Drug-Free Schools and Communities State Grants
    Answer. The Administration proposes to terminate funding for Safe 
and Drug-Free Schools and Communities (SDFSC) State Grants because of 
the program's inability to demonstrate effectiveness and the fact that 
funds are spread too thinly to support quality interventions. For 
example, SDFSC State Grants provides about 60 percent of local 
educational agencies (LEAs) with allocations of less than $10,000, 
amounts typically too small to mount comprehensive and effective drug 
prevention and school safety programs.
    By comparison, under SDFSC National Programs the Department has 
greater flexibility to provide large enough awards to support quality 
interventions. In addition, the National Programs authority is 
structured to permit grantees and independent evaluators to measure 
progress, hold projects accountable, and determine which outcomes are 
most effective. We are requesting $317.3 million for SDFSC National 
Programs, an $82.7 million, or 35 percent, increase over 2005.
Alcohol Abuse Reduction program

    Answer. No funding is requested for the Alcohol Abuse Reduction 
program, because it is duplicative of other Elementary and Secondary 
Education Act (ESEA) programs. Local educational agencies (LEAs) that 
receive Safe Schools/Healthy Students grants or the proposed research-
based grant assistance under SDFSC National Programs may use those 
funds to support similar activities. LEAs may also use their ESEA Title 
V (State Grants for Innovative Programs) funds as well as funds they 
may transfer to ESEA Title V from their ESEA Title II Improving Teacher 
Quality State Grants program) allocation, to support alcohol abuse 
prevention.

Elementary and Secondary School Counseling
    Answer. The budget request to eliminate funding for the Elementary 
and Secondary School Counseling program is part of an overall budget 
strategy to discontinue programs that duplicate other programs that may 
be carried out with flexible State formula grant funds, or that involve 
activities that are better or more appropriately supported through 
State, local, or private resources. Specifically, the 2006 budget 
proposes termination of 48 programs in order to free up almost $4.3 
billion (based on 2005 levels) for reallocation to higher-priority 
activities within the Department.
    The 2006 President's budget request also reflects the Nation's 
priorities to improve our homeland defenses, strengthen the armed 
forces, and promote economic opportunity. In order to ensure sustained 
economic prosperity, the President believes that it is imperative that 
spending be restrained and that the Nation's budget deficit be cut in 
half by 2009. The 2006 request would put us on track toward achieving 
that goal.
    School counseling has, for many decades, been supported almost 
entirely with State and local funds. The very small amount of money 
appropriated for the Elementary and Secondary School Counseling program 
is unlikely to have more than a minimal impact on the availability of 
counseling services nationally. Under the Administration's $1.24 
billion High School Intervention initiative, school districts may 
include student counseling services as part of comprehensive strategies 
they adopt to raise high school achievement and eliminate gaps in 
achievement among subgroups of students.
    In addition, if school districts choose to do so, they may support 
counseling programs with the funds they receive under the State Grants 
for Innovative Programs authority, which allows them to implement 
programs that best meet their needs. Furthermore, the Elementary and 
Secondary Education Act (ESEA) provides school districts with 
additional flexibility to meet their own priorities by consolidating a 
sizable portion of their Federal funds from their allocations under 
certain State formula grant programs and using those funds under any 
other of these authorized programs. A school district that seeks to 
implement a school counseling program in some or all of its schools may 
use funds from those programs to do so.

Carl Perkins Vocational and Technical Education
    Answer. The President's fiscal year 2006 budget does not request 
funding for Vocational Education because of severe budget constraints 
that the Federal Government now faces and to eliminate programs that 
have shown little evidence of effectiveness in order to fund a new 
initiative to strengthen high schools. Despite decades of Federal 
investment, the Vocational Education program has produced little 
evidence of improved academic outcomes for students. The most recent 
National Assessment of Vocational Education found no evidence that high 
school vocational courses contribute to academic achievement or 
postsecondary enrollment, and the ``Program Assessment Rating Tool'' 
(PART) review rated the program as ineffective. On the most recent NAEP 
assessments, less than 10 percent of vocational students scored at or 
above proficiency in mathematics (2000) and only 29 percent scored at 
or above proficiency in reading (1998).
    A 2002 Public Agenda survey showed that 73 percent of employers 
rate the writing skills of recent high school graduates as fair or 
poor, while 63 percent express dissatisfaction with graduates' math 
skills. All high school students need a solid academic preparation, 
whether they plan to enter the world of work immediately after 
graduation or pursue postsecondary education. The High School 
Intervention program proposed in the budget to replace Vocational 
Education would give States and districts more flexibility to improve 
high school education and raise achievement, particularly the 
achievement of students most at risk of failure. States and school 
districts would be able to use funds for vocational education, tech-
prep programs, and other purposes, depending on State and local needs 
and priorities. The Administration believes that a targeted initiative 
will be more effective than current programs in meeting the major need 
for reform and improvement of American high school education.
    The budget also includes a Community College Access grants 
initiative to support expansion of ``dual-enrollment'' programs under 
which high school students take postsecondary courses and receive both 
secondary and postsecondary credit. This initiative would also help 
ensure that students completing such courses can continue and succeed 
in 4-year colleges and universities.

Federal TRIO Programs
    Answer. The President's fiscal year 2006 budget does not include 
funding for TRIO's Upward Bound and Talent Search programs because we 
believe our proposed $1.2 billion High School Intervention initiative 
would do a better job of improving high school education and increasing 
student achievement. Today, just 68 out of 100 9th graders will receive 
their diplomas on time. Moreover, only 51 percent of African-American 
students and 52 percent of Hispanic students will graduate from high 
school. Less than a third of students will leave high school ready to 
attend 4-year colleges. We believe a targeted and comprehensive 
approach is necessary to overcome these challenges.
    The new High School Intervention initiative would require each 
State to develop a plan for improving high school education and 
increasing student achievement, especially the achievement of low-
income students and students who attend schools that fail to make 
adequate yearly progress. States would be held accountable for 
improving the academic performance of at-risk students, narrowing 
achievement gaps, and reducing dropout rates, but States would have 
flexibility to provide the full range of services students need to 
ensure they are academically prepared for the transition to 
postsecondary education and the workforce. The initiative also would 
deepen the national knowledge base on what works in improving high 
schools and high school student achievement by supporting 
scientifically based research on specific interventions that have 
promise for improving outcomes.
    We believe this High School Intervention initiative would be more 
effective than our current, disjointed approach that has not served all 
students well. Upward Bound has been found to serve low-income students 
who have unusually high educational expectations and who would enroll 
in college regardless of their participation in the program. The high 
college enrollment rate for these Upward Bound students (65 percent) 
hides the reality that only 34 percent of the neediest students served 
by Upward Bound enroll in college. Although the program could have a 
significant impact if it served more students who truly need help, we 
do not have evidence to show that our efforts to target more of the 
neediest students have been successful. And the Administration's 
assessment of Talent Search did not find evidence that it is effective 
in helping disadvantaged students enroll in college.
    Replacing Upward Bound and Talent Search with the new High School 
Intervention initiative would help us reach our strategic goals of 
improving the performance of all high school students and increasing 
access to postsecondary education. The more comprehensive approach 
would give States the flexibility to incorporate the best elements of 
these programs to achieve better results. However, in the interest of 
minimizing the disruption of services to students, funding for the High 
School Intervention initiative would support existing Upward Bound and 
Talent Search projects that would be eligible for continuation funding 
in fiscal year 2006.

GEAR UP
    Answer. The President's fiscal year 2006 budget proposes to cut 
funding for GEAR UP for the same reasons--the new High School 
Intervention initiative would be a more targeted and comprehensive 
approach to improving high school education and increasing the 
achievement of all students. Although the Administration's assessment 
of GEAR UP found positive early results, there are no data regarding 
the program's effects on high school outcomes and college enrollment. 
The High School Intervention initiative would require States to focus 
on results, and it would provide support for rigorous, scientifically 
based research to determine the best methods for helping all students 
prepare for and succeed in college. In fiscal year 2006, continuing 
GEAR UP projects would be funded under the new initiative. In future 
years, the types of services currently provided under programs like 
TRIO and GEAR UP may be continued by States as part of their 
coordinated plans for improving high school education and increasing 
student achievement.

             PER PUPIL EDUCATION COSTS IN THE UNITED STATES

    Question. Every year when the budget comes out, there seems to 
always be an uproar from some of us on Capitol Hill that not enough 
funding was dedicated to the Department of Education. I appreciate that 
during this period of record high budget deficits, fiscal 
responsibility is a necessity. It also occurs to me, however, that 
regardless of how ``tight'' the budget is, there is a bottom dollar 
amount that it costs to educate a child. In your opinion, what is that 
amount for an elementary school student, a junior high school student, 
and a high school student? In asking this, I am asking for your expert 
opinion as the Secretary of the Department of Education and am 
referring to the total amount it costs to provide a public school 
student with the most basic education, regardless of funding source 
(i.e. Federal, State, or local government). Also, this question does 
not refer to how much is currently being spent per student, but how 
much do you believe is the bottom dollar amount that we should be 
spending per student.
    Answer. It is not possible to develop such a number for several 
reasons. The most fundamental reason is that what constitutes an 
appropriate education differs from State to State. As each State 
develops its own system of standards, it implicitly creates a different 
system of education needed to meet those standards with different 
costs. Additionally, differences in children mean differences in costs. 
The resources necessary to educate a third-grader who is blind are 
different from that necessary to educate a third-grader whose parents 
have just immigrated from a foreign nation.
    Goods and labor market conditions also affect costs. Fuel costs are 
higher in some States, making bus transportation more expensive. In 
some school districts, distances are great, similarly raising 
transportation costs. Economies of scale make education cheaper in some 
locales. A district that can take bids from several speech-language 
pathologists for services likely will have lower costs than a district 
with only one or two from which to choose. For all of these reasons, it 
is simply not possible to develop a meaningful measure of minimum costs 
necessary to educate a child at any age.

                         READING BY THIRD GRADE

    Question. Numerous studies, including those funded by the 
Department of Education, show that parents' low literacy affects their 
children's performance in school. The single most significant predictor 
of children's literacy is their mother's literacy level. Children of 
parents who have less than a high school education tend to do poorest 
on reading tests, while children of high school graduates do much 
better. These differences in test scores have held constant since 1971, 
and the same differences show up in the scores of 3rd, 8th, and 11th 
graders. We also know that the more literate parents are, the more they 
support and participate in their children's education. With the 
President's proposed cuts to Adult Basic and Literacy Education 
funding, how will parents with low literacy levels or limited English 
skills help their children achieve at the levels established by No 
Child Left Behind?
    Answer. The Department agrees that parents play a vital role in 
determining the success of a child's education. The parental 
involvement requirements under Part A of Title I, Title III, and other 
NCLB programs, encourage parents to become full partners in their 
child's education. NCLB provisions not only require schools to reach 
out to parents, through parental involvement activities, but also to 
provide information on school performance, school choice options, 
supplemental educational services, and other key elements of Title I to 
all parents and in a language and form that parents can understand.
    In addition, the Department remains committed to addressing the 
needs of immigrant and limited English proficient (LEP) students and 
their parents. The fiscal year 2006 request includes level funding at 
$68.6 million for English Literacy and Civics Education grants, which 
serve a vital purpose in States with large numbers of non-English-
speaking immigrants.

                          IMMIGRANT EDUCATION

    Question. According to the Aspen Institute, immigrants supplied 
half of our workforce growth in the 1990s and will account for all of 
our net workforce growth over the next 20 years. More immigrants 
arrived in the 1990s--13 million--than in any other decade in U.S. 
history. In light of these statistics, based on the 2000 Census and 
Bureau of Labor Statistics projections, the President's proposed budget 
cuts to Adult Basic and English Literacy programs do not make sense. 
Doesn't it appear that English as a Second Language funding for adults 
is more important than ever before?
    Answer. The Department agrees that there is a considerable need to 
address the needs of the immigrant population, both at the elementary 
and secondary levels as well as at the adult level. This is reflected 
in current budget request, which includes level funding at $68.6 
million for English Literacy and Civics Education grants to support 
States with large numbers of non-English-speaking immigrants. Unlike 
regular Adult Education State grants, which rely upon decennial U.S. 
Census data, English Literacy and Civics Education grants are based on 
a combination of 10-year Census averages and recent population data and 
are, therefore, more responsive to fluctuations in immigration 
patterns. English Literacy and Civics Education grants will enable 
limited-English-proficient (LEP) immigrants to attain the language 
skills that are central both to their integration into society and to 
their success as members of the workforce.

                                 ______
                                 
              Question Submitted by Senator Robert C. Byrd

                      ROBERT C. BYRD SCHOLARSHIPS

    Question. President Bush's fiscal year 2006 budget submission 
proposes to eliminate funding for the National Robert C. Byrd Honors 
Scholarship program. The scholarship program, which was established by 
Congress in 1986, makes awards to students in all 50 States, the 
District of Columbia, and Puerto Rico, and is the only merit-based form 
of Federal financial aid. According to the U.S. Department of 
Education, the program has made available a total of 336,525 1-year 
scholarships. The President's budget justification states that the 
National Robert C. Byrd Honors Scholarship program duplicates State, 
local, and private efforts. Madam Secretary, I recognize that the 
President's budget includes an increase in funding for Pell Grants, and 
that is welcome. But does the Bush Administration believe that we 
should not recognize and reward academic excellence, solely because 
some States, localities, and private institutions also recognize 
academic excellence?
    Answer. While the Administration agrees that it is important to 
reward academic excellence, the Administration believes that it is 
critical to focus such merit-based assistance on students with the 
highest financial need in order to target Federal assistance where it 
can be most effective. As a result, the Administration has requested 
$33 million for the Enhanced Pell Grants for State Scholars program. 
This program would provide up to an additional $1,000 in Pell Grants to 
students who complete a rigorous State Scholars curriculum in high 
school.
    The National Robert C. Byrd Honors Scholarship program was assessed 
using the Program Assessment Rating Tool (PART) for fiscal year 2006 
and received a rating of ``Results Not Demonstrated.'' The PART 
assessment identified several major design deficiencies that limit the 
program's effectiveness or efficiency. The PART assessment found the 
Byrd Honors Scholarship program to be duplicative of programs at the 
State, local and institutional level, noting that numerous non-Federal 
programs provide merit-based aid for outstanding students entering or 
continuing postsecondary education. All other Department scholarship 
programs are need-based, supporting those students who have a 
demonstrated financial need. This approach is central to one of the 
Department's strategic plan goals, which calls for the agency to 
increase access to quality postsecondary education especially to 
students with high financial need. The PART assessment noted that there 
is no evidence to suggest that scholarship recipients would otherwise 
be unable to attend college and that this program may subsidize 
activities that would have occurred without the program.
    In response to these findings, the Administration determined that 
the resources previously used to support this program should be shifted 
to higher priority programs that target funds more effectively. The 
Administration's budget request for other Federal student financial 
assistance programs demonstrates its commitment to ensuring that all 
Americans have access to and financial assistance for lifelong 
learning.

                          SUBCOMMITTEE RECESS

    Senator Harkin. Thank you very much, Madame Secretary.
    The subcommittee will stand in recess to reconvene at 10:30 
a.m on Tuesday, March 15 in room SD-124. At that time we will 
hear testimony from the Honorable Elaine Chao, Secretary, 
Department of Labor.
    [Whereupon, at 10:38 a.m., Wednesday, March 2, the 
subcommittee was recessed, to reconvene at 10:30 a.m., Tuesday, 
March 15.]

</pre></body></html>
